<html>
<title> - PUBLIC LANDS BILLS</title>
<body><pre>[Senate Hearing 112-642]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-642

 
                           PUBLIC LANDS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                              COMMITTEE ON

                                 of the

                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 303                                S. 1129

                           S. 1473                               S. 1492

                           S. 1559                               S. 1635

                           S. 1687                               S. 1774

                           S. 1788                               S. 1906

                           S. 2001                               S. 2015

                           S. 2056

 

                                     

                               __________

                             MARCH 22, 2012


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
77-160                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 RAND PAUL, Kentucky
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
CHRISTOPHER A. COONS, Delaware       DEAN HELLER, Nevada

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     2
Baucus, Hon. Max, U.S. Senator From Montana......................     4
Cantwell, Hon. Maria, U.S. Senator From Washington...............    34
Crary, Dusty, Choteau, MT........................................    51
Gann, Doug, National Forest Homeowners, Kirkland, WA.............    54
Kerr, Andy, Advisor, WildEarth Guardians.........................    47
Magagna, Jim, Executive Vice President, Wyoming Stock Growers 
  Association, Public Lands Council, Cheyenne, WY................    42
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Pool, Mike, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    10
Strahan, David, Grants Pass, OR..................................    39
Udall, Hon. Mark, U.S. Senator From Colorado.....................     8
Weldon, Leslie A.C., Deputy Chief, Forest Service, Department of 
  Agriculture....................................................    27
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    71

                              Appendix II

Additional material submitted for the record.....................    83


                           PUBLIC LANDS BILLS

                              ----------                              


                        THURSDAY, MARCH 22, 2012

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. Let me 
also say that all our guests and my good friend, Chairman 
Baucus, apologies for being a few minutes tardy. Today has been 
bedlam.
    This afternoon the Subcommittee on Public Lands and Forests 
is going to consider 13 bills involving National Forests and 
Public Lands.
    The agenda includes S. 303, Senator Murkowski's bill 
addressing claim maintenance fee waivers for small miners.
    S. 1129, Senator Barrasso's bill concerning grazing 
management.
    S. 1473, Senator Heller's Mesquite Nevada Land Conveyance 
bill.
    1492, another bill relating to Nevada, relating to the 
Three Kids Mine.
    S. 1559, Senator Cantwell's bill to establish the San Juan 
Islands National Conservation Area.
    S. 1635, Senator Udall's San Juan Mountains Wilderness Act.
    S. 1687, Chairman Bingaman's bill to modify the boundaries 
of the Carson National Forest in New Mexico.
    S. 1774, Chairman Baucus' Rocky Mountain Front Heritage 
Act.
    S. 1778, Senator Reed and Senator Heller's bill to 
designate the Pine Forest Range Wilderness in Nevada.
    S. 1906, Senator Tester's bill to establish a new formula 
for cabin fees on National Forests.
    S. 2001, my bill to expand the Wild Rogue Wilderness Area 
in Oregon and to designate additional segments of the Rogue 
River to the National Wild and Scenic River system.
     S. 2015, sponsored by Senators Enzi and Barrasso which 
would convey BLM land in Wyoming to the Powell Recreation 
District.
    Finally S. 2056, sponsored by Senator Hatch and Senator 
Enzi, authorizing the Secretary of the Interior to convey 
certain lands acquired for the Scofield Project in Utah.
    The subcommittee, obviously, has a full agenda this 
afternoon. We've had many hearing requests. So the point of 
today's subcommittee's hearing is especially is to hold a 
hearing to look at as many bills as possible since we know that 
a number of these bills are of particular interest to members 
of the committee.
    Given the fact that we're starting a bit late Chairman 
Baucus and others have been waiting, I'm going to put my 
remarks into the record, but just by way of one quick thought, 
the Rogue River legislation which I have authored with 
colleagues to expand the Wild Rogue Wilderness Area by 60,000 
acres. This is a part of our country that is one of America's 
premier recreation destinations. Famous for free flowing waters 
which provide numerous rafting, fishing, backpacking and hiking 
opportunities, spectacular cannons, diverse natural areas with 
habitat for Bald Eagles, elk, bears, green sturgeons, salmon 
and steelhead, among other species.
    So I'm going to put the rest of my remarks into the record. 
But would only note and I've heard Chairman Baucus and others 
talk about it that so many of the bills that we're talking 
about allow us to protect America's great treasures. Are also 
good for the economy and good for business because we see so 
many American businesses supportive of recreation and the 
values these bills represent.
    Senator Wyden. With that let me turn to Senator Barrasso. I 
also see the ranking minority m ember is here. We'll put 
everybody's statement into the record. I thank my colleagues 
for their attendance.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I wish 
to welcome Senator Baucus and also wanted to welcome Jim 
Magagna from the Wyoming Stock Growers Association. There are 3 
bills related to Wyoming included in this hearing. I wish to 
address S. 1129, the Grazing Improvement Act of 2011, S. 2015, 
the Powell Shooting Range Land Conveyance Act and S. 1906, the 
Cabin Fee Act of 2011.
    Livestock grazing on public lands has a strong tradition in 
Wyoming and the West. Ranchers are proud and responsible 
environmental stewards of the land. Yet ranchers face too much 
uncertainty surrounding their grazing permits.
    Hard working ranching families are routinely attacked by 
extreme anti-grazing and pro-litigation groups. Uncertainty and 
litigation undermine all businesses. It is especially true for 
rural ranching communities.
    These family ranches in many communities across the West 
are the driving force of rural economies. That's why I 
introduced the Grazing Improvement Act of 2011. This is an act 
that is needed by livestock grazing permit holders and the 
Federal Land Management Agencies themselves.
    Additionally for over a decade agencies have relied on year 
to year appropriation rider language to reissue grazing 
permits. My bill codifies this important language. The BLM and 
Forest Service simply cannot keep up with the required NEPA 
analysis due to limited funding and a backlog of lawsuits by 
the anti-grazing, pro-litigation groups. This bill provides the 
respective Secretaries with the needed flexibility when 
reissuing grazing permits. Such reforms will provide greater 
certainty and stability to the livestock grazing community, the 
rural economies and wildlife they support and our Federal land 
agencies.
    Additionally I'm pleased the committee is considering S. 
2015, a bill Senator Enzi introduced and I have co-sponsored. 
This legislation would convey land currently used as a shooting 
range to the Powell Recreation District in the State of 
Wyoming. The land has been used as a public recreational 
shooting complex since 1980. Once conveyed it will continue to 
operate as a public shooting range.
    The Powell Recreation District has been working to obtain 
this land since 2005 but has been unable to make progress due 
to questions of ownership. Senator Enzi and I looked at every 
option. We believe the most appropriate option for moving 
forward is passage of S. 2015. I hope the Department will agree 
with that assessment.
    Finally I want to say a word about S. 16--I'm sorry, 1906, 
the Cabin User Fee Act of 2011. This is the second time 
Congress has been asked to modify the Forest Service Cabin User 
Fee law. The Cabin User Fee Fairness Act of 2000 has proven 
unworkable and has resulted in excessive fees for cabin owners. 
I know my colleagues from Oregon, California, Washington and 
other States have heard from cabin owners who lease Federal 
Forest Service land for their cabins. Unless changes are made 
to the 2000 fee structure a good number of these folks will 
lose their cabins.
    I want to thank our witnesses, and appreciate their 
testimony. I look forward to working with my colleagues to move 
these important pieces of legislation forward.
    Senator Wyden. I thank my colleague. We always recognize 
our Chair and our Ranking Minority Member. Senator Murkowski I 
know you've got a bill to be considered as well today.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. I do, Mr. Chairman. I appreciate the 
committee's hearing this bill along with so many. As Senator 
Barrasso has outlined, there's a lot of small things. You've 
mentioned trying to move some things through.
    But a lot of small things have, I think, profound impact on 
men and women that are trying to make things happen. Whether 
it's out on the grazing lands or in the forests or up in Alaska 
where I'm focusing on an issue today as it relates to small 
mining operations. I have a bill, S. 303, that is up for 
consideration today.
    A number of years ago, the Congress created the Small Miner 
Waiver bill, which allows small plaster miners with fewer than 
ten claims to avoid paying their $125 claim fees provided that 
they perform minimum annual work required on the claims. The 
language was pretty clear that if the miners made a mistake in 
filing their waiver applications they'd be given 60 days after 
receipt of written notification to correct any defects for any 
reasons. It was pretty clear what the intent of Congress was.
    Small miners were going to get some pretty simple due 
process and have a chance to fix their mistakes before they 
lost their mining claims which they'd been working on for a 
considerable period of time. Instead what we're seeing is the 
BLM's Appeals Board has ruled that if an applicant's defect is 
an initially tardy arrival date, even by just 1 day, then the 
miner loses all claims. They lose them for good. They've ruled 
that there is no appeals process for the loss of the claims in 
this scenario.
    It doesn't matter whether the U.S. mails were late. It 
doesn't matter if the BLM personnel put the wrong time and date 
stamp on it. It doesn't make any difference if the computers 
were down at the BLM office as they were in the situation of 
the constituent in Alaska that we're speaking with. It doesn't 
make a difference if somebody had a bad day.
    It's just done. It's over. There is no process after that. 
The miner loses everything.
    I don't think, Mr. Chairman, this is what Congress had 
intended. It was pretty clear. So what my bill does is it 
requires BLM to notify a miner that his or her application was 
not received in a timely fashion. It gives the miner the same 
60 days to correctly file it or to pay their work maintenance 
fees and then if it doesn't happen then they lose the claims. 
So there's a process out there.
    This bill isn't going to cost the government much of 
anything. I can't believe that CBO is going to score this for 
more than a few thousand dollars for the time the clerk might 
have to spend to actually send notice letters to the dozen 
miners a year that I would suspect might be in this situation. 
But it is an extremely important measure to provide a modicum 
of due process protections to our small miners and making them 
petition a Congressman for private relief legislation every 
time something like this happens, I think is a waste of time. 
It risks their livelihood. It undercuts the respect for the 
basic fairness of the institution.
    So I hope that this committee would show some understanding 
here because the current practice by BLM, I don't think, is 
fair. I've had a tough time trying to explain to my 
constituents why we haven't already been able to remedy this. I 
hope we can advance the bill which, by the way, passed the 
Senate in 2007. Didn't clear the House this year, so we're 
going to give it another try.
    I want to submit for the record statements in support of 
the legislation by both the National Mining Association, the 
Northwest Mining Association and a statement by Alaska miner, 
John Trautner, who has been impacted by this issue.
    I thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Murkowski. I'm looking 
forward to the testimony and working with you.
    Chairman Baucus, you've been extremely patient. I know 
you're trying to protect a breathtaking part of your State. 
We're anxious to hear your remarks.

          STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman and 
Chairman Wyden, Senator Barrasso, Murkowski, Udall. It's a real 
honor for me to tell you how much we like Montana and how much 
this legislation is going to just help us in our State. It 
memorializes and take advantage of our great outdoors.
    We're an outdoor State, just like Alaska and Utah and like 
Oregon and Colorado and New Mexico and all these States. I like 
to think, I don't know if it's true or not, but I think we have 
more fishing licenses per capita and more hunting licenses per 
capita than any other State in the Nation. Although Senator 
Murkowski might take issue with that.
    Senator Wyden. There will be a competition.
    [Laughter.]
    Senator Baucus. We're--but we really love the out of doors. 
As you mentioned, Mr. Chairman, much of our, you alluded to it, 
our economy is recreation, is tourism. So this is jobs in 
Montana as well.
    But thank you for allowing me to testify in support of the 
Rocky Mountain Front Heritage Act. This is a bill I introduced 
after talking to a lot of groups at home over a long period of 
time. I went back to them over and over and over again.
    If you talked to the ranchers, if you talked to the miners, 
you talk to the motorized vehicle folks. You just make sure you 
talk to all the groups that are like really relevant is oh, 
yes, we have or do we have their support. We're getting it.
    Don't come back to me until you have their support. It's--
that's how this bill developed. I must say it embodies really 
who we are as a State.
    I'd like to start out by giving to you some idea how 
special a place the Front is. On your left is a photograph of 
Ear Mountain. Now I'm the guy there on the right.
    I must say to my friend from Colorado, this is not Everest. 
It's not K2. But sometimes, sir, I'd like to take you up Ear 
Mountain.
    It's a very special place in our part of the country. 
People climb here with some frequency. As you can tell the 
great view over the plains in Eastern Montana.
    On your right is the Sawtooth Ridge in the Front. Let me 
just tell you what the Front is. The Front is this.
    When James Hill was building the railroad, the Great 
Northern, coming West and homesteaders coming west, they'd 
stop, some even on their wagons. They come across the dusty, 
flat, Eastern part of Montana and then all of a sudden. Wow. Up 
sprung this mountain range right out of the plains and that's 
the Rocky Mountains, it's the Front.
    It's incredible. It's just so stunning. It's hard to get a 
picture of it with these two pictures, but it's a very special 
spot in our State. It's the Rocky Mountains. It's the Eastern 
side of the Rocky Mountains in Montana.
    Let me just read to you the Preamble of our Constitution to 
give you a sense of the State Constitution, what this means.
    ``We the people of Montana, grateful to God for the quiet 
beauty of our State, the grandeur of our mountains, the 
vastness of our rolling plains, and desiring to improve the 
quality of life, equality of opportunity and to secure the 
blessings of liberty for this and future generations, do ordain 
and establish this constitution.''
    We were the last State to write a constitution. It was back 
about 1970, 1972. I was there. I worked on the staff when this 
was written. This captures who we are as a State and protecting 
our great outdoors.
    Of course we want jobs. We work hard to get jobs. We've got 
the Bakken formation, huge oil and gas reserves being developed 
in Montana. In fact the Bakken formation is even starting at 
shale that's being fracked is coming all the way up close to 
the Front. But Montana is going to keep the Front the way it is 
because we want to develop oil and gas in other parts of our 
State. This is what defines us.
    Let me give you a couple of quotes.
    A guy named Ben Long from Kalispell, Montana wrote me a 
letter about how important this is. Another about climbing 
about Ear Mountain, another lady, Allisa Carrow of Stevensville 
thanked me. Here's what she said. ``Having access to wild lands 
is very important for hunting, not just for bringing home your 
own meat and for filling your own freezer, but also to get out 
and connect with the land.'' This is our heritage.
    Sportsman in Montana spend about ten million every year 
during hunting season on the Front. Good paying jobs rely on 
mineral leasing that's booming very close by in Teton and 
Pondera counties. But this bill will not stop that development. 
That development should go ahead and proceed.
    The point of the Rocky Mountain Front Heritage Act is to 
keep that heritage the way it is. This is a made in Montana 
bill. No one sat down in Washington and started to draw lines 
on a map.
    Let me tell you also what's captured this bill. The Western 
author Wallace Stegner said this. ``Who built the West as a 
living place? Frugal, hard, gloriously satisfying civilizations 
scrabbling for its existence against the forces of weather in a 
land as fragile as it is demanding was not rugged individuals, 
but cooperators.'' I add, underline rugged cooperators. That's 
who put this together, people cooperating.
    Dusty Crary, whom you'll hear from later, and Karl Rappold 
both here, they ranch along the Front. They know how important 
it is to Montanans and to their livelihood, their businesses. 
Gather around the kitchen tables in small towns like Choteau, 
Augusta and Fairfield. These ``rugged cooperator'' came up with 
the bill we're here to talk about.
    They came up with a good balance. 200,000 acres of 
conservation management areas, 67,000 acres of wilderness 
additions and a plan to block the invasion of noxious species 
like Spotted Knapweed that damage valuable forest. We have a 
strong weed control provision in here. We're going to make sure 
we do our very best to control weeds.
    Dusty is testifying because the bill was basically his 
idea. But it's also the idea of an awful lot of other ``rugged 
cooperators.'' They sat down and put this thing together.
    After hearing from many ranchers let me tell you something 
I insisted on. That's grazing. Make sure ranchers get billed to 
graze.
    I very much appreciate your bill, Senator, you know, the 
Grazing Improvement Act. I fully appreciate it. I'm sensitive 
to it and agree with the points you're making.
    Montana ranchers, I'm sure are just like Wyoming ranchers. 
They want to make sure they've got a lot on the National Forest 
land that it's--they're not being jacked around, that they can 
keep it. They can get access to it, to their ponds and they can 
fence and so forth.
    I made that point over and over and over again to the 
people who wrote this bill. How we're protecting grazing 
rights. Went back over and over again and made some adjustments 
and changes to help make sure that that's the case.
    So I'll just stop there by saying just, I think this is a 
no-brainer. There's no conflict. People worked very hard to 
make this happen. I just hope that we can get this passed this 
year because it would mean a lot to a lot of people.
    Senator Wyden. Thank you, Chairman Baucus.
    I don't have any questions myself. I'll turn it over to 
colleagues. But obviously you have done this in, kind of, 
vintage Baucus style, which is to really spend the time working 
through an issue again and again and again until you find that 
consensus.
    I've got written down, ``Made in Montana with rugged 
cooperators.'' I think that's a pretty good theme. I 
congratulate you for your good work.
    I'd just like to note for the record you've been very 
favorable. It was ``Made in Montana,'' but there were very 
favorable comments from the Natural Resources agencies here 
about your bill. That's to your credit as well.
    Senator Baucus. If I might just say, Chairman, too. I've 
been involved in wilderness bills done the other way.
    Senator Wyden. Right.
    [Laughter.]
    Senator Baucus. Top down. It doesn't work. It just does not 
work. So I'm very hopeful we can do it this way.
    Now it's not unimportant to note that all these people, who 
have worked so hard on this bill and took every person's view 
into consideration, it would be a tragedy is a bit too strong, 
if we let them down. Here they've done it the right way. They 
haven't tried to jam something down anybody's throat. They 
haven't come to Congress and said, do this because it's my way 
or the highway.
    Rather they worked and worked and worked to try to work 
with people that are in any way related to it. So I think it's 
important to uphold that effort. A lot of people who really 
want to work together at home to be able to reach conclusions 
where we justify, legitimize, we validate, you know, what they 
do. So long as it seems to make sense and clearly this bill 
makes a lot of sense.
    Senator Wyden. Said.
    Colleagues, questions for Chairman Baucus?
    Alright, Mr. Chairman, thank you.
    Senator Baucus. Thanks.
    Senator Wyden. I look forward to working closely with you 
and getting it out.
    Senator Baucus. You mentioned a lot of bills here and I'd 
like to help work with all of you too on the committee for 
those bills, get those passed as well.
    Senator Udall. Mr. Chairman.
    Senator Wyden. Senator Udall.
    Senator Udall. Mr. Chairman, if I might?
    Wallace Stegner was a marvelous writer and he's a 
touchstone for all of us Westerners and if I can I'm going to 
borrow the ``rugged cooperators'' concept.
    Senator Wyden. Right.
    Senator Udall. He also talked about stickers, people who 
stuck to the land. But I would note for the record that Senator 
Baucus is a rugged individual as well, but you could have been 
even more rugged if you'd climbed Ear Mountain in your bare 
feet like the man that's there in the picture with you.
    [Laughter.]
    Senator Udall. Thank you.
    Senator Baucus. My buddy took his shoes off at the top.
    [Laughter.]
    Senator Udall. Senator Murkowski would have climbed the 
mountain in her bare feet because we know how rugged she is. 
She's from Alaska.
    [Laughter.]
    Senator Baucus. We're not as tough as Alaskans.
    Senator Udall. But kudos to Senator Baucus.
    Senator Baucus. Thank you.
    Senator Udall. Colorado and I are going to speak briefly in 
a moment or two, but we're trying to do the same thing, follow 
your example.
    Senator Baucus. Thanks.
    Senator Udall. Thank you.
    Senator Baucus. Appreciate it. Thank you.
    Senator Wyden. Mr. Chairman, thank you.
    Let's bring forward Mr. Mike Pool, Deputy Director, Bureau 
of Land Management at the Department of Interior.
    Ms. Leslie Weldon, Deputy Chief, Forest Service, Department 
of Agriculture.
    Oh, as you all are coming forward let me also recognize 
that several colleagues came in and would like to be able to 
make some comments.
    Senator Udall, would you like to say something at this 
point?
    Senator Udall. I would. Thank you, Mr. Chairman. I have a--
--
    Senator Wyden. Senator Risch, would you like to say 
something at this point too?
    Senator Risch. No.
    Senator Wyden. OK.
    Senator Udall.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. I've got some brief comments. I know we're 
eager to hear from people who have come to testify. Thank you 
for holding this hearing. Thank you for including S. 1635, the 
San Juan Mountains Wilderness Act.
    As Senator Baucus so compellingly pointed out, the out of 
doors is an important part of our way of life, not just in 
Montana, but in Colorado, all over the West. I dare say, all 
over our country. But we're pretty proud and particular, to our 
part of the country.
    For many outfitters and small business owners, preservation 
of our State's majestic mountains and valleys is critical to 
their livelihoods and vital to their ability to create jobs. 
I've been committed to ensuring that Coloradans have a wide 
variety of options for recreation. Including places to bike, 
ski and snowmobile as well as back country trails and wide 
open, pristine lands will be preserved, frankly, for 
generations.
    Wilderness is one of our State's great economic engines. 
The bill that I mentioned is co-sponsored by my colleague, 
Senator Michael Bennet and was first introduced in 2009 by our 
former colleague and Congressman John Salazar. I want to 
express my deep appreciation for the work that Congressman 
Salazar and his staff did with all the stakeholders to develop 
the original bill in 2009.
    Let me tell you a little bit about the bill.
    It would designate over 33,000 acres of National Forest and 
Bureau of Land Management land in Southwestern Colorado as 
wilderness, mostly as expansions of existing Lizard Head and 
Mount Sneffels wilderness areas.
    It would also establish a new area called McKenna Peak, 
which presides over imposing sandstone cliffs that rise 2,000 
feet above the plains.
    I don't have to tell you these are very important lands 
that possess critical wildlife habitat, clean water and other 
scenic valleys. They would be very, very worthy additions to 
the National Wilderness Preservation System.
    S. 1635 would also protect 28,000 acres on Sheep Mountain 
and Naturita Canyon with other special designations.
    Now the bill protects existing water rights, allows 
continued grazing, does not affect the continued operation of a 
hydro electric plant, continues to allow established heli-
skiing on Sheep Mountain and does not interfere with an 
important and popular foot race called the Hard Rock 100.
    It does not affect any current legal motorized or 
mechanical access.
    The bill reflects extensive collaboration done over several 
years with local leaders and interested stakeholders.
    Because of this community based effort a large group of 
citizens, local leaders and other stakeholders from across 
Southwestern Colorado have officially come out in support. I'd 
like to mention these stakeholder groups: Ouray, San Miguel and 
San Juan County Commissions, the city of Ouray and the Towns of 
Ophir, Ridgway, Mountain Village, Telluride and Norwood as well 
as a number of local homeowner's associations and land owners. 
It was also endorsed by groups representing hunters and anglers 
including the Colorado based Bull Moose Sportsman Alliance, 
Colorado Back Country Hunters and Anglers and Trout Unlimited.
    Finally, a long list of small businesses in the region 
endorse the bill because they know that protecting the public 
landscapes helps create jobs and draws new residents, tourists 
and businesses to surrounding communities.
    This region, in fact I would say much of my State, depends 
on our surrounding public lands, not only for recreational 
opportunities, hunting and fishing and scenic vistas, all of 
which are vital to our local economies, but also for protecting 
municipal water supplies and clean air. Colorado's population 
is expected to double by 2050 and we need to be proactive so 
that future generations can experience the beauty, clean air 
and water and wildlife that we have today.
    I'm proud of my successful past work to designate 
wilderness at James Peak in Rocky Mountain National Park. I 
look forward to this bill and to my new, collaborative, 
community driven processes that I hope will ultimately lead to 
additional legislation to protect two other very special places 
in my State, the Central Mountains and the Arkansas River and 
Browns Canyon.
    Mr. Chairman, again, thank you for holding this important 
hearing.
    Senator Wyden. Thank you, Senator Udall. We'll be working 
closely with you on your legislation.
    Mr. Pool, Ms. Weldon, welcome and why don't you, if you 
would, just summarize your oral remarks. Some of you may have 
heard me over the years say that I know there's almost a 
biological compulsion to just read and make sure that every 
single word is read. If you could just, kind of, summarize your 
remarks, that would be very helpful because I know we've got a 
lot of guests here and a lot of interest.
    Mr. Pool.

    STATEMENT OF MIKE POOL, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Pool. Thank you, Mr. Chairman. Thank you for inviting 
the Department of Interior to testify on ten bills of interest 
to the BLM. I will briefly summarize our position on each of 
these bills and ask the entire statements be included in the 
record.
    Senator Wyden. Without objection, it's ordered.
    Mr. Pool. In addition I'm submitting a statement for the 
record on behalf of the Bureau of Reclamation, S. 2056, the 
Scofield Land Transfer Act. The Department would like to work 
toward addressing revisions outlined in their statement. I'm 
accompanied today by Richard Beeman, the Bureau of 
Reclamation's Regional Liaison to the Upper Colorado Region. 
We'll be happy to answer any questions regarding S. 2056.
    The Department of Interior supports each of the 5 bills 
providing for conservation designations on lands managed by the 
BLM.
    These bills are S. 1559, the San Juan Islands National 
Conservation Act.
    S. 1635, the San Juan Mountains Wilderness Act.
    S. 1774, the Rocky Mountain Front Heritage Act.
    S. 1788, the Pine Forest Range Recreational Enhancement 
Act.
    S. 2001, the Rogue Wilderness Area Expansion Act.
    Most of these proposals were included in Secretary 
Salazar's November 2011 preliminary report to Congress on BLM 
lands deserving protection. We welcome this additional 
attention to conserving these special places.
    Just some of the remarkable features including these areas 
are cold, sub Alpine lakes, rivers running through canyons of 
dense forest, prime destinations for hunters and anglers and a 
string of small islands and rocks from which Orcas, porpoises 
and sea lions can closely be observed. There's a long history 
of bipartisan support in Congress for the conservation of 
America's special places. These 5 diverse, unique and valued 
areas deserve swift Congressional action.
    Three of the bills provide for specific land conveyances. 
The BLM supports Senate bill 2015, the Powell Shooting Range 
Conveyance Act. Under the bill the BLM would convey 
approximately, excuse me, an isolated 322 acre tract of public 
land, Southeast of Powell, Wyoming to the Powell Recreation 
District for continued use as a shooting range. We welcome this 
opportunity to work with local community and to improve 
recreational activities.
    The BLM also supports the goals of two Nevada land 
conveyance bills, Senate bill 1492, the Three Kids Mine 
Remediation Reclamation Act and Senate bill 1473 which is the 
Mesquite Lands Act of 1986. Senate bill 1473 renews the city of 
Mesquite's exclusive right to buy lands for economic 
development purposes until the year 2021 and allows some of the 
proceeds to fund a multi-species conservation plan for the 
nearby Virgin River. The economic downturn and other factors 
have made the extension necessary.
    The other bill, S. 1492, offers an innovative solution to a 
long standing issue surrounding the abandoned Three Kids Mine 
in Henderson. S. 1492 provides for the conveyance of the public 
lands to the Henderson Redevelopment Agency at fair market 
value less the estimated cost to assess, remediate and reclaim 
the site. The Federal Government would be released from all 
liabilities arising from the contamination of the site.
    The Department of Interior opposes S. 303. The bill 
requires the BLM to offer relief to miners with ten or fewer 
claims from long standing regulatory requirements. It also 
singles out for special treatment two mining claimants whose 
claims had been deemed forfeited as read in the legislation 
would effectively eliminate the deadlines for filing a small 
miner waiver in an affidavit of annual assessment work. 
Defining an untimely filing as ``defective'' would require the 
BLM to accept filings after the deadline no matter how late. 
This change will place an excessive Administrative review and 
notification burden on BLM and would vastly increase the cost 
of administering the small miner waiver program.
    Finally I'd like to address S. 1129, the Grazing 
Improvement Act. The BLM recognizes that sustainable use of 
public lands is important to people who make their living on 
these landscapes. People like our livestock permitees. 
Livestock grazing is an important part of BLM's multiuse 
mission. At the right levels and timing grazing can serve as an 
important vegetative management tool improving wildlife habitat 
and reducing the risk of catastrophic wildfire.
    The BLM is committed to collaborating with those who work 
on the public lands. Take seriously as charged to conserve and 
manage healthy range lands for current and future generations. 
The Department shares the committee's interest in increasing 
efficiencies in public land grazing administration as well as 
finding ways to make permit renewal less complex, costly and 
time consuming.
    Now where the Department cannot support S. 1129 because of 
the provisions for automatic permit renewal without assurances 
that permitees are meeting land held standards and because of 
the limitations on the bill--because of the limitations the 
bill would place on BLM's ability to provide for appropriate 
environmental review and public involvement. We view this as 
critical components of BLM's multiuse management of public 
lands.
    The BLM would like to work with the committee to make 
progress on these shared goals while maintaining the integrity 
of NEPA, the Nation's bedrock, environmental and citizen 
involvement law and FLPMA, our multiple use statute requiring 
consideration of many uses and values of public lands.
    Thank you for, again, the opportunity to testify today.
    [The prepared statement of Mr. Pool follows:]

   Prepared Statement of Mike Pool, Deputy Director, Bureau of Land 
           Management, Department of the Interior, on S. 303

    Thank you for the opportunity to testify today on S. 303, which 
would require the Bureau of Land Management (BLM) to allow mining 
claimants a chance to ``cure'' their failure to meet the required 
filing deadlines. This bill would also give private relief to two 
particular mining claimants whose mining claims have been deemed 
forfeited or abandoned for failure to comply with applicable laws and 
regulations, and would give one of those claimants the opportunity to 
obtain fee title to the reinstated mining claims from the Government.
    The Department of the Interior opposes S. 303 because of the 
enormous administrative burden it would generate, and because it 
singles out two mining claimants for special treatment and leaves open 
the question as to how other mining claimants in similar situations 
would be affected.
Background
    The Omnibus Budget Reconciliation Act of 1993, Pub. L. No. 103-66 
Sec. Sec.  10101 to 10106, 107 Stat. 312, 405-07 (Aug. 10, 1993) 
(maintenance fee statute), established an annual maintenance fee for 
unpatented mining claims, mill sites, and tunnel sites. This annual 
maintenance fee is currently set by regulation at $140 per mining claim 
or site. The maintenance fee statute also gave the Secretary of the 
Interior the discretion to waive the annual maintenance fee for certain 
``small miners''--mining claimants who hold 10 or fewer claims or 
sites.
    Following the enactment of the maintenance fee statute, the 
Department promulgated regulations that exercised the Secretary's 
discretion to allow the ``small miner waiver.'' These regulations state 
that in order to qualify for this ``small miner waiver'' under the 
maintenance fee statute, the claimant must, among other things, file a 
maintenance fee waiver request that certifies that he and all related 
parties hold 10 or fewer mining claims or sites. Under the original 
regulations, the deadline for filing the maintenance fee waiver request 
for the upcoming assessment year was August 31, which was the same day 
as the statutory deadline for filing annual maintenance fees. When 
Congress changed the statutory annual maintenance fee deadline to 
September 1, the Department changed the deadline for maintenance fee 
waiver requests to also be September 1 for the coming assessment year. 
The Secretary's decision to make the regulatory deadline for filing 
maintenance fee waiver requests the same as the statutory deadline for 
paying annual mining claim maintenance fees took into consideration the 
statutory constraint that maintenance fee waivers could not legally or 
practically be sought any later than the deadline for the maintenance 
fee itself.
    The same year that Congress changed the deadline for paying the 
maintenance fee to September 1, it amended the maintenance fee statute 
to allow claimants seeking a ``small miner waiver'' to cure a 
``defective'' waiver certification. Omnibus Consolidated and Emergency 
Supplemental 3 Appropriations Act for Fiscal Year 1999, Pub. L. No. 
105-277, 112 Stat. 2681-235 (1998) (codified as amended at 30 U.S.C. 
Sec.  28f(d)(3)). The amendment required the BLM to give claimants 
filing timely ``defective'' maintenance fee waiver requests notice of 
the defect and 60 days to cure the defect or pay the annual maintenance 
fee due for the applicable assessment year.
    Another change in the administration of mining laws and regulations 
occurred in the Department of the Interior and Related Agencies 
Appropriations Act of 1995, Pub. L. No. 103-332 Sec. Sec.  112-113, 108 
Stat. 2499, 2519 (Sept. 30, 1994), which placed a moratorium on the 
patenting of new mining claims or sites, and the further processing of 
existing patent applications; this moratorium has continued unbroken 
through subsequent appropriations language. The processing of a patent 
application to completion can result in the transfer of fee title or 
``patent'' to the claimant for the Federal lands where the claims and 
sites are located.
    Congress provided an exemption from the patenting moratorium for 
applicants who had satisfied the requirements of the Mining Law of 1872 
for obtaining a patent before the moratorium went into effect. Only 
patent applications for which a ``First Half of Mineral Entry-Final 
Certificate''(FHFC) had been issued were considered exempt or 
``grandfathered'' from the moratorium. Over 600 patent applications 
were pending with the BLM when the moratorium went into effect on 
October 1, 1994. Of those, 405 patent applications had received a FHFC 
by September 30, 1994, and were determined to be ``grandfathered'' from 
the moratorium. Mining claimants in a ``grandfathered'' patent 
application are not required to comply with the maintenance fee statute 
after the FHFC was issued.
    The remaining 221 patent applications were considered ``non-
grandfathered'' and subject to the moratorium. The BLM did no further 
processing of these patent applications and the mining claimants were 
responsible to continue to meet annual maintenance requirements--timely 
payment of the annual maintenance fee, or filing a small miner waiver 
and completing the required annual assessment work--in order to keep 
their mining claims active and their ``non-grandfathered'' patent 
applications pending.
S. 303
    Section 1(a) of S. 303 would require the BLM to provide holders of 
10 or fewer mining claims or sites with written notice of any 
``defect'' in their maintenance fee waiver request or their affidavit 
of annual assessment work associated with the request. Unlike the 
current maintenance fee statute, failure to timely file the waiver 
request or affidavit of annual assessment work would be considered a 
``defect'' under S. 303. As under the current statute, mining claimants 
would have 60 days from the receipt of written notice to correct that 
defect or pay the applicable maintenance fee.
    The BLM opposes the provision in Section 1(a) to amend the 
maintenance fee statute to make failure to timely file a small miner 
fee waiver request a curable ``defect.'' The BLM also opposes amending 
the maintenance fee statute to allow claimants to ``cure'' defective 
affidavits of annual assessment work, including failure to timely file 
the affidavits as required by section 314 the Federal Land Policy and 
Management Act. Currently, the cure provision in 30 U.S.C. Sec.  
28f(d)(3) applies only to maintenance fee waiver requests.
    As written, the legislation would effectively eliminate the 
deadlines for filing a small miner waiver and affidavit of annual 
assessment work. Defining an untimely filing as ``defective'' would 
require the BLM to accept late filings after the deadline, no matter 
how late. This change will place an excessive administrative review and 
notification burden on the BLM and would vastly increase the cost of 
administering the small miner waiver. Further, it would enable a mining 
claimant to avoid filing the waiver or affidavit of annual work and 
hold the claims or sites in suspense until the BLM is able to identify 
the deficiency and notify the claimant.
    Under Section 1(a) of S. 303, if a mining claimant either files an 
untimely maintenance fee payment or waiver or fails to make any filing 
at all, the BLM would no longer be able to simply declare the mining 
claim void by operation of law, as authorized under the current 
maintenance fee statute since 1994. Rather, under this new provision, 
if any claimant fails to pay the annual maintenance fee by the 
deadline, the BLM will have to first determine whether the claimant is 
qualified as a small miner and, if so, give notice and opportunity to 
cure--whether or not the claimant had any intention of filing a 
maintenance fee waiver request.
    This additional administrative step would be required even if the 
holder of the mining claim or site had not filed a maintenance fee 
waiver in the past, for two reasons. First, fewer than 13,000 mining 
claimants among those who are eligible for a maintenance fee waiver 
each year actually request a waiver, and S. 303 does not restrict the 
``cure'' provisions to those claimants who had intended to file a 
waiver but missed the deadline. Second, verifying eligibility for the 
``cure'' provisions of S. 303 would be required each year for any 
mining claimant who missed the payment deadline because eligibility for 
a maintenance fee waiver depends on the number of mining claims and 
sites on the date that the maintenance fee payment was due. See 30 
U.S.C. Sec.  28f(d).
    It would be costly and difficult for BLM to assess whether every 
mining claimant who either makes an untimely filing or fails to file 
anything is eligible to invoke the ``cure'' provisions of S. 303. 
Moreover, because the agency would have no way to determine if a 
claimant holding 10 or fewer claims or sites had simply decided not to 
pay the fee or file the fee waiver request and intentionally relinquish 
his claims, the BLM would have to send a ``defect'' notice to all such 
claimants who fail to either timely pay their maintenance fees or 
timely file a maintenance fee waiver request and give them the 
opportunity to cure. This effectively extends the payment deadline for 
any claimant holding 10 or fewer mining claims by removing any penalty 
for failing to pay in a timely manner.
    In addition, this increased administrative burden would so 
drastically increase the processing time for all mining claimants as to 
allow some claimants to continue to hold and work their claims for 
months or potentially years after what would have been forfeiture by 
operation of law under the current statute without providing payment. 
It would be challenging for the BLM to reliably determine if a mining 
claimant intended to relinquish his mining claim or site. Action on the 
part of individuals wishing to maintain a claim to a Federal resource 
is a basic responsibility found in many of our Federal programs. 
Relieving individuals of this basic responsibility is contrary to the 
interest of the general public that owns the property.
    In addition, the BLM opposes the bill's provisions outlined in 
Section 1(b) under ``Transition Rules'' on behalf of two mining 
claimants who forfeited their claims for failure to meet the filing 
requirements discussed above. Section 1(b) is essentially a private 
relief bill that gives special treatment to two sets of claimants, 
allowing their mining claims to be reinstated, and allowing one of them 
to have his patent application considered ``grandfathered'' from the 
patent moratorium.
    The mining claims described under Sec. 1(b)(1) belonged to a 
claimant from Girdwood, Alaska. The claimant owned nine mining claims 
located in the Chugach National Forest in southeastern Alaska. The 
claimant had filed a patent application for these mining claims, but 
his application had not received a FHFC by the deadline. As such, his 
patent application was considered ``non-grandfathered'' and his mining 
claims were subject to ongoing annual maintenance requirements. The BLM 
determined these mining claims to be statutorily abandoned in January 
2005 when the claimant failed to file his annual assessment work 
documents in accordance with the Federal Land Policy and Management Act 
of 1976, and the Interior Board of Land Appeals subsequently upheld the 
BLM's decision. The bill would give the claimant the opportunity to 
``cure'' the defects that led to his mining claims being declared 
abandoned and void, and to pay prior maintenance fees or seek a waiver 
of those fees for his mining claims.
    The bill would also consider the claimant ``to have received first 
half final certificate'' for these voided mining claims before 
September 30, 1994, thereby ``grandfathering'' his patent application 
from the patent moratorium. A portion of the land formerly covered by 
these claims is now closed to mineral entry, because the State of 
Alaska has filed Community Grant Selection under the authority of the 
Alaska Statehood Act. Considering the claimant's patent application 
``grandfathered'' would give him priority over the State of Alaska with 
respect to these lands, and may mean that he, rather than the State of 
Alaska, would obtain the fee title.
    The forfeited mining claims described under Sec. 1(b)(2) belonged 
to claimants from Homer, Alaska, and are located on the Seward 
Peninsula in western Alaska. In 2009, the BLM declared the claimants' 
mining claims to be forfeited for failure to timely pay maintenance 
fees or file a maintenance fee waiver request, and the Interior Board 
of Land Appeals upheld the BLM's decision in 2010. The claimants are 
now challenging the Department's voidance decision in Federal court in 
Alaska. The bill would allow the claimants' forfeited mining claims to 
be reinstated by ``curing'' their untimely maintenance fee waiver 
request or paying the applicable maintenance fees. The claimants are 
seeking private relief because the State of Alaska has selected these 
lands under the authority of the Alaska Statehood Act. As discussed 
above, selection by the State of Alaska has closed these lands to 
mineral entry, so the claimants may not relocate their claims.
    The BLM's final concern with respect to this legislation requiring 
the BLM to consider failure to timely file a maintenance fee waiver 
certificate a curable ``defect'' is that the bill is unclear as to the 
retroactive effects on other small miners who have forfeited or 
abandoned their mining claims because they failed to timely file a 
small miner waiver or affidavit of annual assessment work. This 
includes those small miners who have lost their challenges of BLM 
decisions declaring their claims forfeited or abandoned at the IBLA. 
Furthermore, the Department of Justice advises that, as a practical 
matter, it seems likely that small miners will pursue a ``cure'' for 
failure to pursue a small miner waiver only where the claim owner 
cannot simply relocate that claim, which might occur if, for example, 
intervening rights have been granted or the land has been conveyed or 
assigned other uses. If that has happened, then reinstating any 
forfeited or abandoned mining claims would create confusion, and 
generate litigation, and could arguably create takings liability on the 
part of the United States.
Conclusion
    Thank you again for the opportunity to testify on S. 303. I would 
be glad to answer your questions.

                               ON S. 1129

Introduction
    Thank you for the opportunity to present the views of the 
Department of the Interior (Department) on S. 1129, the Grazing 
Improvement Act. The Bureau of Land Management (BLM) is dedicated to a 
broad range of stewardship goals, including the long-term health and 
viability of the public rangelands. Our Nation's rangelands provide and 
support a variety of goods, services, and values important to every 
American. In addition to being an important source of forage for 
livestock, healthy rangelands conserve soil, store and filter water, 
sequester carbon, provide a home for an abundance of wildlife, provide 
scenic beauty and are the setting for many forms of outdoor recreation.
    The BLM recognizes that the conservation and sustainable use of 
rangelands is important to those who make their living on these 
landscapes-including public rangeland permittees. Public land livestock 
operations are important to the economic well-being and cultural 
identity of the West and to rural Western communities. Livestock 
grazing is an integral part of BLM's multiple-use mission, and at the 
right levels and timing, can serve as an important vegetation 
management tool, improving wildlife habitat and reducing risk of 
catastrophic wildfire.
    The BLM is committed to collaborating with those who work on the 
public lands and takes seriously its challenge to conserve and manage 
healthy rangelands for current and future generations.
    The Department shares the Committee's interest in identifying 
opportunities for increasing efficiencies in public land grazing 
administration, as well as finding ways to make permit renewal less 
complex, costly, and time-consuming. The BLM would like to work with 
the Committee to further these shared goals. However, the Department 
cannot support S. 1129 as it limits the BLM's ability to provide for 
appropriate environmental review and public involvement-critical 
components of the BLM's multiple-use management of the public lands-as 
well as the BLM's ability to implement permits that have been appealed. 
The Department looks forward to continuing a dialogue with the Congress 
on these important matters.

Background
    The BLM manages approximately 17,750 livestock grazing permits and 
leases for 12.3 million AUMs (animal unit months) on over 160 million 
acres of public lands in the West. Since 1999, the BLM has evaluated 
the health of the rangelands based on standards and guidelines that 
were developed with extensive input from the ranching community, as 
well as from scientists, conservationists, and other Federal and state 
agencies. The BLM collects monitoring and assessment data to compare 
current conditions with the standards and land use plan objectives. 
This information is used to complete environmental assessments, to 
develop alternative management actions, and to modify grazing 
management as needed.
    The BLM administers the range program through issuance of grazing 
permits or leases. The Federal Land Policy and Management Act (FLPMA) 
provides for a 10-year (or less) term for grazing permits. In a typical 
year, the BLM processes over 2,000 permit renewals or transfers. In 
1999 and 2000, the BLM saw a spike in permit renewals, when over 7,200 
permits were due for renewal. The BLM was unable to process all those 
permits before expiration, which resulted in a backlog of grazing 
permit renewals that remains today. By the end of the 2012 Fiscal Year, 
BLM anticipates that a backlog of 4,200 unprocessed permits will 
remain. The BLM is committed to eliminating the backlog of grazing 
permit renewals and to issuing permits in the year they expire. An 
increase in appeals and litigation of grazing management decisions 
continues to pose significant workload and resource challenges for the 
BLM.
    The BLM will continue to focus on grazing permits for the most 
environmentally sensitive allotments, using authorities Congress 
provided in the FY 2012 Consolidated Appropriations Act concerning 
grazing permit renewals and transfers. This strategy will allow the BLM 
to address a wide array of critical resource management issues through 
its land health assessments and grazing decisions. Additionally, this 
strategy will help ensure that the backlog of unprocessed permits 
consists of the least environmentally-sensitive allotments that are 
more custodial in nature and/or that are already meeting land health 
standards.

S. 1129
    S. 1129 provides for automatic renewal of all expired, transferred, 
or waived permits, and categorically excludes all permit renewals, 
reissuance, or transfers from preparation of an environmental analysis 
under the National Environmental Policy Act (NEPA) if the decision 
continues current grazing management of the allotment. Terms and 
conditions of the permit would continue until a permit is later renewed 
in full compliance with NEPA and other Federal laws. The bill does not 
first require a determination that the permittee is meeting land health 
standards. S. 1129 also doubles the duration of grazing permits from 10 
to 20 years. Additionally, it provides for the transfer of permits 
without further environmental analysis when terms and conditions are 
unchanged, but only for the remaining term of the permit.
    The Department supports the concept of having the flexibility to 
issue longer term permits in certain circumstances, as well as the 
transfer provision that is currently in place under the FY 2012 
Consolidated Appropriations Act. That provision is expected to reduce 
the permit renewal workload in 2013 by about 700 permits. The number of 
transfers needing processing each year is unpredictable, posing 
significant challenges to the BLM as it works to manage staff and other 
resources.
     However, S. 1129 also includes provisions that the Department 
cannot support since they provide for automatic permit or lease renewal 
without requiring further analysis, or requiring the permittee to meet 
land health standards. The bill also limits the BLM's ability to 
provide for appropriate environmental review and public involvement. As 
written the bill would result in the majority of permits being renewed 
under a categorical exclusion, although it is unclear what constitutes 
a ``minor modification'' and whether extraordinary circumstances would 
need to be applied in situations where current management was being 
continued. The engagement of the public through the environmental 
review process under NEPA is a crucial component of the BLM's multiple-
use management of the public lands.
    Further, S. 1129 requires that if a permittee appeals a grazing 
permit or lease decision, the BLM must suspend the decision until the 
appeal is resolved. Under current regulations, a typical BLM grazing 
decision is implemented while under appeal unless the permittee or 
interested public requests, and the Interior Board of Land Appeals 
grants a stay of the decision. By contrast, under S. 1129, if a 
permittee appealed a grazing decision, the BLM could not implement the 
decision unless it determined there was an emergency regarding 
deterioration of resources. Otherwise, the permittee could continue 
grazing at the current level of use until the appeal was resolved. The 
provisions would effectively give a permittee, by the simple act of 
appealing any grazing decision, the ability to continue current levels 
of use for an indefinite period of time (since appeals and litigation 
may take years). Moreover, grazing at the current level could continue 
even if the BLM determined land health standards were not being met and 
changes to the permit were thus warranted.
    In summary, while S. 1129 contains provisions that would expedite 
permitting, the Department cannot support the overarching impact the 
bill could have on the 160 million acres of public lands used for 
livestock grazing.

Conclusion
    Thank you for the opportunity to present testimony on S. 1129. The 
BLM looks forward to working with the Congress to develop improvements 
to the grazing permit renewal process while maintaining the integrity 
of NEPA, the Nation's bedrock environmental and citizen involvement 
law, and FLPMA, our multiple-use statute requiring consideration of 
many uses and values of the public lands. I will be pleased to answer 
any questions.

                               ON S. 1473

    Thank you for the opportunity to present the views of the 
Department of the Interior on S. 1473, which amends the Mesquite Lands 
Act of 1986 in order to renew the exclusive right of the City of 
Mesquite, Nevada, to purchase certain public lands for development, and 
allows for proceeds from land sales to be used to implement a habitat 
conservation plan for the Virgin River and any associated groundwater 
monitoring plan. The Department of the Interior supports the goals of 
the bill, however, we believe we can achieve the purposes of the bill 
administratively, such as through sales under the Federal Land Policy 
Management Act (FLPMA) or the issuance of an airport lease.

Background
    The Mesquite Lands Act of 1986 (PL 99-548) as amended by PL 104-
208, PL 106-113 and PL 107-282,has provided the City of Mesquite, a 
community located in eastern Clark County, Nevada, between Las Vegas 
and St. George, Utah, the exclusive right to purchase lands to its west 
for a replacement airport and related development. To date, the city 
has acquired approximately 7,700 acres of public lands from the BLM. 
These authorities expired on November 29, 2011.
    In addition to identifying lands for sale, the Mesquite Lands Act, 
as amended, provides that a portion of the proceeds from the sale of 
certain parcels be deposited in an account established under the 
Southern Nevada Public Land Management Act of 1998 (SNPLMA). It also 
provides that these funds would be available to pay for, among other 
things, the BLM's costs to convey land to the City of Mesquite and the 
development of a multispecies habitat conservation plan for the Virgin 
River, also in Clark County. The U.S. Fish and Wildlife Service, in 
cooperation with the BLM, has begun work on the plans for the Virgin 
River. These authorities also expired on November 29, 2011.

S. 1473
    S. 1473 renews until November 29, 2021, the City of Mesquite's 
exclusive right to purchase parcels of public lands identified in the 
PL 106-113 amendment to the Mesquite Lands Act, which are near lands 
already acquired by the City. It also allows for the proceeds from 
previous land sales to Mesquite to be used to implement a multispecies 
habitat conservation plan for the Virgin River in Clark County and any 
associated groundwater monitoring plan. It also extends the withdrawal 
of the lands from all forms of location, entry and appropriation under 
the public land laws, including mining laws, and from operation of 
mineral leasing and geothermal leasing laws, subject to valid existing 
rights.
    The BLM supports the bill and its goal of providing for the 
economic development needs of Mesquite, Nevada. Some of the lands that 
may be acquired through enactment of the bill have been identified for 
a proposed replacement airport and related development. The legislation 
will provide additional time for the Federal Aviation Administration 
(FAA) to complete an environmental evaluation under the National 
Environmental Policy Act for the replacement airport and to identify 
mitigation measures, if necessary. The BLM is working with the FAA and 
the Nevada State Historic Preservation Office to develop appropriate 
measures to mitigate potential impacts to the Old Spanish National 
Historic Trail as a result of the proposed replacement airport. The 
additional time provided by this legislation will aid this effort.

Conclusion
    That concludes our prepared testimony in support of S. 1473. We 
would be glad to answer your questions.

                               ON S. 1492

    Thank you for the opportunity to testify on S. 1492, the Three Kids 
Mine Remediation and Reclamation Act. S. 1492 seeks to resolve 
longstanding issues surrounding the abandoned Three Kids Mine, in 
Henderson, Nevada. During the past four years, the Bureau of Land 
Management (BLM) in Nevada has worked with Nevada governmental entities 
in search of administrative remedies to the problems posed by the 
abandoned mine. The BLM supports the goals of S. 1492, which aims to 
provide legislated solutions to the issues surrounding the Three Kids 
Mine area and clear the way for its eventual development. However, we 
have concerns and the legislation needs a number of modifications.

            Background
    The Three Kids Mine is an abandoned manganese mine and mill site 
located along the south side of Lake Mead Drive, across the highway 
from Lake Las Vegas, in Henderson, Nevada. The mine and mill operated 
from 1917 through 1961 on 314 acres of private land, in part providing 
steel-strengthening manganese to the defense industry and contributing 
to the United States' efforts in World War I and II. Federal manganese 
reserves were stored in the area from the late 1950s through 2003. S. 
1492 directs 948 acres of the public lands adjacent to the private site 
be conveyed, bringing the total size of the project area to 1,262 
acres. Of the 948 acres of public lands, 146 acres are contaminated and 
will require mine reclamation and environmental remediation. The most 
severe contamination appears to be on the 314 private acres where the 
mine and mill were located. No viable former operator or responsible 
party has been identified to remediate and reclaim the abandoned mine 
and mill site. Today, the site's deep open pits, large volumes of mine 
overburden and tailings, mill facility ruins, and solid waste disposal 
areas pose significant risks to public health, safety and the 
environment. The Nevada Division of Environmental Protection (NDEP) 
identified the Three Kids Mine site as a high priority for the 
implementation of a comprehensive environmental investigation, 
remediation, and reclamation program.
    Representatives of the BLM, the Bureau of Reclamation, and the 
Department of the Interior Solicitor's Office have worked with the City 
of Henderson and representatives of developer Lakemoor Canyon, LLC, to 
find solutions to the complex challenges this site presents. 
Discussions have focused on overlapping Federal agency jurisdictions, 
land management designations and other resource issues, Resource 
Management Plan amendments, future liability, and an important utility 
corridor that traverses the site.

S. 1492
    S. 1492 designates the combined 314 acres of private land and 948 
acres of public land as the 1,262-acre ``Three Kids Mine Project Site'' 
and provides for the conveyance of the public lands to 2 the Henderson, 
Nevada Redevelopment Agency. The legislation further provides that fair 
market value for the Federal lands to be conveyed should be determined 
through standard appraisal practices. Subsequent to that determination, 
the Secretary shall determine the ``reasonable approximate estimation 
of the costs to assess, remediate, and reclaim the Three Kids Mine 
Project Site.'' That cost would then be deducted from the fair market 
value of the public land to be conveyed. The Henderson Redevelopment 
Agency would pay the adjusted fair market value of the conveyed land, 
if any, and the Federal government would be released from ``any and all 
liabilities or claims of any kind arising from the presence, release, 
or threat of release of any hazardous substance, pollutant, 
contaminant, petroleum product (or derivative of a petroleum product of 
any kind), solid waste, mine materials or mining related features'' at 
the site in existence on or before the date of the conveyance.
    While the BLM has not established a range for the cost of cleanup, 
a proponent of the transaction, Lakemoor Canyon, LLC, estimates the 
cost of remediating the public and private lands at between $300 
million and $1.3 billion. While it is possible that the cost of 
remediating and reclaiming the entire project area might exceed the 
fair market value of the Federal land to be conveyed, the cost of the 
transaction will only be known after the Secretary completes the 
appraisal process outlined in the legislation. There has been no 
determination regarding the Federal government's liability for 
reclaiming the private lands in the project area.
    The BLM supports innovative proposals to address the cleanup of the 
Three Kids Mine, and we do not oppose this proposal to transfer the 
entire 948 acres of public land to the Henderson Redevelopment Agency 
at fair market value, subject to valid existing rights. However, the 
BLM has concerns about the legislation. Most importantly, the BLM 
recommends the bill be amended to clarify that the Federal land in the 
Project Area is conveyed to the Henderson Redevelopment Agency after 
the Secretary appraises the Federal land and the cost of remediating 
and reclaiming the site and before the remediation and reclamation 
activities begin.
    Additionally, there are a number of minor and technical concerns 
that need to be addressed, including the timeframes for conducting an 
appraisal and for securing a Phase II environmental assessment from the 
Hendersonville Redevelopment Authority. The BLM also notes that under 
the legislation, the subsurface mineral rights would be included in the 
sale of lands and should be included in any appraisal of the value of 
the land. The BLM recognizes that the transfer would include a small 
portion of the River Mountains ACEC, and we would like to discuss with 
the committee opportunities to mitigate that loss. Finally, the Bureau 
of Reclamation would like to work with the bill's sponsors and the 
Southern Nevada Water Authority (SNWA) to ensure that SNWA's current 
needs for access to and protection of critical water and utility 
infrastructure are specifically addressed in the legislation.

            Conclusion
    Thank you for inviting the Administration to testify on S. 1492. 
The Three Kids Mine problem needs to be resolved, and we look forward 
to working toward a solution that protects the environment and serves 
the public interest. I would be happy to answer your questions.

                               ON S. 1559

    Thank you for the invitation to testify on S. 1559, the San Juan 
Islands National Conservation Area Act. The Department of the Interior 
supports S. 1559 and urges Congress to move swiftly to designate 
Washington State's San Juan Islands as a National Conservation Area 
(NCA). Secretary of the Interior Salazar has made several trips to the 
San Juan Islands, most recently in February of this year, and has heard 
from local citizens about their strong support for protecting this 
special place. The Secretary's November 2011 Preliminary Report to 
Congress on BLM Lands Deserving Protection as National Conservation 
Areas, Wilderness or Other Conservation Designations highlighted the 
San Juan Islands NCA as a proposal deserving Congress' prompt 
attention.

Background
    The Bureau of Land Management (BLM) currently administers nearly 
1,000 acres of the proposed NCA land in the San Juan Islands of Puget 
Sound, Washington. These lands include portions of a few large islands 
and over 50 small islands, rocks, pinnacles, and outcroppings. These 
islands have been molded and shaped through tens of thousands of years 
of glacial forces.
    Anglers, hikers, and wildlife watchers are all attracted to the 
diverse and abundant biological resources of the islands. BLM lands in 
the San Juan Islands include forests, sandy beaches, woodlands, 
grasslands, and wetlands. Bald eagles and peregrine falcons are among 
the many species of birds that soar above the landscape, while orcas, 
porpoises, and other marine mammals ply the waters. The proposed NCA is 
not only biologically complex, but also culturally diverse. Two 
historic lighthouses built in the late 19th century are included in the 
proposed NCA, as are several archaeological sites of the Coast Salish 
people who have walked these lands for the last 12,000 years.

S. 1559
    S. 1559 would designate the lands administered by the BLM within 
the San Juan Islands as a NCA. Each of the NCAs designated by Congress 
and managed by the BLM is unique. For the most part, however, they have 
certain critical elements, which include withdrawal from the public 
land, mining, and mineral leasing laws; off-highway vehicle use 
limitations; and language that charges the Secretary of the Interior 
with allowing only those uses that further the purposes for which the 
NCA is established. Furthermore, NCA designations should not diminish 
the protections that currently apply to the lands. Section 4 of S. 1559 
honors these principles, and the BLM supports the proposed NCA 
designation.
    The BLM would like the opportunity to work with the Sponsor and the 
Committee on a modification to the map and related bill language to 
ensure that all rocks and islands managed by the BLM within the San 
Juan Islands are included within the NCA.
    Finally, S. 1559 establishes an Advisory Council to advise the 
Secretary and the BLM on preparation and implementation of a management 
plan. We support this provision, which recognizes the important role 
that the local citizens have played, and will continue to play, in the 
conservation of these lands. A wide-ranging group of local residents, 
stakeholders, and enthusiasts have joined with Senator Cantwell, 
Senator Murray, and Representative Larsen to support permanent 
protection for the BLM-administered lands in the San Juan Islands. 
Today's hearing is the culmination of those efforts.

Conclusion
    Thank you for the opportunity to testify in support of S. 1559, the 
San Juan Islands National Conservation Area Act. The Department urges 
Congress' swift passage of the bill.

                               ON S. 1635

    Thank you for the invitation to testify on S. 1635, the San Juan 
Mountains Wilderness Act. The Department of the Interior supports the 
wilderness designation of the McKenna Peak area on lands managed by the 
Bureau of Land Management (BLM). Additional protection for the McKenna 
Peak area was highlighted in Secretary Salazar's November 2011 
Preliminary Report to Congress on BLM Lands Deserving Protection as 
National Conservation Areas, Wilderness or Other Conservation 
Designations. We urge swift Congressional action to protect this 
special area.
    We defer to the Department of Agriculture regarding designations on 
lands managed by the U.S. Forest Service (FS).

            Background
    The McKenna Peak Wilderness Study Area (WSA) covers nearly 20,000 
acres of BLM-managed lands in San Miguel and Dolores Counties in 
southwestern Colorado. This WSA is currently managed by the BLM to 
protect its wilderness characteristics while awaiting Congressional 
action.
    This area is rich in wildlife, including mule deer, elk, mountain 
lions, black bear, and a variety of raptors. The McKenna Peak area is 
also home to the Spring Creek wild horse herd. Geologically, the area 
is quite diverse and includes 100 million year-old remnants of inland 
seas (now black Mancos shale rich in invertebrate marine fossils). This 
area offers a wide variety of recreational opportunities, including 
hunting, hiking, horseback riding, snowshoeing, and cross-country 
skiing, all of which are compatible with this wilderness designation.

S. 1635
    S. 1635 is the result of a collaborative process, including the 
Colorado Congressional delegation, county commissioners, adjacent 
landowners, ranchers, conservationists, recreationists, and other 
interested parties. The results are the proposed wilderness 
designations on both BLM- and FS-managed lands in San Miguel, Ouray, 
and San Juan Counties.
    Section 3 of the bill designates 8,600 acres of the existing BLM-
managed McKenna Peak WSA as wilderness. The BLM supports this 
designation. The legislation covers only those areas of the WSA in San 
Miguel County. The remaining almost 11,000 acres of the WSA, which 
include the eponymous McKenna Peak, are south of the proposed 
wilderness in Dolores County and are not addressed in the legislation. 
These acres will remain in WSA status, pending Congressional action. 
The BLM and the Department support future designation of this area in 
order to improve the manageability of the area. The BLM is currently 
completing a careful review of the boundaries of the proposed 
wilderness area to ensure manageability and would welcome the 
opportunity to work with the sponsor on possible minor modifications.
    Section 6 of S. 1635 provides for the release from Wilderness Study 
Area (WSA) status of those portions of the Dominguez Canyon Wilderness 
Study Area that were not designated as Wilderness under Title II, 
Subtitle E of Public Law 111-11, the Omnibus Public Land Management Act 
of 2009. Section 2403 of that Act designated the Dominguez Canyon 
Wilderness Area. However, small portions of the underlying WSA totaling 
approximately 3,035 acres were neither designated wilderness nor 
released from WSA status, which would allow the consideration of a 
range of multiple uses. This release would benefit the BLM's ongoing 
management by removing narrow strips and scattered tracts of remaining 
WSA. These areas remain within the Dominguez-Escalante National 
Conservation Area (NCA), also designated by Public Law 111-11 and will 
be managed consistent with the rest of the NCA.

Conclusion
    Thank you for the opportunity to testify in support of S. 1635. We 
look forward to its swift passage and to welcoming the covered area 
into the BLM's National Landscape Conservation System.

                               ON S. 1774

    Thank you for the invitation to testify on S. 1774, the Rocky 
Mountain Front Heritage Act which designates approximately 208,000 
acres of Federal land in Montana as the Rocky Mountain Front 
Conservation Management Area. S. 1774 primarily affects lands managed 
by the United States Forest Service (FS). The Department of the 
Interior defers to the Department of Agriculture regarding designations 
on lands managed by the FS. Over 13,000 of the acres proposed for 
special designation under the bill are managed by the Bureau of Land 
Management (BLM). The Department of the Interior supports the 
designation of the BLM lands as part of the Rocky Mountain Front 
Conservation Management Area (CMA).

Background
    A unique and stunningly beautiful area in west-central Montana, the 
Rocky Mountain Front is located within Pondera, Teton, and Lewis and 
Clark Counties and contains unparalleled cultural, recreational, 
scenic, and biological resources. The lands administered by the BLM are 
dominated by massive limestone cliffs rising to an elevation of 7,700 
feet and include grasslands, shrub lands, and limber and white-bark 
pine forests. Numerous wildlife and fish populations are supported by 
the highly varied topography and diverse vegetation that for 
generations has provided an outstanding experience for hunters, anglers 
and other recreationists. Huntable populations of elk, mule deer, big 
horn sheep, mountain goats and black bear all occur within the area 
being considered in the proposed legislation. In addition, threatened 
species including grizzly bear, Canada lynx, and bull trout are found 
on these BLM-managed lands.
    Congress recognized this priceless region in 2006 when it included 
the withdrawal of the entire area from new mining claims and mineral 
leasing in section 403(a) of Public Law 109-432. The BLM currently 
manages these lands for their important resource values as 
administratively-designated Outstanding Natural Areas (Blind Horse, Ear 
Mountain, Chute Mountain and Deep Creek-Battle Creek).

            S. 1774
    S. 1774 designates over 200,000 acres of federal land in Montana's 
Rocky Mountain Front as the Rocky Mountain Front Conservation 
Management Area. Approximately 13,000 acres of public land managed by 
the BLM would be included in that designation. Running along the 
eastern edge of the CMA, the lands managed by the BLM are largely 
closed to motorized access and include a trail system popular with 
those seeking a wilder recreational experience.
    The overall management scheme envisioned for the CMA is consistent 
with current BLM management of these lands. Under the provisions of S. 
1774, motorized vehicles within the CMA would be limited to roads and 
trails designated for their use and grazing would be allowed to 
continue where it currently exists.
    The BLM recommends that the bill be amended to specify that the 
BLM-managed lands within the CMA be included in the BLM's National 
Landscape Conservation System (NLCS). The CMA is very similar to BLM's 
National Conservation Areas (NCAs) and inclusion in the NLCS is 
appropriate.
Conclusion
    Thank you for the opportunity to testify in support of S. 1774 as 
it applies to lands managed by the BLM.

                               ON S. 1788

    Thank you for inviting the Department of the Interior to testify on 
S. 1788, the Pine Forest Range Recreation Enhancement Act. The 
Department of the Interior supports S. 1788, which designates the Pine 
Forest Range Wilderness in Humboldt County, Nevada, on lands managed by 
the Bureau of Land Management (BLM). We urge the Congress to move 
swiftly to pass this bill.
    It is gratifying to see Congress moving to protect this area that 
was highlighted in Secretary Salazar's November 2011 Preliminary Report 
on BLM Lands Deserving Protection as National Conservation Areas, 
Wilderness or Other Conservation Designations. There is a long history 
of bipartisan support in Congress for the conservation of America's 
special places. Members from both parties have been essential to 
passing every major public lands bill that has been enacted in recent 
years. This type of cooperative and bipartisan approach to designating 
special lands for protection as wilderness, national conservation 
areas, or similar designations has historically been a regular practice 
for Congress. The designation of the Pine Forest Range has strong 
support from County government and local citizens. It is a wonderful 
example of how people can come together to protect one of America's 
real gems.

Background
    The Pine Forest Range in northern Nevada's arid Great Basin is a 
rare and exceptional area of abundant streams and clear, cold subalpine 
lakes. Nestled in a cirque and fed by snowmelt and springs, these lakes 
are not only visually stunning but also possess an excellent trout 
fishery. The lakes are surrounded by a rare remnant population of white 
bark and limber pines. Stands of quaking aspen and mountain mahogany 
are also found throughout the proposed wilderness. Fall brings an 
abundance of color found in few other places in northern Nevada.
    The spectacular scenery and vistas, combined with outstanding 
recreational opportunities, draw thousands of visitors annually. 
Despite being one of the most highly visited recreational areas in the 
region, the proposed wilderness still appears pristine. Day hiking, 
horseback riding, rock climbing, hunting, fishing, and camping are all 
popular in the area. Visitors enjoy a true primitive recreation 
experience, without trails or facilities. Even during peak visitation 
periods, solitude is easy to find in the rugged terrain. Abundant 
wildlife coveted by sportsmen includes trophy mule deer, antelope, 
bighorn sheep, mountain lion, and chukar.
    A wide range of stakeholders began working cooperatively in 2009 
and 2010 to bring together diverse interests in a grass-roots effort to 
protect this special area. In the fall of 2010, the Humboldt County 
Commission voted unanimously to approve the final recommendations of 
the Pine Forest Range Working Group to designate the Pine Forest Range 
Wilderness. The Nevada State Legislature subsequently passed a 
resolution praising the process used in arriving at the consensus 
represented by S. 1788.

S. 1788
    S. 1788 proposes to designate the 26,000-acre Pine Forest Range 
Wilderness in Humboldt County, Nevada, on public land managed by the 
BLM. This wilderness area is largely formed by the Blue Lakes and Alder 
Creek Wilderness Study Areas (WSAs). Under the bill, approximately 
1,150 acres of land within those WSAs would not be designated as 
wilderness and would be released from WSA status, thereby allowing the 
consideration of a full range of multiple uses.
    Section 13 of S. 1788 provides for land exchanges to improve the 
manageability of the Pine Forest Range Wilderness Area and nearby 
public lands while likewise allowing private landowners the opportunity 
to consolidate their holdings. The land exchanges are discretionary and 
would be completed consistent with the Federal Land Policy and 
Management Act (FLPMA) and other applicable laws. The BLM supports this 
provision. In addition, these land acquisitions may be undertaken 
through existing authorities such as purchase or donation.
    The Pine Forest Range Wilderness meets the definition of 
wilderness; the land and its community of life are largely untrammeled. 
It has retained its primeval character and has been influenced 
primarily by the forces of nature, with outstanding opportunities for 
primitive recreation or solitude. The BLM strongly supports this 
designation. We would like to work with the sponsor and the Committee 
on some minor technical modifications to management language to insure 
consistency and to ensure an updated map reference.

Conclusion
    Thank you for the opportunity to testify in support of S. 1788. We 
look forward to the swift passage of this legislation designating the 
Pine Forest Range Wilderness.

                               ON S. 2001

    Thank you for inviting the Department of the Interior to testify on 
S. 2001, which would expand the existing Wild Rogue Wilderness by 
nearly 60,000 acres and extend the existing Rogue Wild and Scenic River 
by designating an additional 35 Rogue River tributaries to the National 
Wild and Scenic Rivers System. The Department supports S. 2001, and 
would welcome the opportunity to work with the Committee and the 
members of the Oregon delegation on modifications to the bill to 
improve manageability.
    Additional protection for the Rogue River was highlighted in 
Secretary Salazar's November 2011 Preliminary Report to Congress on BLM 
Lands Deserving Protection as National Conservation Areas, Wilderness 
or Other Conservation Designations. S. 2001 has wide support at state 
and local levels, as well as from a wide range of local citizens and 
stakeholders. It is a wonderful example of how people can come together 
to propose protection of such a beautiful and dramatic area.

Background
    The Rogue River's headwaters begin near Crater Lake. It then rushes 
215 miles through the mountains and valleys of southwestern Oregon, 
eventually emptying into the Pacific Ocean near the town of Gold Beach. 
Over millions of years, the Rogue has patiently carved its way through 
western Oregon's mountains creating 3,000 foot canyons, rugged valleys 
and inspiring scenery. Dense, old-growth forests flank the Rogue 
providing habitat for older forest-dependent species, including the 
Northern Spotted Owl and the Marbled Murrelet. The cold, clear waters 
of the river provide a home for Pacific salmon, steelhead trout, and 
green sturgeon.
    Recreationists are drawn to the entire Rogue River watershed to 
experience nature in a multitude of ways. These recreationists are a 
critical economic engine for local economies and include commercial and 
sport fishing, rafting and jet boat tours, and hiking and backpacking. 
The untamed landscape offers countless opportunities for challenge, 
exploration, and discovery.
    The 36,000-acre Wild Rogue Wilderness was designated by an Act of 
Congress (Public Law 95-237) in 1978. Located primarily on lands 
managed by the U.S. Forest Service, the Wild Rogue includes 
approximately 8,600 acres of lands administered by the Bureau of Land 
Management (BLM). In 1968, Congress passed the Wild and Scenic Rivers 
Act (Public Law 90-542), establishing the Wild and Scenic River System 
and designating eight original rivers. As one of these initial eight 
rivers, Oregon's Rogue River has long been recognized for its beauty, 
exceptional recreational opportunities and extraordinary resource 
values.
    For several years, Senator Wyden and other members of the Oregon 
Congressional delegation have worked with local stakeholders, 
governments, recreationists, and the conservation community to enhance 
protections of the Rogue River watershed. S. 2001 is a result of those 
concerted efforts.

S. 2001
    S. 2001 proposes to enlarge the existing Wild Rogue Wilderness by 
adding nearly 60,000 acres of land administered by the BLM. The bill 
also extends the existing Rogue Wild and Scenic River by adding 93 
miles of 35 tributaries of the Rogue to the wild and scenic river 
system. In addition, the bill withdraws 50 miles of 20 other Rogue 
River tributaries from operation of the land laws, mining laws, and 
mineral leasing laws, and prohibits the Federal Energy Regulatory 
Commission (FERC) from licensing new water resource projects and 
associated facilities along these tributaries.
    The BLM supports the expansion of the Wild Rogue Wilderness as 
provided by S. 2001. This wild and rugged area is largely untrammeled. 
It has retained its primeval character and has been influenced 
primarily by the forces of nature, with outstanding opportunities for 
primitive recreation or solitude. Protection of these wilderness 
characteristics is largely consistent with the current management 
framework for these lands. We would like the opportunity to work with 
the bill sponsor and the Committee on some modifications to the map and 
the legislation.
    The BLM also recommends that the legislation include language 
directing the Secretary of the Interior to manage the BLM portion of 
the current Wild Rogue Wilderness. When the Wild Rogue Wilderness was 
established in 1978, the legislation called for the Secretary of 
Agriculture to manage all of the lands within the wilderness boundary. 
With this expansion we would like to correct that previous oversight 
and ensure that both the original and the additional BLM-managed lands 
within the Wild Rogue are managed by the BLM. Management of this area 
would be a cooperative exercise with the U. S. Forest Service and 
involve many of the same staff that jointly manage the Rogue's 
successful river program.
    The bill excludes over 500 acres of BLM-managed lands on the north 
side of the river within the external boundaries of the wilderness 
addition from designation as wilderness. This could leave these lands 
open to future development and potentially complicate management of the 
surrounding lands as wilderness. These lands show visible effects of 
past logging activities and existing primitive roads that do not meet 
the naturalness criteria of the Wilderness Act. The BLM would like to 
discuss the possibility of designating them as ``potential wilderness'' 
(as was done, for example, to California's Elkhorn Ridge Potential 
Wilderness Area through the Northern California Coastal Wild Heritage 
Wilderness Act--Public Law 109-362). If these lands were to be actively 
or passively restored to wilderness conditions in the future, they 
could then be formally added to the Wild Rogue Wilderness.
    The BLM would also like to work with the Oregon delegation on 
boundary modifications of the wilderness expansion to improve 
manageability. There are portions of the proposed wilderness where 
minor modifications to follow a road would allow for a more 
recognizable and manageable boundary. In addition, a few areas 
identified for wilderness designation on the southeast side of the 
proposed expansion may raise manageability concerns. Specifically, the 
inclusion of areas south of Bailey Creek and east of the Rogue appears 
to present conflicts with existing uses. The BLM would like the 
opportunity to discuss these conflicts further with the Committee and 
the bill's sponsor.
    In 1968, when Congress established the National Wild and Scenic 
Rivers System, it designated the Rogue as one of the original eight 
rivers included in this system. Section two of S. 2001 further enhances 
that initial designation by adding specific tributaries of the Rogue to 
the national system, thus conserving the greater Rogue River watershed. 
In general, the proposed stream segments are located in steep sloped 
canyons with mature and structurally complex forest stands that have 
high conservation values. We support maintaining and enhancing those 
conservation values through this designation.
    Finally, S. 2001 (Section 5) prohibits FERC from licensing the 
construction of any new water or power projects along 50 miles of 20 
Rogue River tributaries. Additionally, the bill would withdraw land for 
one-quarter mile along either side of these tributaries from operation 
of the land laws, mining laws and mineral leasing laws. This withdrawal 
will protect valid existing rights but would prohibit the sale or 
exchange of any of these federal lands; the location of new mining 
claims; new mineral or geothermal leases; and sales of mineral 
materials. These withdrawals will provide additional protections to 
this important watershed, and the Department supports these provisions.

Conclusion
    One of the earliest masters of the American western novel, Zane 
Grey, proclaimed the historic beauty of this area, and made it his 
home. ``The happiest lot of any angler'' wrote Grey ``would be to live 
somewhere along the banks of the Rogue River, most beautiful stream of 
Oregon.''
    S. 2001 seeks to preserve and protect the beauty Zane Grey saw for 
generations to come. This bill is the product of many years of 
discussions and collaboration with the local community, stakeholders, 
and other interested parties by the Oregon Congressional delegation and 
we would like to be part of those continuing discussions. The 
Department urges swift passage of S. 2001 and looks forward to 
welcoming these important conservation additions into the BLM's 
National Landscape Conservation System.

                               ON S. 2015

    Thank you for the opportunity to present the views of the 
Department of the Interior on S. 2015, the Powell Shooting Range Land 
Conveyance Act, which conveys an isolated 322-acre tract of public land 
to the Powell Recreation District (District) in northwestern Wyoming. 
The Bureau of Land Management (BLM) supports S. 2015.

Background
    Powell, Wyoming, is a town of approximately 5,000 people in 
northwestern Wyoming. This region of Wyoming is generally irrigated 
farmland with scattered BLM-managed public land parcels.
    In 1980, the Bureau of Reclamation (BOR) granted the District a 
Special Use Permit (SUP) for a 25-year period to construct and operate 
a shooting range on this isolated tract of public land southeast of the 
town of Powell. The District constructed the facilities and 
infrastructure for the shooting range over 30 years ago, and has 
operated the range ever since. The District is a local entity created 
under state statute for the purpose of providing public recreation 
programs. It is funded from local property taxes and has authority to 
acquire land and facilities appropriate to carry out its recreational 
purposes.
    The SUP for the shooting range expired in 2005. That year, the 
District filed an application for a Recreation and Public Purposes Act 
conveyance of this land to continue the shooting range operations. The 
BOR extended the SUP pending transfer of the land to the District. In 
2010, the BLM discovered that, as a result of a 1950 land exchange with 
the state of Wyoming, the parcel is actually under the BLM's 
jurisdiction and not the BOR's jurisdiction as was previously 
understood. The BLM has used the authority of a Special Recreation 
Permit to temporarily authorize the use of the existing shooting 
complex until long-term resolution of the land use issues could be 
achieved. BLM authorities for conveyance of land under the Recreation 
and Public Purpose Act do not permit the transfer of this land 
administratively to the District under its current use as a shooting 
range.

S. 2015
    S. 2015 requires the BLM to convey an isolated 322-acre tract of 
public land southeast of Powell, Wyoming, to the Powell Recreation 
District. The bill requires that the parcel of land be transferred 
subject to valid existing rights, and be used only as a shooting range 
or for any other public purpose consistent with the Recreation and 
Public Purposes Act.
    If the land conveyed to the District ceases to be used for its 
intended purpose then the land shall, at the discretion of the 
Secretary, revert to the United States.
    S. 2015 requires the Powell Recreation District to pay 
administrative costs to prepare the patent and transfer title as well 
as costs necessary to complete environmental, wildlife, cultural, 
historical studies, and NEPA review prior to the transfer. The bill 
also releases and indemnifies the United States from any claims or 
liabilities that may arise from uses carried out on the land on or 
before the date the Act is signed.
    The BLM supports the bill as it represents an opportunity to 
resolve land use issues on an isolated tract of public land that has 
been used as a shooting range for over 30 years and is identified for 
disposal in current land use plans. The legislation facilitates a 
reasonable and practicable conveyance of lands to the Powell Recreation 
District.

Conclusion
    Thank you for the opportunity to provide testimony in support of S. 
2015.

                               ON S. 2056

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the Administration's views on S. 2056, 
legislation to authorize the Secretary of the Interior to convey 
certain interests in Federal lands acquired for the Scofield Project in 
Carbon County, Utah. The intent of the legislation is to resolve 
certain issues associated with decades-long encroachment on Federal 
lands in the Scofield Reservoir basin. If the revisions described below 
are made, the Department would not oppose an amended S. 2056.
    The Scofield Project is located on the Price River about 85 miles 
southeast of Salt Lake City, Utah. It provides irrigation and municipal 
and industrial water to Carbon County, Utah. The reservoir is a popular 
fishing destination. Under contract with Reclamation, the State of Utah 
operates a state park at the site.
    At Scofield Reservoir, the vertical distance between the normal 
water surface elevation of the reservoir and the flood surcharge 
elevation (the level to which the water level may rise in a flood 
event) is approximately 19 feet. Given the sloping sides of the 
reservoir basin, this flood surcharge capacity translates into a wide 
band of land around the perimeter of the reservoir above the normal 
water surface elevation and below the flood surcharge elevation. The 
United States owns in fee most of the lands within this band.
    In the 1950s, an individual purported to subdivide and sell some of 
these flood surcharge lands--in spite of United States' ownership. The 
purported ``owners'' (referred to in the Scofield Land Transfer Act as 
``claimants'') began locating mobile homes and building cabins on these 
lands. There are over sixty encroaching cabins and trailers today. 
These encroachments pose a dam safety issue because a flood event may 
float debris or structures into the spillway, reducing its capacity and 
threatening the dam.
    In 2000, Reclamation initiated a quiet title action on lands within 
the band on the east side of Scofield Reservoir and was joined in that 
action by 15 claimants. A 2009 decision by the Tenth Circuit Court of 
Appeals affirmed ownership by the United States. Reclamation has 
removed the encroachments on the lands that were the subject of the 
quiet title action. Because of similar underlying facts, quiet title 
actions associated with the remaining encroachments would likely affirm 
United States' ownership.
    The bill proposes to resolve these encroachments on Federal lands 
by authorizing the Secretary of the Interior to transfer a fee interest 
or life estate to those who claim ownership of United States' lands 
within the Scofield Reservoir basin in exchange for fair market value. 
Claimants have a period of five years during which they may seek a fee 
interest or life estate. If a claimant does not elect to acquire a fee 
interest or life estate, Reclamation will remove the encroachment under 
existing law and policy, including the removal of encroaching 
structures.
    Although the bill addresses in part key objectives for Reclamation, 
the ideal scenario for Reclamation is for no structures or dwellings to 
fall within a facility's flood surcharge elevation. Having said that, 
the bill does address concerns such as: improved protection of public 
safety and resolving certain issues of encroachment on United States' 
lands. In addition, the bill imposes conditions on transferred lands. 
First, it limits the number and types of structures to those in place 
on the date of enactment. Second, it requires that structures be 
anchored to foundations to prevent displacement during a flood event 
and the associated potential for compromising the dam and causing harm 
downstream. Third, it requires Reclamation to retain the ability to 
store flood flows on the transferred lands without liability to the 
United States.
    While Reclamation supports, in general, some specific provisions in 
the bill, the legislation perpetuates occupancy within the flood 
surcharge elevation, which poses public and dam safety concerns. 
Reclamation believes it would be prudent to conduct an assessment of 
the risk to the safety of the dam imposed by structures that would 
remain within the flood surcharge elevation. In addition, the bill's 
language raises a number of technical concerns:

    Cost of Implementation--The proposed legislation does not provide 
any monies to fund Reclamation's work in surveying, appraising, and 
transferring fee interest or life estates to claimants. The legislation 
furthermore does not provide any monies to conduct environmental 
compliance, provide notice to Claimants of existing trespasses or 
encroachments on Federal lands, or to enforce deed restrictions. These 
costs should not be absorbed by the Federal government.
    Cost of Administration--After the legislation is fully implemented, 
Reclamation will likely face a patchwork of ownership (private fee 
interest, private life estates, and Reclamation fee interest) at the 
reservoir in the band between the normal water surface elevation and 
the flood surcharge elevation. On the transferred lands, Reclamation 
will be required to monitor construction and the retrofitting of 
structures to ensure that they are properly secured. In addition, 
Reclamation will be required to preserve public access to Reclamation 
fee lands that are not encumbered by life estates. The administration 
costs and enforcement obligations pursuant to any conveyance 
restrictions are best left to the local government, subject to 
oversight by Reclamation.
    Scofield Reservoir Fund--The proposed legislation calls for 
revenues from the sale of fee interests and the sale of life estates to 
be deposited into a ``Scofield Reservoir Fund.'' The fund would be used 
to finance ``enhanced recreation opportunities at Scofield Reservoir.'' 
Because the costs and administrative burdens associated with the 
conveyance would be redirected toward the beneficiaries of the 
conveyance through the Scofield Reservoir Fund, the Department of the 
Interior has serious concerns about the establishment and use of the 
Scofield Reservoir Fund.
    Precedent--On one level, the proposed legislation amounts to 
rewarding encroachment with an opportunity to purchase or acquire 
private exclusive use of Federal lands. The Department of the Interior 
is concerned about the bill setting a precedent or expectation that 
there can be a path from encroachment to ownership. However, the 
Department finds merit in amicably resolving encroachment issues on the 
Scofield Reservoir without embarking on protracted litigation,
    Report to Congress--Reclamation believes the bill's objectives can 
be accomplished consistent with Congressional intent and with support 
from the local community. Because of the proliferation of required 
reports to Congress, and the demand on finite budget resources, the 
Department in general does not support new and narrow reporting 
requirements.
    In addition to those issues raised above, Reclamation has a number 
of technical concerns:

    Life Estate--The definition of life estate creates a reversion ``on 
the date of death of the claimant.''The legislation assumes that all 
claimants will be individuals. Claimants may claim joint ownership or 
may be partnerships, corporations, or other entities.
    Securing Structures--Ensuring that any remaining structures are 
fully secure is critical to public safety. For this reason, Reclamation 
is concerned that the conveyance requirements do not adequately ensure 
that structures will be secured against inundation. One approach to 
correcting this would be to add the word ``and'' between 
(3)(b)(2)(C)(i) and (3)(b)(2)(C)(ii).
    Land Disputes--Among claimants there are disputes about the 
boundaries of their claims. The resolution of these claims would likely 
erode the five years that the claimants have to decide whether to 
submit notice of a desire to acquire a fee interest or life estate. The 
legislation could direct claimants to accept the result of the 
Reclamation survey required under (3)(a)(1).
    Spillway Crest--In referring to the normal water surface elevation, 
the proposed legislation refers to the ``lip of the spillway.'' This 
term is ambiguous and should be replaced with ``crest of the 
spillway.''
    Hold Harmless Clause--The life estate option requires the claimant 
to hold the United States harmless for damages due to ``design, 
construction, operation and replacement.'' The list of causes from 
which damages may arise should also include ``maintenance.'' In 
addition, there is no requirement for claimants seeking fee interest in 
claimed land to hold the United States harmless. Reclamation recommends 
that a hold harmless requirement be added to the fee interest option.
    Payments in Lieu of Taxes (PILT)--The proposed legislation should 
explicitly state that PILT payments will be discontinued for lands 
transferred in fee to claimants.
    Mineral Rights--The proposed legislation should state that there 
will be no conveyance of subsurface or mineral rights.
    Water Rights and Sewer System--A number of the claimants have 
developed wells that are also part of their encroachment. To the extent 
these wells are supported by valid State of Utah water rights, the 
legislation should address the fate of these wells under conveyance in 
fee or life estate.
    The sewer system serving encroachments is included in a Reclamation 
license agreement for the State Park. The license agreement is with the 
Scofield Special Service District for which Carbon County has oversight 
responsibility.
    Sunset--The proposed legislation requires claimants to submit 
notification to the Secretary of their interest in a fee interest or 
life estate in the claimed portion of the Federal land within five 
years of the date of enactment of the proposed legislation, in order to 
stay enforcement proceeding on the Federal land. This could allow 
claimants to submit notice of their intent to receive a fee interest or 
life estate, without requiring affirmative action to effectuate the 
transfer. The proposed legislation should contain a sunset provision, 
whereby notice and transfer must occur within a reasonable timetable.

    In closing, Mr. Chairman, Reclamation recognizes that, in spite of 
its serious concerns, the proposed legislation does offer a relatively 
acceptable five-year solution to a problem Reclamation has wrestled 
with for many years. In light of this, the Department of the Interior 
will not oppose S. 2056 if appropriate clarifying language and 
revisions are added.

    Senator Wyden. Thank you.
    Ms. Weldon.

STATEMENT OF LESLIE A.C. WELDON, DEPUTY CHIEF, FOREST SERVICE, 
                   DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you very much, Senator Wyden and Ranking 
Member Barrasso. I will work on summarizing my remarks.
    I will just say as it relates to the S. 1129 we share that 
perspective of the value and importance of grazing lands as 
ecosystems, as important parts of our landscapes from an 
economic and cultural and traditional standpoint. Value the 
relationships we have with our grazers.
    What I'll do is just let you know that S. 1635 to convey 
the lands as wilderness in Colorado as well as the Rocky 
Mountain Front Conservation Management Act, 1774 and the S. 
1687, to adjust the boundary of the Carson National Forest. We 
are supportive of those. As it relates to the Rocky Mountain 
Front Conservation Management area in the Lewis and Clark 
National Forest we'd like to work with the committee on some of 
the timeframes that have been put in place for developing the 
non-motorized recreation plan as well as the noxious weeds 
plan.
    On the bill to create wilderness, S. 1635, in Colorado, we 
would like to work with the committee on the Hard Rock 100, 
this long established event that will, with the designation of 
wilderness actually cross into wilderness area by about two 
miles. We want to ensure that we're able to meet the intent of 
wilderness values as well as to have this long standing and 
popular, important event continue to occur.
    The Grazing Improvement Act of 2011, we would like to work 
with the committee. There are many portions of it that we 
support and share some of the same concerns as expressed by the 
Bureau of Land Management. In particular as it relates to the 
definition we would like to have in place in defining minor 
modifications for categorical conclusions. We would prefer our 
rangers, decisionmakers, have an option to use a categorical 
exclusion rather than making that a requirement within the act 
with the intent of ensuring that we're able to make the most 
appropriate decision as to what the landscape prevents for us 
in the specific conditions on the ground.
    We are also concerned about and would like to work with the 
committee on the proposal for a new appeals process. The Forest 
Service and the Department feel we have a process in place. A 
process that we're developing that will also help streamline 
and keep in place a fair review process when challenges do come 
to permits in through our appeal process.
    The Cabin User Fee Act of 2011, S. 1906, we're very happy 
to have worked with the Association and with the committee in 
coming up with solutions over the last few years for this bill. 
We feel very comfortable with the proposals. However there are 
a couple of areas that we would like to continue to work with 
the committee.
    One of those has to do with the tiers that were set up. 
There were several levels of tier for assessing fees. We'd like 
to work with the committee on whether or not those suite of 
tiers are appropriate or if one additional tier may be needed 
to be added in that situation.
    In addition other minor things have to do with our desire 
when a challenge does come up to have that challenge reviewed 
in the area where the cabin actually exists rather than where 
the cabin owner lives. We look forward to working with the 
committee on getting through these last points of resolution 
and getting a bill in place that will greatly make our process 
more efficient and reduce the undue burdens that are on our 
cabin fee owners.
    That's it.
    [The prepared statement of Ms. Weldon follows:]

Prepared Statement of Leslie A.C. Weldon, Deputy Chief, Forest Service, 
                 Department of Agriculture, on S. 1129

    The Department appreciates the opportunity to provide its views on 
S. 1129, the ``Grazing Improvement Act of 2011''. The Forest Service 
enjoys a cooperative relationship with the vast majority of the over 
6,800 individuals who hold permits for grazing authorizing at total of 
approximately 8.3 million animal unit months on over 94 million acres 
of National Forests and Grasslands. Grazing permittees have helped 
provide for the effective stewardship of our public lands for many 
decades. The Forest Service's grazing program not only helps support 
the economies of rural communities across the west, but it also helps 
maintain open space on private lands. Most permittees utilize and need 
both public and private lands to graze livestock economically. The loss 
of grazing on public lands can result in the loss of grazing on private 
lands that may lead to the conversion of private open space to other 
uses such as subdivision development.
    The Department understands and shares the Committee's desire for 
increasing administrative efficiencies for both the Forest Service and 
the permittee and while the Department supports certain provisions, we 
cannot support S. 1129 as written. Specifically, the Department has 
concerns with: requirements and definitions in the use of categorical 
exclusions, suspension of agency decisions until appeals are resolved 
and use of a different appeals process than is currently being 
developed. The Department is willing to work with the Committee to see 
if these differences can be resolved.
    S. 1129 would revise the permitting process for grazing in the 
Federal Land Policy and Management Act of 1976. Specifically, the bill 
would extend the duration of the permit from 10 years to 20 years. It 
is intended to make permanent the language used in annual appropriation 
riders which has required expiring permits to be renewed with existing 
terms and conditions if NEPA has not been completed on allotments 
associated with the permit. It would establish and require the use of 
legislated categorical exclusions from the requirement to prepare an 
environmental analysis under the National Environmental Policy Act 
(NEPA). The categorical exclusions would be used if the decision 
continues the current grazing management on the allotment and if only 
minor modifications are needed to the permit. Consistent with the 
appropriations rider, the bill also would provide the Secretary with 
the sole discretion to determine the priority and timing for completing 
the environmental analysis of a grazing allotment, notwithstanding the 
schedule in section 504 of the Rescissions Act. Finally it would create 
a new process for appealing Forest Service decisions relating to 
grazing permits.
    The Department understands and shares the Committee's desire for 
increasing administrative efficiencies for both the Forest Service and 
the permittee. The Department supports the concept having the 
flexibility to issue a longer term permit where allotments are meeting 
Forest Plan standards. The Department also supports making the annual 
appropriations language permanent as long as the extension is of a 
limited duration until the completion of the NEPA process. While we 
support providing the line officer with the option to use a categorical 
exclusion category where the parameters of what constitutes a minor 
adjustment are narrowly defined, we do not support requiring use of 
categorical exclusions. We would appreciate the opportunity to work 
with the Committee on specific language regarding what constitutes 
minor modifications that would qualify for categorical exclusions. We 
have completed NEPA analyses on three-fourths of our grazing allotments 
and would note that whether we ultimately utilize a categorical 
exclusion or an environmental assessment, the upfront analysis work in 
determining the conditions of the range, is similar.
    The Department does not support the language in S.1129 that 
provides for a new appeal process. The Forest Service is currently 
completing the revision of appeal regulations in an effort to provide 
for a more streamlined and efficient process (36 CFR 251, subpart C, 
``Appeal of Decisions Related to Occupancy and Use of National Forest 
System Land''). We are in the process of incorporating public comments 
received. We believe these regulations, which will be designated 36 CFR 
214 will provide for the most appropriate and effective means to 
address administrative decisions. We would also like to work with the 
Committee to consider language which would increase the responsibility 
of the permittees to ensure some level of self-monitoring of allotments 
to assist in ensuring the long-term health of these watersheds and 
landscapes.
    The Forest Service is also concerned that S. 1129 would require the 
Forest Service to suspend a decision, if a permittee appeals a grazing 
permit or lease decision, until the appeal is resolved. While there are 
situations which can wait for the conclusion of the appeals process, 
there are others that may require more immediate action; e.g., 
unauthorized use of an allotment, significant impacts to other 
allotments, non-payment, unacceptable resource damage, etc.
    While the Department does not support the bill as written, the 
Department supports the intent of the bill and would like to work with 
the Committee on specific language and concerns as noted. We do not 
want to increase efficiencies at the expense of good land stewardship. 
While the majority of the grazing permittees are excellent stewards in 
caring for the range resource, we also have examples where permittees 
need to take action to improve range conditions.
    We welcome the opportunity to work with the Committee on the 
legislation to develop a bill that both increases efficiencies and 
protects the long-term health of our National Forests and Grasslands. 
Thank you for the opportunity to appear before you today and would be 
happy to answer any questions you may have.

                               ON S. 1635

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S. 1635, the ``San Juan Mountains 
Wilderness Act of 2011''. I am Leslie Weldon, Deputy Chief for the 
National Forest System.
    The Department supports S. 1635 and would like to offer minor 
modifications to the bill that would enhance wilderness values, clarify 
the special management area designation, and improve our ability to 
manage resources in the area. We thank Senator Udall for his 
collaborative approach and recognize the local involvement that has 
contributed to the wide support in Colorado for this bill.
    The Department defers to the Department of the Interior in regard 
to the proposal to designate approximately 8,600 acres of Bureau of 
Land Management (BLM) lands as the McKenna Peak Wilderness.
    S. 1635 would designate nine parcels of the Grand Mesa, Uncompahgre 
and Gunnison National Forests as wilderness under the National 
Wilderness Preservation System. These areas, totaling approximately 
24,400 acres, encompass some of Colorado's most majestic, remote 
landscapes with many abundant wildlife species including elk, deer, 
bighorn sheep, bears and a variety of birds. Several world-class trout 
streams are also found in the areas. These areas also provide 
opportunities to experience solitude and primitive recreation use for 
members of the public seeking areas to connect with nature.
    These parcels would be additions to two existing wildernesses: 
Lizard Head and Mount Sneffels. In addition, S. 1635 would designate 
the Sheep Mountain area as a Special Management Area to be managed to 
maintain the area's existing wilderness character and potential for 
inclusion in the National Wilderness Preservation System. Also, S. 1635 
would provide for a mineral withdrawal within a portion of Naturita 
Canyon.

Lizard Head Wilderness Additions
    The Lizard Head Wilderness lies astride the spectacular San Miguel 
Mountains, 10 miles southwest of Telluride, Colorado on the Uncompahgre 
and San Juan National Forests. Elevations in the area range from 9,500 
to over 14,000 feet. The wilderness is evenly split between the two 
national forests and is 41,200 acres in size. The proposed wilderness 
additions include five parcels, encompassing approximately 3,150 acres 
of National Forest System lands adjacent to the existing wilderness. 
Though neither of the Forest Plans recommends these areas for 
wilderness designation, wilderness designation would be consistent with 
current management of the area. No summer motorized recreation is 
currently allowed and effects to winter motorized recreation will be 
minimal as there is very little snowmobile use of the area.

Mount Sneffels Wilderness Additions
    The Mount Sneffels Wilderness comprises more than 16,500 acres on 
the Uncompahgre National Forest between the communities of Telluride 
and Ouray, Colorado. Elevations range from 9,600 to 14,150 feet at the 
top of Mount Sneffels.
    The proposed wilderness additions include four parcels that 
encompass approximately 21,250 acres of National Forest System land 
adjacent to the existing wilderness. As with the Lizard Head Additions, 
even though this area was not recommended as wilderness in the Forest 
Plan, designation is generally aligned with forest plan direction and 
will have minimal effects on summer and winter recreation.
    We would like to work with the subcommittee to address some 
technical aspects of the bill. We recommend changing the wilderness 
boundary near Telluride to provide for a more definitive boundary by 
following a cliff formation. This would exclude the commercial foot 
race from the wilderness and follow a more recognizable topographic 
feature for the wilderness boundary.

Sheep Mountain Special Management Area
    S. 1635 would also designate an area of about 21,600 acres of NFS 
land that lies south of the town of Ophir, Colorado as a special 
management area. About 10,850 acres are within the Uncompahgre National 
Forest and about 10,750 acres are within the San Juan National Forest. 
This area contains some lands purchased recently with funds provided by 
Congress as part of the Ophir Valley Land and Water Conservation Fund 
project.
    Elevations in the area range from 10,200 to almost 13,900 feet at 
the top of Vermillion Peak. The area is dense with spruce and fir trees 
at the lower elevations. Above timberline are high alpine valleys with 
numerous lakes, tarns and waterfalls beneath dramatic 13,000-foot peaks 
and serrated ridges. The Forest Plans identify half of the area to be 
managed for semi-primitive non-motorized recreation and the other half 
for other recreation purposes.
    The Department recognizes the desire of the bill sponsors to 
preserve the characteristics of Sheep Mountain as a Special Management 
Area for potential designation as wilderness. With respect to water 
rights and water development, Section 4(d)(3) would prohibit new water 
development projects in the special management area. This provision is 
more restrictive than section 4(d)(4) of the Wilderness Act under which 
the President of the United States may exercise discretion to authorize 
such facilities within designated wilderness areas if they are 
determined to be in the public interest. We support amending this 
provision so that it is consistent with the discretion authorized by 
the Wilderness Act.

Naturita Canyon Withdrawal
    S. 1635 would also provide for a withdrawal on approximately 6,600 
acres of National Forest System lands within Naturita Canyon on the 
Uncompahgre National Forest, about five miles south of the community of 
Norwood, Colorado. Naturita Canyon is a relatively low-elevation river 
drainage (7,000 feet) with steep canyon walls that tower 1,000 feet. 
There are no current leases within the area proposed for withdrawal. 
Impacts on available oil and gas resources for this withdrawal are 
unknown. Further exploration information would be needed for a 
conclusive assessment.
    This concludes my prepared statement. I would be happy to answer 
any questions you may have.

                               ON S. 1687

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S. 1687 the ``Carson National Forest 
Boundary Adjustment Act of 2011''. I am Leslie Weldon, Deputy Chief for 
the National Forest System.
    S. 1687 would modify the boundaries of the Carson National Forest 
in the State of New Mexico to include approximately 5,000 acres of 
private land known as ``Miranda Canyon'' that is adjacent to the 
existing National Forest boundary. The Department supports the 
adjustment of the boundary because it will create an opportunity for 
the acquisition of Miranda Canyon property as part of the Carson 
National Forest.
    The Miranda Canyon Property is currently owned by Weimer Properties 
and is located approximately four miles south of Taos, New Mexico. 
Weimer Properties spent several years proposing to develop a 
subdivision and seeking to acquire approval from the Taos County Board 
of Commissioners. Approval of the subdivision was not granted and the 
Taos County Commissioners requested the New Mexico Congressional 
delegation consider placing this land under the stewardship of the U.S. 
Forest Service.
    The Miranda Canyon Property is an expansive piece of property that 
ranges in elevation from 7,200 ft. to 10,800 ft. The property has 
various vegetative types from low elevation sagebrush and pinon-juniper 
to high elevation mixed conifer forest including large aspen clones. 
The landscape has numerous ridges and peaks that provide breathtaking 
views of the Rio Grande Gorge to the west and of Wheeler Peak (highest 
peak in New Mexico) to the north. The property contains historical 
features such as the Camino Real Trail and unique geologic features 
such as a small volcano and Miranda granite-1.7 billion year old rock 
outcrops that rival the age of rock found at the bottom of the Grand 
Canyon. There are also numerous meadows and riparian vegetation that 
provide excellent habitat for wildlife.
    The proposed boundary adjustment has wide grass roots support from 
the local residents, the Taos County Board of Commissioners, the 
Village of Taos, and local Native American Tribes and Pueblos. To date, 
there has been no opposition voiced to adjusting the boundary of the 
Carson National Forest. The adjustment of the Forest boundary would 
open the door to potential federal acquisition of Miranda Canyon from a 
willing seller. The cost of acquiring the Miranda Canyon property would 
be approximately $10,500,000, and amount that would be subject to the 
availability of appropriations. The Weimar Properties has agreed to a 
conservation sale to the United States through an agreement with a 3rd 
party non-profit organization. This agreement keeps the property from 
being developed or sold on the open market until funding is 
appropriated. The acquisition would provide additional recreation 
opportunities for hunting, sightseeing, camping, hiking, 
interpretation, and horseback riding for the public.
    Thank you for the opportunity to testify in support of S. 1687. The 
Department supports the acquisition of the Miranda Canyon property 
because it would make an outstanding addition to the National Forest 
System.

                               ON S. 1774

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S. 1774, the ``Rocky Mountain Front 
Heritage Act of 2011''. I am Leslie Weldon, Deputy Chief for the 
National Forest System.
    The Department supports S. 1774 and would like to work with the 
Committee to define and clarify questions of scope and timing for the 
noxious weed management and the non-motorized recreation opportunities.
    The Rocky Mountain Front area of Montana on the Lewis and Clark 
National Forest lies just to the south of Glacier National Park and the 
Blackfeet Indian Reservation. It is an area where the plains meet the 
great continental divide. The area is marked by spectacular scenery and 
lush grasslands and that is home to a broad range of Montana's fauna 
and flora. The west side of the area is adjacent to the 1.5 million 
acre Bob Marshall Wilderness Complex most of which was designated by 
the original 1964 Wilderness Act. The east side of the area is bordered 
by vast private ranchlands that have helped define Montana's western 
heritage.
    S. 1774 would designate approximately 195,000 acres of Federal land 
managed by the Forest Service and approximately 13,000 acres of Federal 
land managed by the Bureau of Land Management as the Rocky Mountain 
Front Conservation Management Area (CMA). The bill would also designate 
additions to the National Wilderness Preservation System of 
approximately 50,400 acres to the Bob Marshall Wilderness and 
approximately 16,700 acres to the Scapegoat Wilderness; both areas 
would be managed by the Forest Service.
    The Department defers to the Department of the Interior on the 
designation of lands managed by the Bureau of Land Management (BLM).
    The Rocky Mountain Front Conservation Management Area would be 
managed to conserve, protect, and enhance its recreation, scenic, 
historical, cultural, fish, wildlife, roadless, and ecological values. 
Within the Conservation Management Area, S. 1774 would permit the use 
of motorized vehicles only on existing roads, motorized trails and 
designated areas. S. 1774 would allow for the construction of temporary 
roads as part of a vegetation management project in any portion of the 
Conservation Management Area not more than , mile from designated 
roads. The bill also would authorize the use of motorized vehicles for 
administrative purposes including noxious weed eradication or grazing 
management. Livestock grazing would continue within the Conservation 
Area and Wilderness Areas where established prior to the date of 
enactment.
    S. 1774 would require the Secretary to prepare a comprehensive 
management strategy for the Rocky Mountain Ranger District on the Lewis 
and Clark National Forest to prevent, control, and eradicate noxious 
weeds. The Secretary also would be required to conduct a study to 
improve non-motorized recreation trail opportunities.
    For decades, the Forest Service has worked in partnership with 
landowners to protect the economic and social value of the land 
considered for designation as the Conservation Management Area. There 
are 21 Federal land grazing allotments in the CMA. The landscape also 
provides some of the best backcountry recreation experiences in the 
world. Because of the popularity of the area, Federal and private land 
managers have realized that there must be specific management emphasis 
placed on how the lands are used and protected. As more people enjoy 
and use this area, influxes of noxious weeds have occurred that could 
change the native ecosystem structure and function and seriously impact 
the private ranches. S. 1774 calls for measures that would direct 
federal agencies to work with state and private organizations to 
implement projects that concentrate on the prevention, control and 
eradication of invasive plants such as spotted knapweed (Centaurea 
maculosa Lam.) that are threatening to change the ecosystem. The Lewis 
and Clark National Forest routinely works with other agencies and land 
owners to address weed concerns. The Lewis and Clark National Forest is 
in the process of developing a memorandum of understanding with the U. 
S. Department of Agriculture Natural Resources and Conservation Service 
(NRCS) that will addresses how the agencies will work together 
regarding noxious weed control measures on the interface between 
private and Federal lands. The Department supports the intent described 
in the bill to address noxious weeds.
    The Department also supports the National Forest System lands 
identified for motorized and non-motorized recreation use, including 
mountain biking, in the conservation areas. The provisions in S. 1774 
are consistent with the current travel management plan for the Rocky 
Mountain Ranger District. The travel management plan was approved by 
the Lewis and Clark National Forest Supervisor in October of 2007 after 
extensive public participation. Approximately 67,000 acres of land are 
identified in the forest plan for the Lewis and Clark as either 
recommended to Congress for wilderness designation or for further study 
for their potential as wilderness. The Department supports the 
wilderness designations included in this bill.
    The Department recognizes the management of vegetation along 
current motorized forest roads is an important component of this bill. 
Public safety is an important consideration in an area that is impacted 
by mountain pine beetle, which has created physical risk to the 
roadways and possible increased fire risk due to ignitions from road 
users. The Beaver-Willow Road, a previously established road, crosses 
through the Bear-Marshall-Scapegoat-Swan inventoried roadless area. As 
we understand the bill, the road's location in an inventoried roadless 
area would not preclude timber harvest within , mile of the Beaver-
Willow Road.
    The bill also calls for a study to identify opportunities to 
improve non-motorized trails in the proposed Conservation Area. The 
Department would like to work with the Committee to further define the 
scope of this part of the proposed legislation.
    All of the measures called for in this bill fall within the 
administrative authority of the Forest Service except for Wilderness 
designation and as stated, are consistent with current Forest Service 
management goals for the area. Several of the components such as 
comprehensive weed management strategies, treatment of vegetation and 
recreation opportunity studies are needs that exist throughout the 
Northern Region and Forest Service. The managers of the National Forest 
System must prioritize this work based on workforce capacity and other 
resources. Extending the required timeframes for the comprehensive 
noxious weed management strategy from 1 to 3 years and the study to 
address improved non-motorized trails from 2 to 3 years would allow 
more time for the required consultations and manage workload and 
resources.
    Thank you for the opportunity to testify on this bill today and I 
will be happy to answer any questions from the Committee.

                               ON S. 1906

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today and provide the Department of 
Agriculture's views regarding S.1906, the Cabin Fee Act of 2011. I am 
Leslie Weldon, Deputy Chief for the National Forest System. The 
Department appreciates the cooperative relationship between the Forest 
Service and the over 14,000 cabin owners, their representatives and the 
recreational experiences they enjoy on the National Forests.
    S. 1906, which would replace Cabin User Fee Fairness Act of 2000 
(CUFFA) on National Forest System (NFS) lands reserved from public 
domain, would revise the procedures for determining the amount an owner 
of a cabin on a National Forest must pay to lease the underlying 
federal property. There are advantages to S. 1906 from an 
administrative perspective. It would reduce the agency's cost of 
performing appraisals, and it would provide certainty for cabin owners 
in terms of anticipated fees. However, S. 1906 also presents challenges 
as currently written. The Forest Service has had constructive dialogue 
with the National Forest Homeowners Association and the Committee in 
attempting to resolve the issues we are raising in this testimony. The 
Forest Service welcomes the opportunity to work with Congress to create 
a bill that is fair to cabin owners, other users of the National 
Forests, and the taxpayers, and that can be administered without undue 
burden on the agency or cabin owners.
    Before describing the challenges of this bill, it is important to 
consider the history of this program. In the early part of the 
twentieth century, the Forest Service began introducing Americans to 
the beauty and grandeur of their National Forests. One way to 
accomplish this objective was to permit individuals to build cabins for 
summertime occupancy within the National Forests. Cabin owners were 
permitted to occupy NFS land during the summer months in exchange for a 
fee. In 1915, the agency began to issue permits of up to twenty years 
for occupancy of NFS land. At that time, there was relatively little 
recreational use of the National Forests. Today, the National Forests 
host over 175 million visitors per year. When this recreational cabin 
program began, there was limited interest in building and owning a 
remote cabin on NFS land. Today, similar land at ski resorts, near 
lakes, and remote mountain settings are highly prized. In the early 
years, fees were nominal, but since the 1950's, the Forest Service has 
been mandated to obtain fees approximating market value and therefore 
provide a fair return to the American people for the use of NFS land. 
Increasing fees have led to controversy and have resulted in enactment 
of multiple fee moratoriums and caps over the years. CUFFA was the 
latest attempt to achieve an equitable fee for the use of NFS land.
    CUFFA prescribes parameters for the appraisal process. Fees under 
CUFFA are based on five percent of the appraised market value of the 
lot under permit. The agency began the appraisal process pursuant to 
CUFFA in 2007, and plans to complete the remaining appraisals and 
resolve the appraisal appeals by the end of 2013. Some cabin owners 
raised concerns and requested relief. In some instances there were 
dramatic increases because the old fees were based on appraisals 
completed ten to thirty years ago. In response, appropriations acts 
have included limits on fee increases.
    The bill would replace CUFFA on National Forest System (NFS) lands 
reserved from the public domain. It would create nine payment tiers, or 
categories, and provide for an additional payment on the sale or 
transfer of the cabin. It would require the agency to place cabins in 
the nine categories utilizing the most recent appraisals. All 
appraisals are scheduled to be completed by 2013. CUFFA would remain in 
place for cabins on acquired NFS lands.

    Here are our concerns with the bill as written:

          Cabin Transfer Fees--S.1906 requires the Department to obtain 
        payment based on a percentage of the amount of the cabin sale. 
        The Department is concerned about the administrative challenges 
        of obtaining accurate sale information. Also we have concerns 
        that the U.S. Government would be receiving proceeds tied to 
        the value of the privately owned structure. The U.S. government 
        has no stake in the value of the structure, only the lease 
        value of the public land. The Department is not opposed to 
        collecting a standard fee when the permit is transferred.
          Fee Amounts--Our analyses indicate that many of the proposed 
        fees, particularly for the higher valued lots, would be less 
        than those which would be paid under current law and which 
        results in fees being below market value. As previously noted, 
        fees below market value can lead to substantial profits when 
        cabins are sold, as the sale prices will reflect the value of 
        the locations more than the value of the cabins. To reduce the 
        likelihood of these profits, the proposed fee schedule should 
        be more closely tied to market value.
          Judicial Review--The Department recommends that the venue for 
        any action brought before the U.S. District Court be in the 
        judicial district in which the cabin is located and not where 
        the permit holder resides. While we do not anticipate a 
        significant number of legal challenges, the administrative 
        costs could otherwise be a significant burden for the agency.
          Different Fee Systems based on Land Status--The bill applies 
        to cabins on NFS lands reserved from the public domain which is 
        the status of NFS land in much of the western U.S. However, the 
        NFS also consists of lands acquired from other ownerships. Most 
        of the eastern and mid- western National Forests are comprised 
        of acquired lands. We estimate that seven to ten-percent of the 
        estimated 14,000 cabins nationwide are located on acquired NFS 
        lands and would be subject to a different fee system. It would 
        be burdensome to administer two separate fee systems. To 
        simplify the process and reduce the administrative burden, the 
        Department recommends that the same fee system apply to all 
        cabins on all NFS lands.
          Technical Changes--Additionally, there are a number of 
        additional technical suggestions which we would like to share 
        with the Committee.

    Several years ago, the Forest Service conducted a study that 
estimated that the annual cost of administering the Recreation 
Residence Program. In California the administration of this program was 
estimated to account for over fifteen percent of the total recreation 
budget. On the El Dorado National Forest in California, the Forest 
Service estimates that one third of the recreation budget is spent 
administering this program. While there are some 14,000 cabin owners, 
there are 175 million visitors to the National Forests each year. 
S.1906 would reduce that administrative burden by reducing appraisal 
needs. This would increase the availability of funding in the 
recreation budget for the Forest Service to provide a quality 
recreational experience and protect the environment for all who use the 
National Forests.
    We welcome the opportunity to work with the Committee to complete 
legislation that is fair to the taxpayer, the cabin owner, and other 
users of the National Forests and Grasslands, and can be administered 
without undue burden on the agency or cabin owner. Again, we appreciate 
the recent forthright and productive discussions regarding these 
concerns. We can support this legislation if these concerns are 
addressed.

    Senator Wyden. Alright. Does that conclude your remarks?
    Ms. Weldon. That concludes my remarks.
    Senator Wyden. Alright. Very good.
    My colleague from Washington State has been very patient. 
Would you like to make any remarks, Senator Cantwell?

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I'm sorry I'm 
getting to the hearing late here. But I thank you for holding 
this important hearing.
    I'm pleased to see that the committee is considering the 
San Juan Island National Conservation Area Act that I've worked 
so closely on with many people in San Juan and obviously with 
my colleague in the House, Congressman Larson and my colleague 
here, Senator Murray. I'm very pleased that the Bureau of Land 
Management is here today.
    You probably know that last month the Acting Director and 
the Secretary were out in the Northwest for a community 
listening session and had a lot of input from residents of the 
area. I would also like to welcome Mr. Doug Gann of Kirkland, 
Washington, who is here to discuss the Cabin Fee Act. It is 
good to see that we have people here talking about legislation 
that Senator Tester and the Forest--that we're all working 
together to make sure that there are not unreasonable fees on 
those cabins.
    The San Juan Island legislation is truly important. I think 
I'll wait to my questions to go into more detail. But the fact 
remains for such a pristine and unbelievable area of our 
country there is no long term comprehensive management plan in 
place.
    Since we just went through a process in 2005 with the State 
Department of Natural Resources, when a unilateral decision was 
made to divest a property in San Juan County including Mitchell 
Hill, which is a very popular and scenic hiking trail in San 
Juan Island. While these lands were actively pursued by 
private, out of State real estate developers, we were proud to 
work with the local community to make sure that these areas 
were protected. But like this situation there's no protection 
for permanent protection for the Bureau of Land Management on 
these lands and these are very, very special places. So that is 
why we have introduced this legislation.
    If enacted, it would designate all 1,000 acres of the BLM 
land in the San Juan Island area as a National Conservation 
Area ensuring that they would remain a national treasure. So I 
look forward to hearing more testimony specifics today from Mr. 
Pool. But thank you very much for being here.
    We certainly want to make sure that I think from our 
listening session in the community, I could tell you that 
everybody wants to make sure that the land continues in its 
current status. The question is how best to do that. We think 
this provides a very positive step forward.
    So thank you, Mr. Chairman. I'll wait for my questions.
    Senator Wyden. Thank you, Senator Cantwell. I note that you 
have put your usual due diligence to this cause and that your 
bill has the support of the relevant agencies. So thank you and 
appreciate your good work.
    Let me start with you, Ms. Weldon, if I could with a 
question about cabin user fees. Your testimony suggests that 
the proposed fee schedule, in your view, ought to be more 
closely tied which you describe as the market value of the land 
used for cabin sites. How do you envision this actually 
working? I heard you say something about tiers or something.
    I think as much as anything, you know, folks in our part of 
the country want to get a sense of how you all envision 
something like this actually working.
    Ms. Weldon. You know, the most distinct way to say that is 
that there's been great work done, I think, to establish the 
set of tiers. Which generally correlate with what we see as a 
fair way of looking at the different land values that are 
associated with cabins. You know, that may occur in high value, 
high value recreation in real estate areas compared with others 
that might not be that way.
    We're simply saying that there's an opportunity for us to 
look at adding one additional tier on the high end that would 
assist in rounding out what we would see as fair as it relates 
to the some of the higher end valued, land values associated 
with the cabins.
    Senator Wyden. Alright.
    Question for you also on grazing. Mr. Pool testified that 
the Bureau of Land Management has an estimated backlog of 4,200 
unprocessed grazing permits. Ms. Weldon, does the Forest 
Service have a similar backlog and if so, can you give us any 
sense of the numbers of unprocessed grazing permits on Forest 
Service land?
    Ms. Weldon. Thank you for your question, Senator. At this 
point the Forest Service does not have a backlog of unprocessed 
grazing permits.
    Senator Wyden. Alright.
    One last question deals with S. 1129 and particularly, so I 
can understand your thoughts on this, you know, categorical 
exclusion issue. Both of you offer in your statements concern 
about that provision that categorically, S. 1129, categorically 
excludes a grazing permit renewal or transfer from the NEPA 
statute if the decision continues the current grazing 
management of the allotment. Now, it's been my understanding 
that you all essentially have the authority to, 
administratively, establish categorical exclusions under NEPA 
for specific activities.
    Do you all use that now? Let's just get for the record your 
agencies, you know, position about whether you're using 
categorical exclusions for grazing management activities.
    Mr. Pool. We do on certain, I would call them custodial 
type actions whether it be fence replacement, fence repair, 
emergency feeding, replacement of a cattle guard. It's the day 
to day things that a rancher carries out to maintain his 
allotment.
    Senator Wyden. Ms. Weldon.
    Ms. Weldon. What I would add is similar situation. We don't 
have a category right now that fits as far as reauthorization 
and renewal decisions more for the operational side.
    Senator Wyden. OK.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Ms. Weldon, first I appreciate the Department's support of 
the intent of the grazing bill. I just wanted to know if you'll 
commit to working with my staff to address the specific 
language in the concerns that you've addressed?
    Ms. Weldon. Yes, we're committed and we really appreciate 
your assistance with this bill.
    Senator Barrasso. Thank you.
    I want to ask one other question of you. The groups such as 
Western Watershed Project and the WildEarth Guardians 
repeatedly sue to put family farms and small ranchers out of 
business. Recently the Oregon Natural Desert Association 
requested, I think, nearly a million dollars of taxpayer money 
to reimburse their attorney's fees from suing the Forest 
Service to shut down grazing in Eastern Oregon.
    What's the impact on an agency budget such as yours on an 
agency's time and personnel when it comes to defending against 
these types of, what I believe to be, extreme anti-grazing 
lawsuits?
    Ms. Weldon. Thank you for your question, Senator.
    The--we don't formally track the impact as it relates to 
cost in resource time. We, as part of our current process, you 
know, have gotten to the point where we anticipate and plan 
base on our analyses have gone to see where there may be 
challenges. Our goal is to do as much as we can through a new 
process to--of objections to resolve those up front.
    We know that the more agreement we have up front than the 
more successful we can be with having sustainable economically 
beneficial activities such as grazing occurring on public 
lands. Equal Access to Justice Act is something that we're 
required to follow. The payments that we make do come out of 
our appropriated programs to do that.
    Senator Barrasso. So while you haven't specifically tracked 
the specific dollar figures in terms of the budgets, the time 
and the personnel, there is clearly an impact and it does 
affect other programs.
    Ms. Weldon. That's correct.
    Senator Barrasso. Thank you.
    Mr. Pool, with respect to S. 2015, I appreciate the BLM 
being supportive of this land conveyance. So thank you.
    I did want to ask about section 123 of the Consolidated 
Appropriations Act of 2012. It provided flexibility when 
considering NEPA analysis for trailing or crossing permits. 
With the spring turnout approaching for permit holders, how's 
the BLM interpreting and implementing the law?
    Mr. Pool. Thank you for that question, Senator.
    First of all the 2-year rider was welcome relief for the 
Bureau as has been the case with previous riders. We're 
currently--the rider did emphasize and grant BLM the 
discretionary authority to use CXs for trailing permits. So 
we've offered that to the discretion and judgment of our 
managers in the field.
    Trailing permits can vary in size and duration and 
proximity to other values. So we're allowing our managers to 
address local conditions and then make a determination as to 
what appropriately NEPA coverage should be applied.
    Senator Barrasso. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. OK. I thank my colleague.
    Senator Cantwell, any questions?
    Senator Cantwell. Yes, thank you. Thank you, Mr. Chairman.
    Mr. Pool, I wanted to ask you about I mentioned this 
Mitchell Hills situation that happened on the San Juan Islands. 
The Department of Natural Resources made a decision to get rid 
of that land and then a challenge into whether we were going to 
be able to preserve it or not. So is there anything in current 
law that prevents a future administration from deciding to 
divest itself of the BLM lands on the San Juan Islands?
    Mr. Pool. Not if in fact they've been specially designated 
as being proposed under this bill as a National Conservation 
Area. That would be exceedingly difficult if the Congress 
elects to designate the 1,000 acres rocks and islands.
    Senator Cantwell. Unless they do, you're saying there's 
nothing that protects them in the future?
    Mr. Pool. I think, well, currently we're managing them for 
their conservation value. Portions of the rocks and islands 
have an administrative designation. We call that an area of 
critical environmental concern.
    But it does not carry the weight as a Congressional 
designation would in terms of long term protection and 
preservation.
    Senator Cantwell. OK. If this legislation was passed, 
obviously, the management plan and implementation is critically 
important to the local community. How would the Bureau of Land 
Management commit to fostering a, kind of, community 
environment on the management, you know, an advisory plan or 
drafting or implementation or management. How would that 
function work?
    Mr. Pool. I think it would include all of the above which 
we've done on similar type designations. We would develop a 
plan for the area. Obviously in close concert with the affected 
citizens.
    We have other conservation templates out there. State of 
Washington and Fish and Wildlife Service, Park Service, they're 
all represented in the providence. So we're kind of the new 
kids on the scene here. Obviously we're going to respect some 
of the conservation strategies and principles that they've also 
adopted and be very similar to that.
    Senator Cantwell. OK. What do you think that those kinds of 
plans would affect? I mean, I heard some concerns by local land 
owners that maybe it would affect lands outside of the area 
such as adjacent properties.
    Mr. Pool. The rocks and islands primarily constitute the 
1,000 acres that's under consideration for NCA management 
designation. They have been protected and conserved for many, 
many years. They're----
    Senator Cantwell. I'm trying to get at the point would you 
have any effect on private landowners?
    Mr. Pool. No.
    Senator Cantwell. OK, thank you.
    Mr. Pool. No, ma'am.
    Senator Cantwell. Would you have any effect on if we came 
up with this plan, would that have any effect on boating and 
fishing activities?
    Mr. Pool. Only as regulated by other State entities. We 
would respect that.
    Senator Cantwell. OK. Then any property that was adjacent 
wouldn't be impacted?
    Mr. Pool. No, ma'am.
    Senator Cantwell. OK.
    So basically if we move forward on this legislation we 
could come up with something that's more concrete for the 
future, work with the community, and would that be a continued 
process?
    Mr. Pool. It would be. Yes, the development of a plan, plan 
implementation and then we usually use a community based 
planning type initiative. We want the public to participate and 
help the BLM identify how these rocks and islands should be 
better protected and conserved.
    Senator Cantwell. OK. Alright. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    Mr. Pool, before we want to wrap up I also want to tell you 
how much I appreciate your comments about my Rogue legislation. 
In our State there's a tradition of bringing stakeholders 
together to protect special places. President Obama signed a 
number of our bills early in 2009 that came about because all 
over Oregon folks got together and tried to work and find 
common ground.
    You look at a lot of these, you know, protected landscapes. 
The fact of the matter is these landscapes are just magnets for 
recreation. They're incredibly valuable to the economy.
    That's why when a group of citizens can come together and 
protect a treasure and also do it in a way that folks did on 
the Rogue with scores of businesses, you know, supporting it, I 
think you're showing that, particularly, right now in a tough 
economy, people see recreation really is a path to some jobs 
and economic vitality that's much needed, often in rural areas 
that are hard hit. So we thank you for your favorable comments.
    If my colleagues don't have any other questions at this 
point, we'll excuse both of you and go to our next panel. Thank 
you both.
    Our next panel.
    Mr. David Strahan of Grants Pass, Oregon.
    Mr. Jim Magagna, Executive Vice President of Wyoming Stock 
Growers Association.
    Mr. Doug Gann, National Forest Homeowners of Kirkland, 
Washington.
    Mr. Dusty Crary, I hope I'm pronouncing this right, 
Choteau, Montana.
    Mr. Andy Kerr, Advisor to the World Earth Guardians in 
Washington, DC.
    If you all will come forward.
    Dusty, did I do too much damage to your hometown?
    Mr. Crary. Nope, you didn't.
    Senator Wyden. OK. Pretty good for government work. OK.
    Mr. Strahan it is a long trek from beautiful Grants Pass to 
Washington, DC. We really appreciate your coming.
    We'll make your prepared remarks a part of the record. If 
each of you could take 5 minutes or so and just summarize your 
main concerns. I know everybody just, as I indicated earlier, 
just almost feels this and only Dr. Barrasso would probably 
understand almost a physiological desire to actually read all 
the words. But all the words are going to be part of the 
hearing record. That will offer the most time for colleagues to 
ask questions.
    So, Mr. Strahan, thank you and go ahead.

          STATEMENT OF DAVID STRAHAN, GRANTS PASS, OR

    Mr. Strahan. Honorable Chairman Wyden and fellow members of 
the Subcommittee on Public Lands, thank you for inviting me to 
testify regarding S. 2001, a bill to expand the Rogue 
Wilderness and add additional wild and scenic river 
designations to tributaries along the lower Rogue corridor in 
the State of Oregon. It is truly an honor to be here today to 
speak in favor of this legislation.
    As Honorable Senator Wyden said, my name is Dave Strahan. I 
live in Grants Pass, Oregon, where I was born. Grants Pass is a 
city that straddles the Rogue with a population of around 
35,000 people in a region of over 300,000 people.
    The Rogue has long been an international draw for tourists. 
It has also provided sanctuary for notable celebrities over the 
years. Our river has provided inspiration for George Foreman, 
Zane Grey and countless other river lovers. Zane Grey 
proclaimed the historic beauty of this area and made it his 
part time home. ``The happiest lot of any angler,'' wrote Grey, 
``would be to live somewhere along the banks of the Rogue 
River, the most beautiful stream of Oregon.''
    Growing up the Rogue and its watersheds provided my family 
and me countless hours of outdoor recreation and enjoyment. 
Family camping, fishing, hunting and boating is what we did 
when I was growing up as was the case with most of my peers. 
Many of my fondest memories include times spent on or near our 
river. I continue to create those memories today with my own 
family.
    When I graduated from high school in 1972 the majority of 
my friends moved to larger cities to take advantage of more 
varied education and employment opportunities. My love of the 
Rogue, its watersheds and all they have to offer compelled me 
to stay in the Rogue Valley and create a life for myself and to 
raise my family. My oldest daughter will make me a grandfather 
in May and my youngest graduates from high school this spring. 
When I die, I hope to leave a Rogue River that my kids, my 
grandkids and their peers can continue to build memories around 
for generations to come.
    While attending college in Ashland, Oregon, another Rogue 
basin community, I began selling sporting goods as a retail 
clerk, part time in 1975. Since that time I have made my living 
and supported my family selling outdoor recreation equipment in 
the sporting goods industry. I had the best job in the world 
selling the tools for the activities I so enjoy and have been 
such a large part of my life in one of the most beautiful and 
bountiful regions of our great Nation.
    Since 1995 I have proudly been a territory salesman for Big 
Rock Sports. Big Rock Sports is the largest distributor of 
sporting goods in the Nation. Big Rock Sports, headquartered in 
Morehead City, North Carolina, provides well paying jobs all 
across our country with facilities in North Carolina, 
Pennsylvania, Minnesota, Montana, California and Oregon. We 
partner with and help thousands of small family businesses 
throughout the country and proudly present the values and 
culture that are such an important part of our country's 
heritage and quality of life.
    But my passion for being here today is not just about me, 
my career and my love of the Rogue and all it has to offer. I 
am also here today representing 110, the 110, Oregon businesses 
and organizations that support expansion of the Wild Rogue 
Wilderness. I also speak for the Northwest Sport Fishing 
Industry Association, a Northwest industry group made up of 
approximately 300 outdoor recreation businesses in the Pacific 
Northwest.
    A 2009 economic study by Econ Northwest, an economic 
analyst group, estimates economic benefits generated from 
fishing, white water rafting and hiking along the Rogue River 
brought in an annual income of over 18.1 million dollars to our 
region. The Rogue basin's local economy, culture and heritage 
is based on the Rogue River and its supporting watersheds. With 
all this in mind it is with great passion and a great deal of 
empathy for the hundreds of businesses in our region, as well 
as our quality of life in the Rogue basin and the entire 
Pacific Northwest, that I urge you to advance Senate, S. 2001 
and work to ensure that our irreplaceable Rogue River and its 
supporting watersheds are protected for future generations.
    Thank you for your time. Once again, I thank Senator Wyden 
and all of you for the opportunity to speak on something that 
is so important to me. Thank you.
    [The prepared statement of Mr. Strahan follows:]

          Prepared Statement of David Strahan, Grants Pass, OR

    Honorable Chairman Weldon and fellow members of the Subcommittee on 
Public Lands and Forests of the Senate Energy and Natural Resources 
Committee, thank you for inviting me to testify regarding S. 2001, a 
bill to expand the Wild Rogue Wilderness Area in the State of Oregon, 
and to provide additional protections for Rogue River tributaries via 
additional Wild and Scenic river designations in the lower Rogue River 
area. It is an honor to have this opportunity to speak in favor of this 
legislation.
    My name is Dave Strahan. I was born, raised and still live in 
Grants Pass, Oregon. Grants Pass is a city with a population of around 
35,000 people in a county of roughly 83,000 people. Grants Pass 
straddles the Rogue River in the heart of the Rogue Basin in Southern 
Oregon. The Rogue Basin is home to several other cities, larger and 
smaller, creating an area population of approximately 300,000 people.
    The Rogue River's headwaters begin near Crater Lake, a national 
treasure in its own right. It then flows 215 miles through the 
mountains and valleys of southwestern Oregon, eventually emptying into 
the Pacific Ocean near the town of Gold Beach.
    The steep, rugged basin, stretching from the western flank of the 
Cascade Range to the northeastern flank of the Siskiyou Mountains 
varies in elevation from 9,485 feet at the summit of McLaughlin in the 
Cascades to sea level, where it meets the ocean.
    The Rogue has long been an international draw for tourists. It has 
also provided sanctuary for many notable celebrities over the years. I 
have my mother's 1943 Grants Pass High School year book with Clark 
Gable's autograph in it. Our river has provided inspiration for George 
Foreman, Zane Grey and countless other river lovers. Zane Grey 
proclaimed the historic beauty of this area, and made it his part time 
home. ``The happiest lot of any angler'' wrote Grey ``would be to live 
somewhere along the banks of the Rogue River, the most beautiful stream 
of Oregon.''
    The Rogue has been an integral element in my family's life for 
generations. In the late 1800's my great grandparents on my father's 
side homesteaded on a tributary of the Rogue, just a few miles south of 
Grants Pass. My grandparents on my mother's side moved to Grants Pass 
in 1927 and built Kamp Kathleen, a motor court named after my mother 
that catered to salmon fishermen, as well as other tourists.
    Growing up, the Rogue and its watershed provided my family and me 
with countless hours of enjoyment and outdoor recreation. Family 
camping, fishing, hunting and boating is just what we did when I was 
growing up, as was the case with most of my peers. Many of my fondest 
memories include time spent on or near our river, and I continue to 
create those memories today, with my own family. As a sort of rite of 
passage, I made my first raft trip down the lower Rogue canyon as a 
16th birthday present in 1969 with my older brother Mike. Since then, I 
have made hundreds of trips down our river and have had the pleasure of 
introducing many, many awestruck visitors to our special place.
    When I graduated from high school in 1972, the majority of my 
friends moved to larger cities to take advantage of more varied 
education and employment opportunities. My love of the Rogue, its 
watersheds and all that they have to offer, compelled me to stay in the 
Rogue valley to create my life and raise my family. My oldest daughter 
will make me a grandfather in May and my youngest graduates from high 
school this spring. When I die, I hope to leave a Rogue River that my 
kids, my grandkids and their peers can continue to build memories 
around for generations to come.
    While studying business administration and marketing for four years 
at what is now Southern Oregon University in Ashland, Oregon, another 
Rogue basin community, I began selling sporting goods as a retail clerk 
part time in 1975. Since that time, I have made my living and supported 
my family selling outdoor recreation equipment in the sporting goods 
industry. I have the best job in the world, selling the tools for the 
activities I so enjoy and that have been such a large part of my life, 
in one of the most beautiful and bountiful regions of our great nation.
    Since 1995 I have proudly been a territory salesman for Big Rock 
Sports, the largest distributor of sporting goods in the nation. Big 
Rock Sports, headquartered in Morehead City, North Carolina, provides 
well--paying jobs all across our country with facilities in North 
Carolina, Pennsylvania, Minnesota, Montana, California and Oregon. We 
partner with and help support thousands of small family businesses 
throughout every state in our country, and proudly represent the values 
and culture that are such an important part of our country's heritage 
and quality of life.
    But my passion for being here today is not only about me, my career 
and my love of the Rogue and all it has to offer. I am also here today 
representing the 110 plus Oregon businesses and organizations that 
support expansion of the Wild Rogue Wilderness and Wild and Scenic 
protections on the Rogue. I also speak for the Northwest Sportfishing 
Industry Association, a northwest industry group made up of 
approximately 300 outdoor recreation businesses in the Pacific 
Northwest. Additionally, I am on the Stream Restoration Alliance of the 
Middle Rogue's board of Directors. The Stream Restoration Alliance, a 
watershed council dedicated to restoring urban streams through 
volunteer efforts, is also a supporter of the proposed legislation.
    Other organizations representing thousands of people across 
southwest Oregon and throughout our region--such as the Middle Rogue 
Steelheaders, the Native Fish Society, the Oregon Council of Trout 
Unlimited and the Pacific Coast Federation of Fishermen's 
Associations--have thrown their support behind our Rogue River and the 
proposed legislation.
    Besides just the business and outdoor recreation communities, a 
recent poll conducted in rural southwestern Oregon by Moore Polling 
showed that 77% of those polled support protection of Rogue River 
tributaries. Even when told the details of the proposal and what it 
would disallow, the majority still support expansion of the Wild Rogue 
Wilderness. Pollster Bob Moore observed: ``The majority of voters 
clearly favor additional protection . . . ''
    Also, as part of an unprecedented agreement negotiated by 
conservation organizations and the American Forest Resource Council 
(AFRC), a timber industry association, AFRC agreed not to oppose this 
legislation. Tom Partin of AFRC was quoted in the Grants Pass Daily 
Courier on May 25, 2010, ``The area you view from the Rogue River is 
not going to be (logged). A lot of it is too rugged and wild. There is 
not a lot of timber value that we would be giving up if it went into 
wilderness values.''
    Bear in mind that the Rogue River is the largest producer of 
Pacific salmon in Oregon outside of the Columbia River, with 
historically 100,000 salmon and steelhead returning from the ocean each 
year. Rogue River salmon and steelhead travel great distances along the 
Oregon and northern California coasts and support a significant portion 
of our ocean salmon fisheries. With that, they also provide the 
backbone for sport and commercial fishing economies worth billions of 
dollars annually to our west coast. The very tributaries under 
consideration in this piece of legislation are essential to the future 
of these fish and the sustainable economy they support. Salmon and 
steelhead need and thrive on the clear, cold water that these 
tributaries provide.
    A 2009 economic study by ECONorthwest, an economic analyst group, 
estimates the economic benefits generated from fishing, white water 
rafting, (just over 13,000 people floated the lower Rogue in 2007) and 
hiking, (5,000 people hike along the Rogue River in the proposal area 
on average), occurring entirely within the proposal area to be $18.1 
million in economic activity and nearly 300 full and part-time jobs 
annually. When one considers the economic ripple effect in terms of 
restaurants, gas stations, grocery stores and motels, it is clear that 
the outdoor recreation industry is a very substantial contributor to 
our economy. While tourism may not support our entire economy, the 
diversity it brings certainly adds to the stability of our economy.
    There are millions of dollars more in benefits associated with the 
quality of life in the region provided by a clean, attractive river 
corridor with healthy fish runs and intact watersheds. My Rotary group, 
Gateway Rotary, recently heard a presentation from the CEO of Three 
Rivers Hospital in Grants Pass. He explained to us how when recruiting 
doctors and other health care professionals, our river and the wild 
areas around it are important elements in luring these folks to our 
community. In my eight years serving on the Three Rivers School 
District Board of Directors, I was a part of many hiring committees for 
Administrators, and our outdoor quality of life was a very large factor 
in attracting applicants. These professionals all contribute to our 
economy, often with more discretionary income than others. An 
investment in our Wild and Scenic Rogue is an investment in the 
stability of our economy.
    The Rogue Basin's local economy, culture and heritage is based on 
the Rogue River and its supporting watersheds. With all of this in 
mind, it is with great passion and a great deal of empathy for the 
hundreds of business people in our region, as well for our quality of 
life in the Rogue Basin and the entire Pacific Northwest, that I urge 
you to advance S. 2001 and work to insure that our irreplaceable Rogue 
River and its supporting watersheds are protected for future 
generations.
    Thank you for your time. And once again, I thank Senator Wyden and 
all of you, for the opportunity to speak on behalf of something so 
profoundly important to us all.

    Senator Wyden. Thank you and thank you for a very helpful 
statement.
    Mr. Magagna, thank you and we're glad to hear from the 
Wyoming Stock Growers and Public Lands Council.

  STATEMENT OF JIM MAGAGNA, EXECUTIVE VICE PRESIDENT, WYOMING 
 STOCK GROWERS ASSOCIATION, PUBLIC LANDS COUNCIL, CHEYENNE, WY

    Mr. Magagna. Thank you, Mr. Chairman. It's a pleasure to be 
here today and certainly with Ranking Minority Member, Senator 
Barrasso, a good friend of mine. I appreciate this opportunity.
    I've been a public land grazing permitee for over 50 years 
both with the Forest Service and until just recent years--with 
the BLM and until recent years with the Forest Service. I've 
watched the evolution of grazing on public lands, the evolution 
of the livestock industry and the evolution of the science of 
range management on public lands. I view S. 1129 as a response 
to that evolution and therefore something that's critically 
important to us and certainly one that the public land 
livestock industry supports as essential because they're 
essential to restoring a stable business environment to our 
industry.
    As a representative of Public Lands Council, Mr. Chairman, 
for the record, I'm also speaking on behalf of the National 
Cattlemen's Beef Association, the--or the American Sheep 
Industry Association and the Association of National 
Grasslands, all of whom are affiliates of the Public Lands 
Council.
    Historically grazing was viewed as one of the multiple 
uses, the earliest multiple use, in fact, of our federally 
managed lands. Today it's also come to be recognized, as was 
noted I believe in the previous testimony from the two land 
agencies, as an important tool for the management of these 
lands. It's really more than just managing a piece of land. 
It's a tool for managing Western ecosystems or watersheds as 
you may prefer to term them.
    In our case approximately 40 percent of the beef cattle in 
the West and half of the Nation's sheep spend some time on 
public lands. So it's critical as well to our industry. Today 
we have a lot of threats to that industry, mostly could all be 
summed up by uncertainties brought on by competing demands at 
much higher values for the private lands that are associated 
with these public lands via State taxes, by government 
regulation and certainly by a lack of certainty in our grazing 
permits. Together these create a business environment that's 
less promising and less certain than I've known in any time in 
my over 50 years involved in the Public Land Livestock 
industry.
    Long term grazing permits are really at the foundation of 
not only a stable industry, but the evolving science of 
rangeland management. It's become--grazing has come to be 
recognized by range scientists, land management agencies and 
ranchers as an important tool in achieving resource management 
objectives. For a long time we looked at grazing in terms of 
what do we this year different than we did last year.
    That hasn't lost some of its importance. What the science 
of rangeland management has taught us is that it takes a long 
term look. You're able to change grazing systems and thereby 
change the resource itself to a more favorable State by long 
term commitments.
    So certainly a 20-year grazing permit based on that science 
alone just makes sense today. It will provide more ability to 
apply rangeland science. Of course it will provide certainty 
and agency efficiency. I would emphasize that agency 
efficiency.
    So much of what the Federal land agencies do today in 
addressing livestock grazing is done superficially, not through 
any fault of these agencies. But through a lack of resources 
and the hurriedness that comes from having to renew permits in 
a timely fashion every 10 years from having to do a standards 
and guidelines assessments in the short term.
    Second, the proposal to codify the language simply takes 
something that Congress has been doing and we appreciate it, 
for each of the last 10 years. Finally puts that in a permanent 
form so you're not having to deal with it.
    Finally I would turn to the provisions applying 
Administrative Procedures Act to livestock grazing and 
particularly emphasize the Forest Service. I was pleased to 
hear them state today that they're looking at some changes. 
Whether those changes are what's contained in this bill today 
or something else, our industry has stocked for over 35 years 
to bring some changes to the Forest Service process so that an 
appeal is not simply being decided by the next line officer who 
is a supervisor of the individual who issued the original 
decision.
    Finally we can't ignore the public benefits that come from 
livestock grazing. Preventing land fragmentation of private 
lands, protecting wildlife habitats, scenic vistas and keeping 
these land ecosystems together. There are certain times when 
small actions can produce great results. I view S. 1129 as 
being one of those times and urge the committee to support this 
bill and to move it forward with it in an expeditious manner.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Magagna follows:]

   Statement of Jim Magagna, Executive Vice President, Wyoming Stock 
  Growers Association, Public Lands Council, Cheyenne, WY, on S. 1129

    I am Jim Magagna, Executive Vice President of the Wyoming Stock 
Growers Association, the 140-year-old voice of the Wyoming cattle 
industry. I am also a lifelong sheep producer and former president of 
the American Sheep Industry Association (ASI) and the national Public 
Lands Council (PLC). I appreciate the opportunity to appear before you 
today to share the western livestock industry perspective on S. 1129, 
the ``Grazing Improvement Act of 2011''.
    Today I am representing both the Wyoming Stock Growers Association 
(WSGA) and PLC. WSGA has approximately 1000 members, of which over 
fifty percent graze livestock on Bureau of Land Management (BLM) or 
U.S. Forest Service lands. Affiliates of PLC include the National 
Cattlemen's Beef Association (NCBA), the American Sheep Industry 
Association (ASI), the American National Grasslands Association (ANG) 
and sheep and cattle organizations from thirteen western states.
    Livestock grazing represents the earliest use of federally managed 
lands (public lands) as our nation expanded westward. Today it 
continues to represent a multiple use that is essential to the 
livestock industry, wildlife habitat, open space and the rural 
economies of many western communities. While grazing was historically 
viewed only as a ``use'' of the public lands, today it has also come to 
be recognized as an important ``tool'' for the management of these 
lands.
    The latest available data show that there were over 8.7 million 
animal unit months (AUMs) of grazing authorized on BLM lands in fiscal 
year (FY) 2010. This grazing was administered through 17,740 permits 
and leases.\1\ The Forest Service in the fifteen western states 
permitted 6.1 million AUMs on National Forests and an additional 2.2 
million of National Grasslands.\2\ While data is often cited showing 
the relatively small amount of beef or lamb that is produced on public 
lands, such statements ignore the importance of these lands in an 
integrated ranching operation. Approximately 40% of beef cattle in the 
West and half of the nation's sheep spend some time on federal lands. 
Without public land grazing, grazing use of significant portions of 
state and private lands would necessarily cease, and the cattle and 
sheep industries would be dramatically downsized, threatening 
infrastructure and the entire market structure.
---------------------------------------------------------------------------
    \1\ Fact Sheet on BLM Management of Livestock Grazing, September 
2011, Table 3-8 pc. Fiscal Year 2010.
    \2\ USDA--Forest Service, Annual Grazing Statistical Report, 
Grazing Season 2009.
---------------------------------------------------------------------------
    The public land livestock industry seeks and supports the essential 
legislative changes incorporated into S. 1129 for one primary reason-
they are essential steps in restoring a stable business environment to 
our industry.
    Today's public land livestock industry is not the industry of the 
early 20th century. Private ranchland values in the West have 
skyrocketed based on competing uses--primarily rural subdivision 
development. Increasing land values render the estate tax-from which we 
have failed to secure permanent relief-a bigger threat than ever, 
making succession planning an ominous prospect for future generations 
of ranching families. Enhanced livestock genetics and current market 
prices for sheep and cattle have combined with the rising land prices 
to dramatically increase the need for operating capital. Burgeoning 
government regulation demands ever-greater investment of both financial 
and human resources. Agricultural lenders are demanding greater long-
term certainty that the operation, including public land grazing 
permits, will be kept intact. Altogether, these and other factors 
create a business environment that is less promising and less certain 
than ever.
    Long-term certainty of grazing permits is also at the foundation of 
the evolving science of rangeland management. Over the past forty 
years, livestock have become recognized as an important tool for 
rangeland management on both public and private lands. While 
appropriate levels of utilization remain important, timing and 
intensity of grazing have become key management tools. Sophisticated 
analytical systems allow livestock grazing to be utilized to bring 
about significant changes in forage composition over long periods of 
time. One example of such a system is the State and Transition Model 
(STM), which has been embraced in recent years by both BLM and Forest 
Service. These approaches demand a long-term commitment to a grazing 
system.
    When I began my career in ranching in the 1960s, renewal of my term 
grazing permits every ten years on both BLM and National Forests was 
little more than an administrative exercise. The permit renewal 
routinely arrived in the mail. I signed and returned it and shortly 
thereafter received a signed copy for my files. Any on-the-ground 
issues regarding management were addressed during the many 
opportunities that the agency range personnel and I had to spend time 
together in the field.
    Today my permit renewals are subject to compatibility with a 
Resource Management Plan or Forest Plan, prior environmental analysis 
under the National Environmental Protection Act (NEPA), a potential 
need for consultation under Section 7 of the Endangered Species Act and 
the likely appeal by an anti-grazing organization that has been granted 
``interested public'' status by the agency and standing by the courts. 
The opportunities that I once appreciated to spend time in the field 
with range personnel have become scarce as agency personnel are 
inundated by process, Freedom of Information Act requests and appeals. 
The NEPA analysis now deemed necessary is seldom completed in a timely 
manner. As a result, the public land rancher has, for the past ten 
years, been at the mercy of the annual congressional appropriations 
rider to allow permits to be renewed in a timely manner. It just makes 
sense to codify language that has been approved annually by Congress 
for over a decade.
    From the perspective of livestock production, modern range science 
and land agency work load, a longer-term approach to the permitting of 
public land grazing is needed today. Section 2 of the Grazing 
Improvement Act of 2011 directly meets this need by extending term 
permits to 20 years. This critical change will bring needed certainty, 
improved range management and greater agency efficiency.
    In the context of this change to a 20 year permit, it is important 
to note that the ability of the agency to make needed management 
adjustments through the annual authorization to graze (BLM) or annual 
operating plan (Forest Service) is not diminished. In addition, the 
agencies retain the authority to issue shorter term permits under 
special conditions.
    Section 3 of S. 1129 takes an additional important step in 
providing certainty and stability to the industry by incorporating into 
statute language that makes permanent the protection that has been 
provided by the appropriations rider on permit renewal. It recognizes 
that the renewal, reissuance or transfer of a permit does not, per se, 
have a resource impact so long as there is no change in the grazing 
management. By categorically excluding these actions from the 
requirement to prepare an environmental analysis, this section restores 
the role of environmental analysis to its proper function-an analysis 
of the potential impacts of a commitment of resources (changes to an 
RMP or Forest Plan) or a new on-the-ground activity. This section also 
takes a practical approach by properly acknowledging that minor 
modifications torenewed, reissued or transferred permits are 
acceptable, so long as they do not interfere with the achievement of or 
progress toward land and resource management plan objectives, and so 
long as extraordinary circumstances do not indicate a need for further 
analysis.
    Over the past ten years, the agencies have operated under pressure 
to produce environmental analyses on permit renewals either under a 
schedule imposed by Congress, or under self-imposed schedules. These 
timelines have seldom been met. Nevertheless, the time pressures have 
led to NEPA analysis that is frequently either substantively or 
procedurally inadequate and is therefore subject to successful 
administrative and judicial challenge. Reducing the requirement for 
perfunctory environmental analysis will enable the agencies to be more 
thorough when analyzing actions that actually impact the resource. It 
will also help reduce the opportunity for litigation by extreme anti-
grazing groups who, by virtue of fee-shifting statutes such as the 
Equal Access to Justice Act, have made a cottage industry out of 
process-based litigation, draining agency budgets and reaping taxpayer 
dollars to the tune of hundreds of thousands, annually.
    Taken together, Sections 2 and 3 represent a major step toward 
returning the focus of public land grazing to on-the-ground activities 
including management plans and range improvements. The resource, the 
land agencies and the grazing permittees all stand to benefit from 
these adjustments.
    The stability of individual ranching operations will be further 
assured by the passage of Section 4 of S. 1129, which requires that all 
appeals of grazing permit decisions be conducted ``on the record'' in 
accordance with the fundamental principles of the Administrative 
Procedures Act (APA). This is a particularly critical provision as 
applied to the Forest Service. The Forest Service currently lacks an 
independent body to hear administrative appeals similar to the Interior 
Board of Land Appeals (IBLA) that adjudicates BLM appeals. As a result, 
permit appeals within the Forest Service are decided by the next level 
line officer. Most often the deciding officer is the immediate 
supervisor of the author of the decision being appealed. It is 
understandable that research shows 85% of appeals under this structure 
are upheld. Frankly, I most often advise Forest Service permittees that 
an administrative appeal of a permit decision is little more than a 
necessary procedural step to set the stage for a judicial appeal.
    While BLM appeals are conducted through a less prejudiced system, 
these permittee appeals nevertheless place a tremendous burden on the 
appellant. Strict adherence to the APA will properly place the burden 
of proof on both federal agencies to show that their decisions are 
correct in law and in fact. Because there is no current provision for a 
stay of a decision pending appeal, the permittee can be faced with 
making significant and costly adjustments to the ranching operation 
based on a decision that may be overturned through the administrative 
appeal. Section 4 will assure that the decision is suspended and that 
current grazing is allowed to continue until the appeal is resolved. 
There is, appropriately, an exception where failure to implement the 
decision would result in an immediate deterioration of the resource.
    To this point I have focused my discussion on the benefits to the 
ranching industry, the resource and the agencies that would accrue from 
passage of the Grazing Improvement Act of 2011. I will now turn my 
attention to the benefits that will be derived by the public.
    All but the most ardent of opponents of public land grazing 
acknowledge that the continuation of grazing on public lands is 
essential to maintaining the integrity of landscapes in the West. Given 
the mosaic pattern of land ownership in most public land areas, a 
majority of ranches in these areas are not economically viable ranching 
operations without access to forage on public lands. These associated 
intermingled private lands will often readily find a market as rural 
subdivisions. The resulting land fragmentation results in a loss of 
wildlife habitat, open space and scenic vistas, and public access. This 
can diminish the value of the public lands themselves for recreational 
use. Keeping ranchers in business is good policy for conservation of 
both private and public land.
    Most public land ranchers do not want to develop their private 
lands. It is not in the public interest to drive them to do so by 
increasing the uncertainly that they face in continuing public land 
ranching. Over ten years ago, WSGA established the Wyoming Stock 
Growers Land Trust. Our sole reason for doing so was to provide another 
tool to keep private ranchlands in ranching. To date, we have succeeded 
in placing over 160,000 acres of Wyoming lands under conservation 
easements. However, as we visit with public land ranchers, we often 
hear, ``I would be very interested in placing an easement on my private 
land if my grazing permit were more secure. If I lose the permit, I 
will have little choice but to subdivide my land.''
    There are certain times when small steps can produce large results. 
In S. 1129, Senator Barrasso takes those small steps. The results will 
include greater stability for the livestock industry, a renewed focus 
on long-term resource management, enhanced agency efficiency and 
continuation of the broad public benefits provided by both public and 
private lands in the West. On behalf of the Wyoming Stock Growers 
Association, Public Lands Council and its affiliates and, most 
significantly, the over 22,000 families dependent on public land 
grazing, I urge your support for this legislation. Thank you for your 
consideration of my testimony.

    Senator Wyden. That was very helpful.
    Mr. Kerr, welcome.

               STATEMENT OF ANDY KERR, ADVISOR, 
                      WILDEARTH GUARDIANS

    Mr. Kerr. Thank you, Senator Wyden and Senator Barrasso for 
inviting me today. I'm here today testifying on behalf of 
WildEarth Guardians.
    S. 1129 would double the length of a term grazing permit on 
Forest Service and BLM lands from 10 to 20 years. Congress has 
directed that the two agencies revise their management plans 
every 15 years. I would suggest that term grazing permits 
should not be longer than the life of the resource management 
plan that it's based on.
    Moreover, the environmental conditions change and public 
values evolve and the grazing permit renewal process is the way 
that Congress has established for the management agencies to 
review, to see how the agency's permitees are doing in meeting 
the terms and conditions of their permit. As importantly how 
the lands, soil, water, wildlife and other resources are faring 
under these grazing allotments.
    The second thing the bill would do is waive or truncate 
long established processes intended to protect and restore 
public lands and resources. NEPA is the process that Congress 
has established for the agency to take a hard look at 
management decisions. It can sometimes be inconvenient. 
Congress hasn't, in my opinion, funded enough money for the 
agency to do their job in this regard.
    In terms of categorical exclusions if there is no 
environmental impact the categorical exclusion is a good idea. 
It's fine. But there is environmental impact from livestock 
grazing, very serious environmental impacts.
    The third thing the bill would do would be to create a 
special track for administrative review available only to 
grazing permitees, a track that would favor the permitees and 
be against the public interest. This separate track would not 
apply to anybody but grazing permitees. So that provision also 
tries--it would change the burden of proof for the process, the 
appeals process that the agency would have to prove that it was 
right rather than requiring the affected permitee to prove a 
decision is wrong.
    Jurisprudence in this country and Public Land law and 
administrative review of Federal agency decisions has given 
great deference to the agencies in terms of making decisions. 
Only if a court finds that an agency actually was ``arbitrary, 
capricious and abusive discretion or otherwise not in 
accordance with law,'' I'm quoting the Administrative Procedure 
Act, will a court remand a decision to the agency to reconsider 
that decision. Switching the burden of proof from appellants to 
the agency would be a radical change to administrative and 
judicial review.
    The theory of NEPA and the National Forest Management Act 
and the Federal Lands Policy Management Act is that good 
process will result in good decisions. The process is not 
working. Congress has been granting riders the agency is 
behind. The agency is not taking a hard look. So that's the 
process that the reason there is litigation.
    By the way, you know, to win a lawsuit the agency really 
has to screw up. You know, it's a hard burden for a plaintiff 
to prove to a judge that the agency acted in an arbitrary and 
capricious manner. I think what gets lost in this debate about 
raising permit renewal is the impact, the consequences of 
livestock grazing on endangered species, on ecosystems and 
watersheds.
    Most permits allotments are not meeting rangeland health 
standards. Many have water quality limited streams. Many are 
habitat for listed species on the Endangered Species Act.
    Despite how some seek to portray conservationists, lawsuits 
are not our preferred method of engagement on public land 
grazing. Instead most of the conservation community strongly 
favors voluntary grazing permit retirement. Instead of the if 
the permitee wants to retire the permit, the option should be 
available to them for a third party, like a conservation 
organization, sporting organization to come in and offer them 
money to equitably end their livestock grazing in controversial 
areas.
    Grazing permit buyout is economically rational. It's 
economically imperative. It's fiscally prudent. It's socially 
just and politically pragmatic.
    The recent Congresses have extended voluntary grazing 
permit retirement option on certain lands such as the Cascade-
Siskiyou National Monument in Oregon, the Owyhee Wilderness 
Areas in Idaho and the California Desert Conservation Area and 
others. So we would rather be buying Federal grazing permits 
from willing sellers than constantly having to take the Forest 
Service and the BLM to court for flawed decisionmaking. Not 
that the court overturns their decision, but says in the 
process they made usually was not followed. But Congress hasn't 
given us the choice to use permit retirements except in very 
limited circumstances.
    So I would suggest that extending voluntary permit 
retirement options on all public lands would be a win/win/win 
for public lands, for the ranchers, for public land users and 
taxpayers as opposed to S. 1129 which I think wo uld surely be 
a loser for public lands and healthy watersheds and native 
wildlife.
    Thank you.
    [The prepared statement of Mr. Kerr follows:]

    Statement of Andy Kerr, Advisor, WildEarth Guardians, on S. 1229

    My name is Andy Kerr\1\ and I testify today as an advisor to 
WildEarth Guardians,\2\ an environmental conservation organization 
based in Santa Fe, New Mexico, with additional offices in Tucson, 
Arizona and Denver, Colorado. WildEarth Guardians works to protect and 
restore wildlife, wild places and wild rivers in the American West. I 
also consult for several other conservation organizations working to 
designate additional wilderness areas, wild and scenic rivers and 
national monuments on public land, conserve and restore Pacific 
Northwest old-growth forests, and conserve the greater sage-grouse and 
their habitat.
---------------------------------------------------------------------------
    \1\ <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9b949e83919f8888ba9b949e83919f8888d4949f8e">[email&#160;protected]</a>, www.andykerr.net
    \2\ www.wildearthguardians.org
---------------------------------------------------------------------------
    I thank the Chairman and the Ranking Member for inviting me to 
testify today.
    S. 1129 would change federal public lands grazing policy in three 
major ways:

          1. Double the length of a term-grazing permit on Forest 
        Service and Bureau of Land Management lands from 10 to 20 
        years.

    Congress has directed that the Forest Service and Bureau of Land 
Management revise land management plans not less than every 15 years. A 
term grazing permit should not be longer than the life of the plan upon 
which it is based. Moreover, environmental conditions change and public 
values for public land management evolve. The grazing permit renewal 
process is an opportunity for land management agencies to review how 
the permittee has done in fulfilling the terms and conditions of their 
permit and how the land, soil, water, wildlife and other resources are 
faring on the grazing allotment. It is also the time to ensure that the 
new grazing permit comports with the current land use plan and to 
consider alternatives to current management. Reducing the frequency of 
review reduces the oversight of the agency and the public, limits the 
ability of managers to adapt to changing conditions, and takes away 
opportunities to correct improper grazing management on 260 million 
acres of public land.

          2. Waive or truncate long-established processes intended to 
        protect and restore public land and resources.

    The permit renewal process is the chance for the public to 
participate in public lands grazing management in accordance with the 
National Environmental Policy Act (NEPA), the Federal Lands Policy and 
Management Act (FLPMA) and National Forest Management Act (NFMA). S. 
1129 would legislate new categorical exclusions under NEPA for grazing 
permits under which most would never be subject to any environmental 
review.
    Council on Environmental Quality regulations already allows the use 
of categorical exclusions for decisions that have no environmental 
impact. If a federal action has no environmental impact, a categorical 
exclusion is appropriate. However, the grazing of livestock on public 
lands has environmental impact.\3\ NEPA requires the agencies to take a 
``hard look'' at the activities it permits, and the impacts of 
livestock grazing should be subjected to this scrutiny. S.1129 would 
result in even fewer grazing permits receiving environmental review 
than do now.
---------------------------------------------------------------------------
    \3\ On public land across the West, millions of non-native 
livestock (including cattle, sheep, goats and horses) remove and 
trample vegetation, damage soil, spread invasive weeds, despoil water, 
deprive native wildlife of forage and shelter, accelerate 
desertification and even contribute to global warming. See Mark Salvo. 
2009. Western Wildlife Under Hoof: Public Lands Livestock Grazing 
Threatens Iconic Western Species. WildEarth Guardians. Santa Fe, NM. 
Former Secretary of the Interior Bruce Babbitt has written that federal 
public lands livestock grazing ``is the most damaging use of public 
land.'' Bruce Babbitt, B. 2005. Cities in the Wilderness: A New Vision 
of Land Use in America. Island Press. Washington, DC: 148.

          3. Establish a special track for administrative review 
        available only to grazing permittees and weight that process in 
---------------------------------------------------------------------------
        favor of permittees and against the public interest.

    S.1129 would establish two tracks for administrative review of 
agency decisions regarding grazing permits: one for the public and one 
for permittees. This is fundamentally unfair. The rules for 
administrative review should apply to all parties equally.
    It also unfairly changes the current appeals process by 
automatically halting agency decisions until the agency can prove 
itself right rather than requiring the affected permittee to prove the 
decision wrong. It allows existing management to continue until appeals 
are resolved, effectively preventing necessary management changes while 
an appeal winds its way through the administrative process.
    According to an attorney who advocates for public lands grazing 
interests:

          [S.1129] ``changes'' the current appeals system by requiring 
        the BLM [and the Forest Service] to prove its decision is 
        legally and scientifically correct; rather than forcing the 
        permittee to prove why the decision is legally and 
        scientifically wrong.\4\
---------------------------------------------------------------------------
    \4\ Karen Budd Falen. ``Leveling the Playing Field: Support for the 
Grazing Improvement Act of 2011, ``May 23, 2011. Available at 
www.klamathbasincrisis.org/Grazing/grazingimprovmntactintro053111.htm.

    The jurisprudence that has developed on public land law-and 
administrative review of federal agency decisions--upholds agency 
deference in decisionmaking. Only if a court finds that an agency's 
action was ``arbitrary, capricious, an abuse of discretion, or 
otherwise not in accordance with law''\5\ will it remand a decision to 
the agency to reconsider its decision. S witching the burden of proof 
from appellants to the agency would be a radical change for 
administrative and judicial review.
---------------------------------------------------------------------------
    \5\ Administrative Procedure Act of 1946, 5 U.S.C. Sec. Sec. 701-
708.
---------------------------------------------------------------------------
    If Congress decides to legislate such a radical change to current 
law, it should apply to all parties engaged in public lands grazing 
management, not just federal grazing permittees.
    The chief sponsor of S.1129 has articulated three basic arguments 
for this legislation:

    1. [E]xtreme environmentalists have hijacked the permitting process 
with endless lawsuits aimed at eliminating livestock from public 
lands.\6\
---------------------------------------------------------------------------
    \6\ Senator John Barrasso. ``Barrasso Bill Helps Ranchers by 
Preserving Grazing Rights'' (news release), May 27, 2011.
---------------------------------------------------------------------------
    Conservationists don't file litigation over federal grazing permits 
just because we are troubled with the massive environmental impacts of 
public lands grazing. We are, but we don't litigate unless there is 
evidence that the law has been violated. In most cases, federal judges 
have agreed with the conservation community. Congress should address 
federal agencies long history of flagrantly and routinely violating the 
law, rather than finding ways to protect a few poorly managed livestock 
operations from having to operate under the same rules that apply to 
others.
    2. These irresponsible tactics overwhelm permitting agencies and 
leave ranchers at risk of losing their grazing permits.\7\
---------------------------------------------------------------------------
    \7\ Senator John Barrasso. ``Barrasso Bill Helps Ranchers by 
Preserving Grazing Rights'' (news release), May 27, 2011.
---------------------------------------------------------------------------
    Federal agencies wouldn't be overwhelmed by public participation in 
grazing permit renewals if they would just follow the law. The 
framework of NEPA and the bases of NFMA and the FLPMA are that good 
information and good process will result in good decisions. What 
federal courts generally find in our litigation is not whether the 
decision was good or bad, but that it didn't use the best information 
or was produced using improper process. Congress could improve the 
decisionmaking process by appropriating more funds for it.

    3. [The] bill gives ranching communities the certainty and 
stability they desperately need.\8\
---------------------------------------------------------------------------
    \8\ Senator John Barrasso. ``Barrasso Bill Helps Rangers by 
Preserving Grazing Rights'' (news release), May 27, 2011.
---------------------------------------------------------------------------
    Congress has tolerated a grazing fee based on an archaic formula 
that results in nearly free grazing on the federal public lands in the 
West.\9\ Congress spends at least six times as much to facilitate 
public lands grazing as permittees pay for the privilege.\10\
---------------------------------------------------------------------------
    \9\ ``BLM and Forest Service Announce 2012 Grazing Fee'' (news 
release), January 31, 2012.
    \10\ Government Accountability Office. 2005. Livestock grazing: 
federal expenditures and receipts vary, depending on the agency and the 
purpose of the fee charged. GAO-05-869, Government Accountability 
Office. Washington, DC.
---------------------------------------------------------------------------
    The public lands grazing industry faces major challenges on and off 
public lands that are not addressed by S.1129.
    For one, increasingly more Americans are visiting their public 
lands and place a higher priority on wildlife, recreation, watershed 
and scenery than they do on the miniscule amount of the livestock 
forage it provides (less than 2% of the nation's forage supply comes 
from federal public lands).\11\ Their preferred non-consumptive uses of 
public lands often conflict with livestock grazing, making the 
industry's instability a reflection of a cultural shift. Limiting 
public participation disenfranchises public lands users who value it 
for more than forage production. Second, the forage is better on 
private lands. The average acre of private grazing land in the East is 
78 times more productive as the average acre of BLM public land in the 
West.\12\ Where grazing is measured in acres per cow rather than cows 
per acre-as on public lands-it's a marginal economic activity even when 
livestock prices are high. This phenomenon cannot be resolved by 
limiting public or environmental review of grazing permit decisions.
---------------------------------------------------------------------------
    \11\ USDI-BLM, USDA-Forest Service. 1995. Rangeland Reform '94 
Draft Environmental Impact Statement. USDI-BLM, Washington, DC.
    \12\ WildEarth Guardians. ``Economic Contributions of Federal 
Public Lands Livestock Grazing'' (factsheet). Available at 
www.sagebrushea.org/pdf/
factsheet__Grazing__Economic__Contributions.pdf.
---------------------------------------------------------------------------
    What often gets lost in the debate over the renewal of public lands 
grazing permits are the consequences of livestock grazing on native 
species, ecosystems and watersheds. Most grazing allotments in the West 
do not meet the federal standards for rangeland health. Most have water 
quality-limited streams listed under the Clean Water Act. Many are 
habitat for species listed under the Endangered Species Act. Streams 
are polluted and species are imperiled because of livestock grazing on 
public lands. And the federal taxpayers are paying for it.
    For these and other reasons, the conservation community opposes 
S.1129.
    Despite how some seek to portray conservationists, lawsuits are not 
our preferred method of engagement on public lands grazing. Instead, 
most of the conservation community strongly favors voluntary federal 
grazing permit retirement to resolve grazing conflicts. Permit 
retirement is ecologically imperative, economically rational, fiscally 
prudent, socially just and politically pragmatic.
    With voluntary grazing permit retirement, ranchers choose if and 
when they want to retire their grazing permit. The conservation 
community would compensate ranchers to waive their permit, often at 
several times the fair market value. Ranchers could use their 
compensation to pay off debt, reconfigure their operations solely on 
private land, start new businesses or retire.
    Recent Congresses have authorized voluntary grazing permit 
retirement on select public lands, including in the Cascade-Siskiyou 
National Monument in Oregon, Owyhee wilderness areas in Idaho, the 
California Desert Conservation Area, and areas in the West where 
domestic sheep grazing conflicts with native bighorn sheep recovery.
    Ranchers across the West are interested in voluntary grazing permit 
retirement. The conservation community would rather be buying out 
grazing permits from willing sellers than constantly having to sue the 
Forest Service and Bureau of Land Management for flawed decisionmaking. 
But Congress hasn't given us the choice to use permit retirement except 
in very limited circumstances.
    Extending voluntary federal grazing permit retirement to all public 
lands would be a win-win-win for public lands ranchers, other public 
lands users and taxpayers, as opposed to S.1129, which is surely a 
loser for public lands, healthy watersheds, and native wildlife.

    Senator Wyden. Mr. Kerr, thank you. We'll have questions in 
a moment.
    Mr. Crary.

             STATEMENT OF DUSTY CRARY, CHOTEAU, MT

    Mr. Crary. Chairman Wyden, Ranking Member Barrasso and 
members of the subcommittee, good afternoon. My name is Dusty 
Crary. I'm a rancher and an outfitter from Choteau, Montana. 
I'm also a member of the Coalition to Protect the Rocky 
Mountain Front.
    Our working group developed the proposal resulting in S. 
1774. I'd like to thank the Chairman and Ranking Member for 
having this hearing so we can have this opportunity to testify 
today. You've got my written testimony and I couldn't improve 
on Senator Baucus? superlative. So I'll just go right to the 3 
components of this bill.
    The first would be an addition of 67,000 acres of 
wilderness. These 5 parcels all fall within lands currently 
managed by the Forest Service as recommended for wilderness. 
They also adjoin current wilderness boundaries.
    I'd like to assure everyone that the subject of wilderness 
in this process has been well vetted in the over 5 years that 
we've been working on this project. We reached out to and got 
feedback from those who could be affected by wilderness 
designation and made changes to address those concerns. We've 
also heard from advocates who felt there was not enough 
wilderness in this proposal and considered their thoughts as 
well.
    We feel the parcels selected strike a good balance and are 
an appropriate addition to the Bob Marshall complex.
    Although an iconic land use designation with a clear 
template to follow we knew that wilderness was not a good fit 
for most of the land within this proposal. But it's the 
multiple use land between wilderness and private ranches has 
provided livestock grazing, firewood cutting, cabin sites and a 
host of recreational opportunities for many Montanans and folks 
from even farther away than that.
    People love the Front just the way it is. Keeping it the 
way it is is the intent of the second part of this legislation. 
It's what we came up with.
    This is called a Conservation Management Area or CMA. The 
CMA would cover the remaining 208,000 acres of U.S. Forest 
Service and BLM land on the Front that's non wilderness. The 
CMA ensures current uses continue, protects against an 
uncertain future and provides land managers the flexibility 
they need and would not have with full designated wilderness.
    The private ranchlands along the Front are one of the most 
vital, ecological aspects of the Front. These large blocks of 
land provide critical habitat and winter range for much of the 
wildlife in this area. Federal land grazing is an important 
element to many of these multigenerational operations.
    Protecting these permits has been the highest priority 
throughout this process. This legislation will in no way 
jeopardize any grazing permit and in fact provides additional 
language emphasizing their importance and safeguarding their 
continued use. The CMA ensures the integrity of the entire 
system.
    Noxious weeds, primarily Spotted Knapweed and Leafy Spurge 
are two invasives that threaten the Rocky Mountain Front. 
Native plant communities, wildlife and agricultural production 
are all at risk from these invaders. There's a high level of 
commitment among private landowners and agencies to reduce and 
contain infestations on State and private lands.
    The third part of this bill would build on this foundation 
to ramp up efforts to control noxious weeds on Federal lands. 
Language in this bill would direct the Forest Service and BLM 
to develop comprehensive weed management plans and encourage 
increased efforts which is really needed. To protect property 
values and wildlife habitat the Forest Service and BLM must be 
fully committed to fighting noxious weeds on Federal lands.
    In closing I want to personally thank Senator Baucus, not 
just for his political support in introducing this bill, but 
also for really, truly understanding and sharing the passion of 
the people on the Front and our love for this incredible 
landscape. If ever there was a start from scratch, kitchen 
table proposal. This is it.
    We're just a small group of citizens, who realize if you 
want to keep your home range intact, you need to put it in 
writing. This bill does just what it needs to and not one thing 
more. My kids are the fifth generation to grow up and work on 
the ranch that my great grandfather started. This is our 
homeland security bill and it's our hope that you'll give it 
your favored consideration.
    Thank you.
    [The prepared statement of Mr. Crary follows:]

       Prepared Statement of Dusty Crary, Choteau, MT, on S. 1774

     Chairman Wyden, Ranking Member Barrasso, and members of the 
subcommittee:
    Good afternoon, my name is Dusty Crary. I am a rancher and 
outfitter from Choteau, MT. Along with my wife Danelle and three 
children, we operate Four Seasons Cattle and a backcountry outfitting 
business. I am also a member of the Coalition to Protect the Rocky 
Mountain Front. This working group developed the proposal resulting in 
S.1774. I want to thank the chairman and ranking member for holding 
this hearing and for the opportunity to testify before the 
subcommittee. I also want to thank Senator Baucus for his commitment to 
preserving this special place.
    The Rocky Mountain Front (RMF) rises abruptly from the mixed grass 
prairies of North Central MT to take its place on the eastern edge of 
the Crown of the Continent Ecosystem. The outer peaks of the Front are 
the gateway and guardians of that celebrated centerpiece of North 
American conservation, the Bob Marshall Wilderness Complex.
    There are 3 components to this legislation. The first would be an 
addition of 67,000 acres of designated Wilderness. These parcels are 
within USFS recommended wilderness lands and adjoin current Wilderness 
boundaries. Currently the USFS manages about 93,000 acres along the RMF 
for its wilderness characteristics. After much debate and discussion 
amongst our working group, all of whom are intimately familiar with the 
landscape, we arrived at the boundaries as shown. We feel these parcels 
selected strike a good balance, and are an appropriate addition to the 
Bob Marshall Complex. In the case of each of the five proposed 
Wilderness additions, we took a hard look at how people were using the 
land. For example, at the southern end of the Front there are several 
outfitters who routinely lead trail rides into these areas and rely on 
chainsaws to clear deadfall each spring. When we were working on the 
boundaries we talked to all the guides and livestock operators in 
advance to make sure that the Heritage Act would not hurt their ability 
to make a living off the land. The final version of the Heritage Act is 
better because of the input from the folks on the Front.
    Although an iconic American land use designation with a clear 
template to follow, we knew that big ``W'', wilderness, was not a good 
fit for much of the land within the proposal. In fact, it is this land 
that lies between wilderness and private land that has been the focus 
of our efforts. This multiple-use land has provided firewood cutting, 
livestock grazing, and recreational opportunities for local residents 
and visitors from afar. In a survey conducted in 2002, respondents from 
Teton County differed on their opinions of wilderness, motorized use, 
and oil & gas development, but replied that they like the Front just 
the way it is. Our aim was to develop a proposal that does just that, 
keeps the Front the way it is. What we arrived at is the 2nd part of 
this bill, the Conservation Management Area (CMA). The CMA would cover 
the remaining, non-wilderness federal lands, comprising 208,000 acres. 
The CMA is flexible enough to allow the FS and BLM to effectively 
manage wildfire, grazing and recreational use and strong enough to 
protect the character of the land for future generations.
    The private ranchlands adjacent to the federal lands are one of the 
most vital ecological aspects of the front. These large blocks of 
private land provide critical habitat and winter range for much of the 
wildlife in this area. This interface has been referred to as the 
American Serengeti and still has the complete compliment of species 
that were here when the Corps of Discovery traversed the area in 1805 
and 1806, including bison, although in private herds. The riparian 
corridors hold the largest concentrations of Grizzly Bears in the lower 
48. These ranches are not only ecologically crucial; they are 
culturally significant to the fabric of the region. Federal land 
grazing is an important element to many of these multi-generational 
operations. Protecting these grazing permits has been the highest 
priority throughout this entire process. It is paramount to the 
integrity of the entire system that these large ranches remain intact. 
Keeping them economically viable is the best way to insure that. This 
legislation will in no way jeopardize any grazing permit and in fact 
provides additional language emphasizing their importance and 
safeguarding their continued use. Many of these ranches are under 
conservation easement with various agencies and conservation 
organizations and there is strong interest to do easements among 
additional operations. With the addition of the Conservation Management 
Area, the integrity of the entire system would be insured. The CMA 
provides crucial balance that allows for the continuation of historical 
uses and protection for the future.
    Invasive species is an oft heard term these days. It seems every 
region has an invasive plant or animal to deal with. Noxious weeds, 
primarily Spotted Knapweed and Leafy Spurge, are two invasives that 
threaten the RMF. Native plant communities, wildlife, and agricultural 
production are all at risk from these invaders. Fortunately there is a 
high level of commitment from landowners, agencies, and NGO's currently 
in place to contain and reduce infestations on state and private lands. 
The third leg of this legislation would build on this existing 
foundation to ramp up the efforts to control noxious weeds on federal 
lands. We can have the best land protection in place but that alone is 
insufficient if noxious weeds create a monoculture across the 
landscape. Language in the Rocky Mountain Front Heritage Act (RMFHA) 
will direct the Forest Service and BLM to develop a comprehensive weed 
management plan with the input of private landowners, tribal members 
and the general public. To protect property values, wildlife habitat 
and water quality, we need the FS and the BLM to be fully committed to 
fighting noxious weeds on public lands.
    In closing I would like to re-emphasize the intent of the Coalition 
to Protect the Rocky Mountain Front. This legislation was not generated 
at the federal level and sent down for comment. If ever there was a 
start from scratch, kitchen table proposal, this is it. We are a small 
group of ordinary citizens who are passionate about our landscape and 
have a thorough understanding of why it is important to keep it intact. 
And like most everyone else, we like it the way it is. We just realize 
that unless you put it in writing there is no guarantee that it will 
stay the same. We wanted this legislation to do just what it needs to 
and not one thing more. And that quite simply is the goal of the RMFHA. 
It is an insurance policy for the future. My kids are the fifth 
generation of Crarys growing and working on the ranch my great 
grandfather started. This is our Homeland Security Bill, and it is our 
hope that you will give the RMFHA your favorable consideration.
    Thank you for the opportunity to testify.

    Senator Wyden. Thank you, Mr. Crary. We'll have some 
questions here in a moment.
    Mr. Gann, welcome.

 STATEMENT OF DOUG GANN, NATIONAL FOREST HOMEOWNERS, KIRKLAND, 
                               WA

    Mr. Gann. Good afternoon, Mr. Chairman and members of the 
subcommittee. My family's cabin is located on the Wenatchee 
National Forest in the State of Washington. I'm speaking today 
on behalf of the National Forest Homeowners in support of the 
Cabin Fee Act.
    More than 14,000 cabin owners have permits for recreation 
residences and all have a vital interest in this legislation. 
Over the last several years long time cabin owners of modest 
means, whose families have loved and maintained their cabins 
for generations have expressed deep concern their cabin 
stewardship is being jeopardized by sharply escalating and 
sometimes excessive and unfair fees. The use of fee simple land 
appraisals that set fees as mandated by the current statute, 
commonly known as CUFFA, fails to determine the actual market 
value because the highly restrictive nature of the permitted 
use is not considered in the appraisal process.
    Interdependent equity interest, where the permitee owns the 
cabin while the government owns the land are difficult and 
subjective to separate. The lack of private recreation land 
suitable for appraisal comparisons also contribute to 
inconsistent appraisal results, sometimes resulting in fees 
that are well above market and in other cases potentially below 
market. The CFA addresses these challenges and offers needed 
reform.
    We believe nearly 35 percent of the cabin owners will reach 
their affordability break point under CUFFA over the next 
couple of years. When these folks try to sell their cabin and 
some won't be able to because of above market fees. We estimate 
that 10 to 15 percent of the cabins will have to be torn down 
and removed at owner expense resulting in the permanent loss of 
Federal fee revenue, local tax revenue and other economic 
benefits.
    It's important to note that the 10 to 15 percent of the 
cabins that will be lost will result in greater than a 20 
percent loss of revenue because it's the permits with the 
highest fees that are lost, not your average fees. This act 
provides for a reasonable user fee indexed annually that will 
provide predictable fee increases while maintaining cabin 
value. CFA fees will range from $500 as a minimum to 4,500 
where the highest fee is 9 times the lowest. Once implemented 
the annual CFA program revenue will be more than twice the fee 
revenue collected in 2008 and will have a budget neutral impact 
as determined by the Congressional Budget Office.
    This new fee structure also compares favorably to the 
broader market of similar public and private cabin lease 
programs. A comprehensive study conducted for the NFH examined 
the market for cabin programs similar to the Forest Service 
program. While user fees varied by location, permit and lease 
terms, the average user fee of approximately 1,000 dollars was 
less than half the proposed average fee under the CFA. This 
further demonstrates the proposed fee structure provides more 
than a fair return and is supported by sound market principles 
and validates the use of public land for recreation resident's 
purposes.
    An NFH survey found that 95 percent of the cabin owners 
were dissatisfied with the current CUFFA system. That 93 
percent support the CFA as a replacement. While this bill does 
have broad support a recent discussion with the Forest Service 
has led us to support several changes to improve the bill 
further.
    The CFA calls for a transfer fee of $1,000 to be paid when 
a cabin changes ownership and a new permit is issued, plus a 
surcharge of 5 to 10 percent of the cabin sale price if the 
cabin sells for an unusually high price. Concerns raised by the 
Forest Service suggest that this surcharge creates a bigger 
problem for them than the problem it was intended to solve. 
Therefore the cabin owners support removing the surcharge 
portion of this fee while retaining the $1,000 transfer fee.
    To help mitigate a slight reduction of revenue from the 
transfer fee revision, as well as ensure user fees apply fairly 
to cabins with premium locations, the cabin owners support an 
additional fee tier of $5,000.
    We also seek several technical language changes required to 
clarify the intent of certain aspects of the bill as well as 
satisfy other concerns raised by the Forest Service.
    In short we support the changes mentioned by Deputy Chief 
Weldon a little earlier.
    The strength of the CFA is its simplicity. The simple and 
straight forward fee structure provides a predictable and 
affordable fee for the cabin program, as well as significant 
administrative time and cost savings for the Forest Service. 
The bill appropriately balances the interest and needs of the 
cabin owner with the public interest by obtaining a fair return 
for the use of these public lands. The Cabin Fee Act will 
preserve a cherished program that's been a major source of 
outdoor recreation for thousands of American families for a 
century.
    We ask for your support and urge the CFA be enacted into 
law.
    Thank you.
    [The prepared statement of Mr. Gann follows:]

     Prepared Statement of Doug Gann, National Forest Homeowners, 
                              Kirkland, WA

Introduction
    Good afternoon, Mr. Chairman and Members of the Committee.
    My name is Doug Gann from Kirkland, Washington and my family's 
cabin is located on the Wenatchee National Forest in the State of 
Washington. I'm pleased to present this statement on behalf of the 
National Forest Homeowners and the C2 Coalition of Cabin Organizations 
in support of the Cabin Fee Act. More than 14,000 cabin owners have 
permits for recreation residences on the National Forests and all have 
a vital interest in this legislation.
    Over the last several years, long-time cabin owners of modest 
means, whose families have loved and maintained their cabins for 
generations, have expressed deep concern that their cabin stewardship 
is being jeopardized by sharply escalating fees, some of which are 
excessive, above market, and unfair.

Problems with CUFFA
    Since the passage of the Organic Act in 1915, the Recreation 
Residence Program has been a longstanding valid use of National Forest 
lands, but is now being threatened by the fee setting process specified 
in the Cabin User Fee Fairness Act of 2000, commonly referred to as 
CUFFA. (Note: We will refer to the more commonly used terms ``cabin 
program'' and ``cabin owners'' instead of the more technically correct 
``Recreation Residence Program'' and ``recreation residence permit 
holder''). The current use of a fee simple land appraisals to set fees 
as mandated by CUFFA, fails to determine actual market value because 
the highly restricted nature of the permit use is not valued in the 
CUFFA appraisal process. Also, both location and the cabin structure 
influence market value and sale prices. Interdependent equity interests 
where the permittee owns the cabin while the government owns the land 
are difficult and subjective to separate. The lack of private 
recreation land suitable for appraisal comparisons also contributes to 
very inconsistent appraisal results, sometimes resulting in user fees 
which are well above market value, while in other cases user fees are 
set potentially below market value.
    The Cabin Fee Act (CFA) will simplify and improve the fee-setting 
process. It will encourage better relationships between the Forest 
Service and cabin owners and will reduce agency administrative workload 
and expenses. The CFA provides fair compensation to the U.S taxpayer, 
while recognizing that cabin owners convey value to the land and 
location at their expense. Cabin owners must maintain the site; remove 
dangerous trees and non-native vegetation. They often provide and pay 
for utility infrastructure including power, water systems, septic and 
sewer systems that become attached to the land and benefit all users of 
the forests.
    Survey data, compiled by the National Forest Homeowners, indicates 
almost 35% of cabin owners will reach their affordability breakpoint in 
the current CUFFA appraisal cycle over the next few years. These cabin 
owners will attempt to sell their cabins when fees reach a level which 
is beyond what the cabin owner can afford, or is willing to pay for the 
benefit received. Some of the cabin owners may be able to sell their 
cabin to owners of greater means, while others won't be able to sell 
their cabin, at any price. When these folks can't sell, we estimate 10-
15% of cabins (upwards of 2,000) will have to be torn down and removed 
at the owner's expense. Under CUFFA, U.S. Treasury revenue will decline 
approximately 20-30% from the total potential fee revenue since it's 
the highest permit fees which will be lost, not the average fees. In 
addition to Federal Government fee revenue loss, local governments and 
communities will also suffer tax revenue loss, loss of tourism dollars, 
and other related economic benefits derived from cabin owners. Cabin 
losses will also reduce volunteer labor, including substantial 
involvement in youth programs and first responder services, forest 
stewardship, and infrastructure support provided by cabin owners.

The Cabin Fee Act
    This Act establishes an affordable User Fee, indexed annually, that 
provides predictable fee increases, while helping to maintain cabin 
value and not destroying the ability to sell the cabin if the current 
owner cannot, or chooses not to pay the fee. Instead of fees ranging 
from $125 to an astonishing $76,000 annually under CUFFA, annual User 
Fees under the CFA will range from $500 to $4,500 per year. The lowest 
tier of $500 is sufficient to cover the estimated cost to administrator 
this program, while the highest tier of $4,500 is supported by what the 
market will bear for premium cabin locations. The User Fee range was 
determined by balancing the rights and privileges that all permit 
holders share, regardless of location, while acknowledging that 
location does influence the value of the permitted use. This balance of 
common rights with differences for location yields a fee structure 
where the highest fee is nine times the lowest fee. This contrasts with 
fees under CUFFA where the highest fees are more than 100 times greater 
than the lowest fees.
    The Cabin Fee Act requires the assignment of each permitted lot to 
one of nine fee tiers, based on the rank order of current appraised 
values. The lowest 8% of appraised lot values are assigned to the $500 
tier. The highest 7% are assigned to the $4,500 tier. Following this 
process, User Fee revenue is projected to be about $32.5M when fully 
implemented, more than twice the $14M fee revenue collected in 2008 
from this program.
    User Fees are adjusted annually by a rolling average of the IPD-GDP 
index. This broadly-used Department of Commerce index provides for a 
reasonable, straightforward method for increasing fees annually, while 
ensuring that user fees keep pace with the market. The Transfer Fee is 
a $1,000 additional fee which is collected when a cabin changes 
ownership and a permit is issued to the new owner. Cabin marketability 
is not encumbered, because cabin owners will have full knowledge of the 
indexed annual User Fee and both a seller and buyer can factor the 
Transfer Fee into their negotiations at the time of sale.
    Cost estimates by the Congressional Budget Office (CBO) show CFA 
fee revenue will be equal to CUFFA fee revenue over a 10-year period 
(2013-2022). In addition, elimination of the appraisal process under 
CUFFA will save nearly $1 Million annually, allowing these resources to 
be put to better use by the Forest Service. The complexity and expense 
of the appraisal process will be replaced with a cost effective fee 
system and greatly simplified program administration.
    We can compare the CFA fee structure to the broader market of 
similar public and private cabin lease programs. A comprehensive study 
conducted for the NFH examined the market for cabin programs similar to 
the Forest Service Recreation Residence Program. The 11,000 cabins 
reviewed by the study validate the use of public forest lands for 
recreation residence purposes. While user fees vary by location, 
permit, and lease term considerations, the average user fee of 
approximately $1,000 was less than half the average fee of $2,250 under 
the Cabin Fee Act. We offer this as clear evidence that the proposed 
CFA fee structure provides a more than fair return to the U.S. 
Government and is supported by sound market principles.
    With predictable and affordable fees under the Cabin Fee Act, we 
expect all 14,000 current permits to remain active, keeping the Forest 
Service Program within reach of the typical American family. By 
contrast, while CUFFA is expected to provide similar total revenue over 
time, we project that unaffordable high fees and uncertainty will 
result in a decline in the number of permit holders under CUFFA to less 
than 12,000 over the next decade, thus reducing the typical American 
family's participation in the Program. This same pattern of permit loss 
is likely to be repeated in future appraisal cycles under CUFFA, 
further eroding the Recreation Residence Program and producing less 
revenue than the proposed CFA fee system over a longer period of time.
    The strength of the Cabin Fee Act is its simplicity. The simple and 
straightforward fee structure provides long-term predictability and 
affordability for the cabin program, as well as, significant 
administrative time and cost savings to the Forest Service. These cost 
savings allow for the redeployment of Forest Service resources away 
from managing appraisals, re-appraisals and permit fee appeals to a 
more productive delivery of programs and public services. The Cabin Fee 
Act provides a true win-win outcome for the cabin owner and the U.S. 
Forest Service.
    In summary, the Cabin Fee Act ensures the long-term viability of 
the Recreation Residence Program and produces cabin permit fees that:

          1) Are affordable as determined by the `cabin market';
          2) Are simple, understandable and predictable;
          3) Are revenue neutral, maintaining current revenues and fair 
        return to the U.S. taxpayer;
          4) Impose fees for actual benefits received;
          5) Maintain the ability to sell cabins.

Recommended Changes
    Cabin owner support for this bill was confirmed by a NFH survey 
which found that 95% of cabin owners were dissatisfied with the current 
CUFFA fee system and that 93% supported the CFA as a replacement. While 
this bill has broad support, recent discussion with the Forest Service 
has led us to support several changes to improve the bill further, 
which we feel confident can be addressed during the mark-up of the 
bill. They are:

    (1)Modification of the Transfer Fee--The bill calls for a fee of 
$1,000 to be paid when a cabin changes ownership and a permit is issued 
to the new owner, plus a surcharge of 5-10% of the cabin sale price if 
a cabin sells for an unusually high price. The intent of the surcharge 
is to discourage cabin owners from over improving cabins or buyers from 
paying a premium for choice locations, while collecting additional fees 
in these rare situations. Market surveys show only 3% of cabins sell 
each year and less than 7% of sales are for amounts that would trigger 
the transfer fee surcharge, so the total number of transactions subject 
to the surcharge is very small. Discussions with the Forest Service 
suggest the administrative burden placed on the Forest Service to 
implement this fee creates a greater problem than the problem this 
provision was intended to solve. The cabin owner's support removing the 
surcharge portion of this fee, while retaining the $1,000 fee.
    (2)Additional fee tier--To help mitigate a slight reduction of 
revenue from the transfer fee revision, as well as to ensure that user 
fees apply fairly to cabins with premium locations, the cabin owners 
support an additional fee tier of $5,000. Slight changes to the 
percentage of permits assigned to each tier will be necessary to re-
allocate permits across the full $500-$5,000 range, while maintaining a 
reasonable distribution which places most fees in middle tiers, with 
fewer placed in the lower or higher end of the range.
    (3)The cabin owners also seek several technical language changes--
required to clarify the intent of certain aspects of this bill, as well 
as, satisfy other concerns raised by the Forest Service. Of significant 
importance is language pertaining to the 25% cap on annual fee 
increases during the transition from current fees to assigned CFA fees 
that provide for fee amounts to be ``phased in'' for those facing 
higher fee increases.

Summary and Conclusions
    We appreciate the opportunity to present this testimony on behalf 
of the National Forest Homeowners, the C2 Cabin Coalition and nearly 
14,000 cabin owners throughout the nation. We believe the cabin program 
is not only an invaluable source of multi-generational family outdoor 
recreation but that it makes a significant contribution to the health 
of the national forests and the economic vitality of local gateway 
communities. Unfortunately, as a result of the appraisal based fee 
system imposed by CUFFA, many cabin owners are facing a dramatic 
escalation in their fees and this historic program is threatened and 
its many contributions are in jeopardy.
    The Cabin Fee Act will preserve a nearly century old, cherished 
program while continuing to provide a fair return to the Treasury. It 
is an equitable approach that balances the interests and needs of cabin 
owners with the public interest in obtaining a fair return on these 
public lands.
    We ask for your support to pass and enact into law the Cabin Fee 
Act of 2012 (S.1906).
    Thank You.

            Attachment.--Cabin Fee Act Questions and Answers

             NATIONAL FOREST HOMEOWNERS & CABIN COALITION 2

    Question 1. Aren't cabins on the National Forest a privileged use?
    Answer. Participation in the Recreation Residence Program is not 
restricted. Until recently, cabins have been bought and sold with 
regularity and the program has been broadly available to all interested 
people. Congress has recognized cabins by law as an appropriate and 
authorized recreational use since at least 1915 and as one among the 
many multiple uses of the National Forests. Most cabin owners are 
middle class and have small rustic cabins that are used as family 
gathering places where their children and grandchildren can experience 
and develop an appreciation for the outdoors and good forest 
stewardship. The Recreation Residence Program provides an opportunity 
for members of the public to have cabins on the National Forest, but 
excessive and inconsistent fees for this opportunity using the 
procedures under CUFFA are undermining the very purpose of the Program. 
CUFFA does nothing to further the availability of the Program to the 
general public or maintain the long-term public interest and general 
affordability.
    Question 2. If the fee determination system is changed for cabin 
owners won't other special use permit holders will want a change as 
well?
    Answer. The Recreation Residence Program is a unique private/public 
relationship that is not for profit. Other special use permittees, such 
as, ski resorts, grazing rights and utility companies are intended to 
profit from their uses. It makes little sense to equate such commercial 
uses with non-commercial uses of the Cabin Program.
    Question 3. CUFFA works fine, why are changes needed?
    Answer. More than 95% of cabin owner respondents to the 2009 NFH 
Cabin Sales and Appraisal Survey said that they were dissatisfied with 
the appraisal process under CUFFA.\1\ Even Forest Service field staff 
have recognized the concerns of cabin owners and suggested that we seek 
legislative change. Mr. James Sauser, USFS Region 6 Special Uses, has 
been quoted in news articles\2\ about the failures of the appraisal 
process, ``the appraisals are time consuming and result in fees that 
are either too high or too low''. Finally, the 10-year appraisal cycle 
can take more than five years to implement. In fact, due to Forest 
Service budget deficiencies, the process in Region 5 is expected to 
take nine years to complete\3\. Even those involved with the creation 
of CUFFA recognize it does not produce results that make sense.\4\ 
Change is needed!
---------------------------------------------------------------------------
    \1\ Sales Data and Appraisal Survey Report, NFH & Cabin Coalition 
2, November, 2009.
    \2\ The Seattle Times, Wednesday, September 9, 2009, Soaring Forest 
Service leases to drive families out of cabins they've had for 
generations.
    \3\ recreation Residence Assessment, Pacific Southwest Region, USDA 
Forest Service, June 10, 2009, Updated November 12, 2009, Pg. 9, First 
Paragraph.
    \4\ See Statement of Mary Clarke Ver Hoef, former National Forest 
Homeowners Board of Directors, now Executive Director.
---------------------------------------------------------------------------
    Question 4. CUFFA determines `market value' by appraisal. How does 
the CFA address `market value' concerns?
    Answer. CUFFA attempts to define `market value' within the 
appraisal process. However, the process compares the permitted cabin 
lots to fee simple ownership of land, effectively ignoring the negative 
restrictions imposed by the permit and its inherent risks. This 
approach results in an inflated `market price' for such a restricted 
use. The 5% fee factor, said by some to adjust appropriately for the 
restrictions, is much too high a factor. Simply changing the percentage 
will not produce fair results. A fee that is fair at the high end 
results in a low end fee that is too low. Conversely, a fee that is 
fair at the low end will result in a high fee that is unjust. It is all 
too common that the geographic proximity to resort areas unfairly 
results in high fees for modest cabin tracts. The Comparison of 
Recreational Land Lease\5\ study clearly demonstrates that the CFA 
produces above `average market revenues' for similar leased (or 
permitted) recreation land use and that CUFFA far exceeds `market' 
rates.
---------------------------------------------------------------------------
    \5\ Comparison of Recreational Land Leases, National Forest 
Homeowners, January 2010.
---------------------------------------------------------------------------
    Our ability to keep a cabin in place on public land is subject to 
the terms of a permit. We don't have any sort of leasehold or ownership 
interest in the underlying land, so we have no property interest and 
therefore a land value appraisal process is clearly inappropriate. The 
CFA establishes a fair market fee for our term special use permits now 
and into the future. The fee structure will maintain Program 
affordability for average Americans and ensure cabin marketability, 
while also providing the revenue due the U.S. taxpayer for the benefits 
received from the use of public lands. This will best help ensure the 
long-term viability of the Program.
    Question 5. Only a few appraisals are very high. Why change the 
appraisal system based on a few outliers?
    Answer. Current appraisal data show that over 20% of all fees are 
or will be $4,000 annually or higher. Survey data\6\ suggests $3,000 to 
$4,000 is the point where most cabin owners question the value and 
affordability of owning a cabin. This implies that at least 20% of all 
cabin owners are at or above their breakpoint under CUFFA. This large 
segment of cabin owners is simply not an outlier. This overly 
generalized statement is inaccurate given the current appraisal data. 
These comments ignore the continued expansion of excessive fees in 
future appraisal cycles and the associated negative impact on 
affordability for average Americans.
---------------------------------------------------------------------------
    \6\ `Breakpoint Data', from Sales Data and Appraisal Survey Report, 
NFH & Cabin Coalition 2, November, 2009.
---------------------------------------------------------------------------
    Question 6. Don't cabin owners reap a `windfall profit' when their 
cabins sell?
    Answer. The Forest Service (FS) has cited high cabin sales prices 
where the sale price appears to be beyond the value of the cabin 
structure. The FS contention is that the location (i.e., the land which 
is not owned by the seller) was the major contributor to the sales 
price, hence the `windfall'.
    These cases are few and far between, so establishing a fee setting 
mechanism using such outliers is unfair to other cabin owners. The 
Sales Data and Appraisal Survey Report states a projected average sales 
price for all respondents of $163,525\7\. Plus, the review of actual 
cabin sales from 2000 to 2009 revealed an average sales price of only 
$138,421\8\, with 92% of all sales under $250,000. We adopted the 
Transfer Fee provision to address this concern in the few cases that it 
occurs. More importantly, cabin owners contribute to land and location 
values at their expense. In complying with the terms of the permit, 
cabin owners are responsible for removing near-by diseased or hazard 
trees, plus noxious and non-native vegetation. Utility infrastructure, 
provided by the cabin owner, becomes part of the land, including water 
systems, septic systems and sewer capital expenses and hook-ups. Plus, 
on many forests, cabin owner purchased water rights are being required 
to name the U. S. government as the owner with no compensation for the 
cost involved.
---------------------------------------------------------------------------
    \7\ Sales Data and Appraisal Survey Report, NFH & Cabin Coalition 
2, November, 2009, Item #16.
    \8\ Sales Data and Appraisal Survey Report, NFH & Cabin Coalition 
2, November, 2009. Item #14.
---------------------------------------------------------------------------
    Furthermore, the location value contribution is minimal at the low 
and mid-range sale prices simply due to the cost of re-construction. 
The average 1,200 sq. ft. cabin built at a cost of $200.00/sq. ft. 
would be valued at $240,000. This acknowledges that many cabins are 
historic, rustic and include unique interiors. Supplies and contract 
labor must travel long distances and/or by unusual means (water or pack 
animal) to remote sites, substantially adding to the cost. No new cabin 
sites are being added to the Program, creating a scarcity that also 
artificially adds to the value of the cabins. This illustrates that 
there are a lot of factors that should be considered before the charge 
is made that cabin owners are reaping a `windfall profit'.
    When researching this issue, we identified a second reason cabins 
may sell for an unusually high price, that is where a cabin owner may 
have ``over improved'' a cabin. Adding on, or building a cabin which is 
significantly larger and utilizes superior materials compared to the 
typical cabin is out of character with the rustic cabin in the woods 
generally associated with this program. While this is the rare 
exception, it provides a deterrent to discourage cabin owners from over 
improving cabins.
    Question 7. Isn't it only the wealthy cabin owners that have high 
fees under CUFFA?
    Answer. This is an inaccurate and unfair characterization. The vast 
majority of cabin owners are middle class.\9\ Survey data\10\ confirms 
that there are many cabin owners with CUFFA fees starting at $5,000 and 
higher, who are not wealthy and very much fit the picture of average 
Americans. This mischaracterization diverts the discussion away from 
the real issue, which is the extreme variation in fees under CUFFA from 
$125-$76,000 for a recreation residence's restricted use of public 
lands. An individual's financial status or `ability to pay' should not 
be the litmus test for determining a fair fee for a use.
---------------------------------------------------------------------------
    \9\ 2009 NFH Economic Impact Survey final Report.
    \10\ Sales Data and Appraisal Survey Results, Item 9, November, 
2009.
---------------------------------------------------------------------------
    Question 8. How many cabin owners are very upset over CUFFA 
appraisals? Isn't it just a relatively small minority?
    Answer. No, it is not a small minority. In fact, a recently 
completed survey found that 95.3% of participating cabin owners were 
dissatisfied with the current appraisal process under CUFFA and that 
92.7% supported the User Fee / Transfer Fee proposal that is contained 
in the Cabin Fee Act (CFA).\11\
---------------------------------------------------------------------------
    \11\ Sales Data and Appraisal Survey Results, Item 9, November, 
2009.
---------------------------------------------------------------------------
    Question 9. Isn't the average cabin permit fee under CUFFA actually 
quite reasonable ($2,500-$3,000) in view of the special privilege of 
having a cabin on a magnificent national forest?
    Answer. Looking at an average fee confuses the overall issue. Under 
the current system, some fees are so low that they certainly fail to 
cover the costs to administer the Program. Some fees are so high that 
all cabin value is lost. In some states, for example, some are paying 
less than $500 while in other regions those with very similar amenities 
are paying over $6,000. Most cabin owners seriously consider selling 
their cabin (or even abandoning it) when their annual fee exceeds 
$3,000 to $4,000.\12\ This is true particularly when use is limited by 
weather to three or four months a year. Many cabins become accessible 
only after July 4th and heavy snow can fly in September. Also, many 
cabins on lakes with dams face serious drawdown beginning in September 
resulting in a less desirable location and loss of access when it is by 
water only. Furthermore, the Forest Service provides no services or 
amenities and the cabin owner must provide his or her own structures 
and improvements, pay state and county taxes, in addition to the permit 
fee, and provide for his or her own maintenance and security. Please 
refer to the `Comparison of Recreational Home Site Leases' for a more 
complete evaluation of average `lease' fees on public and private 
lands.\13\ Finally, the results from the current appraisals thus far 
show a vast range of fees based upon location that has no relationship 
with the cabin's use of the forest.
---------------------------------------------------------------------------
    \12\ Sales Data and Appraisal Survey Results, Item 8, November, 
2009.
    \13\ Comparison of Recreational Home Leases, National Forest 
Homeowners, Jan. 2010.
---------------------------------------------------------------------------
    Question 10. Do cabin owners know what they really want?
    Answer. Yes, cabin owners want to keep their cabins. They want to 
keep them affordable for their family using a fee determination method 
that is simple, understandable and relatively predictable. Through 
numerous communications and meetings, NFH and Cabin Coalition 2 have 
engaged, informed and polled cabin owners from across the United 
States. 92% support the Cabin Fee Act as the replacement for CUFFA.
    Question 11. Cabin Owners supported CUFFA, so why did they wait so 
long to object?
    Answer. Yes, CUFFA was supported. But what was supported and the 
end result were not the same. Key language was dropped from the final 
legislation under the premise that its purpose was addressed elsewhere. 
When adjustments for the permit restrictions were removed from inside 
the appraisal process itself, the ``Fee Fairness'' of the 2000 CUFFA 
legislation was gutted. A FS report published in July 2009 confirmed, 
``It is worthy of note that CUFFA, as drafted at the time of the 
hearings, included detailed language requiring significant adjustments 
in the appraisal process for permit restrictions as well as directing 
the appraiser as to appropriate weight to be placed on comparable 
sales.''\14\ (Emphasis added).
---------------------------------------------------------------------------
    \14\ Pacific Northwest Region Briefing Paper ``Cabin Users Fee 
Fairness Act of 2000 (CUFFA)'', July 17, 2009, pg. 5 last paragraph.
---------------------------------------------------------------------------
    The concept that a fee simple value can be made equivalent to the 
value received in a special use permit, without the consideration of 
the many and varied use restrictions is clearly false. The restrictions 
have never been part of the appraisal and we continue to hear that the 
5% factor adjusts for all the restrictions. Full adjustment for the 
fair market value of all the restrictions is what we sought in 2000. 
But, this is not what resulted. The long delay in implementing the 
Rules and Regulations meant that appraisals did not begin until 2007, 
at which time it became very clear that the CUFFA 2000 legislation was 
seriously flawed. It subsequently produced a range of annual fees from 
$125 to $76,000, an extreme range that is difficult to comprehend let 
alone justify. In fact, Congress, the Forest Service and the cabin 
community failed to understand fully the ultimate impact of the 
legislation (as passed) until it was applied on the ground. The primary 
sponsor of the CUFFA Bill, Senator Larry Craig, reaffirmed that the 
intent of CUFFA was to include all permit restrictions and limitations 
in the CUFFA appraisal process in his letter to Undersecretary Mark Rey 
on July 2, 2008.\15\
---------------------------------------------------------------------------
    \15\ Senator Craig letter to Undersecretary Mark Rey, July 8, 2008.
---------------------------------------------------------------------------
    Question 12. How many cabin owners truly want and would support 
this sweeping change? How can Congress be confident that cabin owners 
will be satisfied?
    Answer. As with any change there will inevitably be some who will 
not be satisfied; however, without change we believe the long-term 
viability of the Cabin Program is threatened. With that said, an 
overwhelming majority of cabin owners surveyed, more than 95%\16\, want 
to see a change from the appraisal process. We have reviewed and 
considered all suggestions for changing the fee methodology. Eight 
cabin organizations and our sharpest minds have been engaged in an 
intensive review and formulation process. Professional, legal and 
appraisal consultation has informed the development of the User Fee / 
Transfer Fee proposal. Plus, cabin owner ``Think Tanks'' in several 
geographical areas have also reviewed and commented on the work. The 
result is solid support from cabin owners across the country for Cabin 
Fee Act of 2011.
---------------------------------------------------------------------------
    \16\ Sales Data andAppraisal Survey Results, Item 9, November, 
2009.
---------------------------------------------------------------------------
    Question 13. This fee proposal is too complicated. Won't it be just 
as hard to administer as CUFFA?
    Answer. On the contrary, once fee tiers and transfer fee percentage 
thresholds are set, the implementation and administration of this 
system is easy and predictable and provides fee certainty into the 
future. In addition, this process saves the substantial costs in time 
and money that are spent on the appraisals. The current appraisal 
process may seem simple conceptually, but we clearly see now that `the 
devil's in the details'. The appraisal process is very subjective, 
often requiring repeat appraisals. It is time consuming and expensive 
to implement and administer for both Forest Service and cabin community 
personnel alike. An excellent example of how complex this process can 
be has been demonstrated on the cabin tract at Lake Wenatchee, WA.\17\
---------------------------------------------------------------------------
    \17\ Plampgam-Wenatchee N.F. Orders New Appraisal For Recreation 
Residence Fees, USDA Forest Service, News Release, Jan. 29, 2010.
---------------------------------------------------------------------------
    Question 14. What is the purpose of the fee tiers anyhow?
    Answer. The fee ranges were determined by balancing the permitted 
rights and privileges, which all permit holders share, with the 
recognition that location and associated amenities influence the value 
of the permitted use. The proposed CFA places the vast majority of 
annual user fees in the $1,000 to $3,000 range, which we believe 
represents the fair value of the permitted use.\18\ Fewer permits are 
assigned to the $500 and $4,500 tiers, which recognize the lower and 
higher end outliers. In developing the proposal, long-term 
predictability was a key component, as was an affordable annual fee. 
The CFA provides for affordable, predictable fees going forward, unlike 
the current appraisal methodology which could have dire impact every 
ten years. Annual fee affordability helps maintain the marketability of 
cabins. Predictable fees and marketability of cabins will help ensure 
the long-term viability of the Program, which has been the focus of 
cabin owner leadership during development.
---------------------------------------------------------------------------
    \18\ Comparison of Recreational Home Leases, Jan. 2010. See average 
fees comparison.
---------------------------------------------------------------------------
    Question 15. Why should one pay a transfer fee for an intra-family 
transfer or opening of a trust?
    Answer. In both these cases there is a transfer of value to another 
party (a family member or a trustee). To charge no fee under these 
circumstances would be to create a special and privileged group. The 
CFA applies a $1,000 transfer fee to all transfers, including when 
little or no money changes hands.
    Question 16. What will be the fiscal impact of the Cabin Fee Act 
over the next 5-10 years? Will it generate net revenue comparable to 
that projected from CUFFA appraisals?
    Answer. The Congressional Budget Office (CBO) has formally assessed 
the CFA bill in the U.S. House of Representative (H.R.3397) and 
informally reviewed Senate CFA Bill (S.1906). The CBO found the Senate 
CFA Bill will at least equal the future fees collected by the Forest 
Service under CUFFA. Net revenue neutrality will be maintained 
currently and over the long-term, because the projected CUFFA revenues 
are overstated. Cabins will be abandoned under CUFFA when the owner 
can't afford the high fee and also can't sell because of the high fee. 
This impacts net revenues under CUFFA, which will diminish over time, 
due to the gradual abandonment of cabins nationwide. Over a longer 
period of time, we believe the CFA will turn revenue positive for the 
U.S. Taxpayer by retaining all 14,200 cabins in the Cabin Program.
    Question 17. Isn't it risky to change from a familiar appraisal 
process, however flawed, to a new, untried system? How can we be sure 
it will not be worse than the status quo?
    Answer. There is a risk in any change we make in our lives. The 
simplicity of the Cabin Fee Act virtually guarantees stable and 
predictable fees for cabin owners and reliable revenues for the Forest 
Service and US taxpayer. It ensures lower administrative costs to the 
FS, reduces risk of unknown future financial events and provides 
certainty for all parties. There may be some administrative issues that 
must be addressed. That is why we have been trying to engage the Forest 
Service in meaningful discussions about issues relating to 
administration. Finally, for cabin owners across America, the status 
quo is not acceptable\19\ and it should be a concern for the Forest 
Service, as administrators of the Cabin Program for the public. High 
annual permit fees will result in the eventual loss in revenue as fee 
payments decline and cabins are removed from the National Forest.
---------------------------------------------------------------------------
    \19\ Sales Data and Appraisal Survey Results, Item 9, November, 
2009.
---------------------------------------------------------------------------
    Question 18. Wouldn't the CFA just replace the current set of 
unhappy cabin owners with two new sets (those who would have to pay 
more and those who would pay a fee upon sale of the cabin)?
    Answer. The User Fee/Transfer Fee proposal that the CFA embodies 
has been vetted nationwide and there have been relatively few 
complaints regarding the above concerns. If our proposal were enacted 
in its entirety, less than 20% of the permit fees would be subject to a 
minor increase. Does an increase from $250 to $500 seem unfair? We 
agree with the Forest Service that the $500 dollar first tier fee is 
the minimum required to administer the Program effectively. We believe 
the federal government should at least be compensated at this minimum 
level for their costs to run the Program, which include costs 
associated with issuing a new permit upon cabin sale.
    Question 19. Have other alternative appraisal approaches been 
considered? Wouldn't it be better than the User Fee/Transfer Fee 
mechanism?
    Answer. Many alternatives have been explored. Other approaches fail 
to provide simplicity, predictability, cost savings and revenue 
neutrality that the User Fee/Transfer Fee model offers.
    Question 20. Are there other ways to reduce costs to the Forest?
    Answer. Yes, greater responsibility by cabin tracts for self-
inspections for compliance, work certifications, clearing land, trail 
and road maintenance could be considered and it should be noted that 
many of these commonly occur. In addition, elimination of the appraisal 
process under CUFFA will save nearly $1 Million annually, allowing 
these resources to be put to better use by the Forest Service. The 
complexity and expense of the appraisal process will be replaced with a 
cost effective fee system and greatly simplified program 
administration.

    Senator Wyden. Very good. I'm going to let my colleagues 
ask questions first.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. Gann, I just want to make sure I got this right. If the 
bill is not passed and the Forest Service reverts to the last 
authorizing legislation, how many cabin owners did you say you 
believe will lose their cabins?
    Mr. Gann. Approximately 35 percent will be forced or 
attempt to sell their cabins. We estimate 10 to 15 percent will 
be permanently lost.
    Senator Barrasso. Thank you.
    Mr. Magagna, thanks so much for being here. I appreciate 
it. I know you've been very busy with the Wyoming legislature. 
It's good to spend time with you and the Wyoming Stock Growers 
there. I very much appreciated your testimony here today.
    Your testimony to me clearly explains why long term 
stability is needed, not just for grazing permit holders, but 
for rural economies, for wildlife as well as for public access. 
So I was wondering that since the passage of the Taylor Grazing 
Act, BLM permits have typically been issued for a term of 10 
years. Why are 20-year permit terms needed now?
    Mr. Magagna. As the Senate realized, I would say that 
there--from the industry's perspective as other uncertainties 
have been introduced into our business, we would benefit from 
at least having from greater certainty there. But let me 
emphasize, more importantly, I think it takes me back to the 
science of range management. As we've learned how these 
ecosystems function, how we can change them to meet whatever 
objectives may be.
    Those are long term approaches. They involve ongoing 
monitoring of the rangelands. A 10-year permit does not provide 
the certainty to institute the types of rangeland and livestock 
management practices that will allow us to make those changes.
    Senator Barrasso. Yes, I think you used the word certainty 
in there. Is the marketability of public land dependent ranches 
affected by the uncertainties surrounding permit renewal.
    Mr. Magagna. Senator, very much so. I can just look at our 
own State of Wyoming. The ease with which a ranch in Eastern 
Wyoming that's primarily private and state lands can be put on 
the market and sold today.
    In Western Wyoming where they're primarily public land 
ranchers they can't. Ranchers continually tell me I would like 
to sell my public land ranch if I could acquire a comfortable 
private land ranch.
    Senator Barrasso. You alluded to in the beginning you had 
spent time with BLM land as well as Forest Service land in your 
long career. Tell me about you own experience with the Forest 
Service and with BLM appeal processes, if you wouldn't mind?
    Mr. Magagna. Senator Barrasso, I've not had personal 
experience as a rancher. I've never had to appeal any decisions 
that they've rendered. But in my capacity with Wyoming Stock 
Growers I've been involved in a number of those appeals and 
particularly in the case of the Forest Service it's been a 
sense of frustration.
    Numbers that I've seen indicate that in 85 percent of the 
cases the line officer, who is the supervisor of the original 
decisionmaker, simply affirms those decisions. Until you 
finally go to the judicial system our permitees feel like they 
don't really have an avenue to get a fair hearing under the 
current Forest Service process.
    Senator Barrasso. You know, Congress recently passed an 
amendment to the budget bill to address the need for 
environmental analysis on trailing permits. Has that addressed 
your concerns?
    Mr. Magagna. Senator, I was very pleased to hear today from 
the BLM that apparently their local decisionmaker managers are 
to be given discretion to exercise that. Our concern was that 
while the language passed by Congress clearly exempted those 
training permits from litigation, it didn't necessarily exempt 
them from NEPA analysis. Apparently that discretion will be 
provided, if I understood correctly. I believe that has the 
potential at least to address that problem and address it in a 
timely fashion.
    Senator Barrasso. I have a question about fragmentation. I 
think about grazing permits when they're lost. Could you 
explain what happens to wildlife to open space and to public 
access as a result of that kind of fragmentation?
    Mr. Magagna. Certainly, Senator. It goes back to the 
concept of watersheds or ecosystems. The land pattern in the 
West is a mixed one. When the public lands are lost the 
livestock grazing in many, many cases the private lands 
associated with those do not lend themselves to being viable 
economic ranching operations.
    The attractive alternative today is rural subdivisions 
which is a loss of--it causes fragmentation. It causes loss of 
wildlife habitat. It really diminishes the public value of the 
public lands when the associated private lands are developed.
    Senator Barrasso. So would you explain a little bit about 
how a longer grazing permit term will help provide ranch owners 
a stable business environment? Help them obtain the needed long 
term operating capital?
    Mr. Magagna. Certainly, you know, the banking community is 
reluctant, quite frankly, to make loans that are tied to an 
operation with the public land grazing permits because of the 
uncertainty of those permits. Another very good example, our 
association also manages a land trust to put land into 
conservation and protect it. What our experience has been that 
our public land ranchers are very reluctant to put their lands 
into a perpetual conservation easement because of the 
uncertainty associated with the public land grazing permit.
    If they had greater certainty, they would do that. Without 
that, they said, but if I lose my grazing permit next year or 
in 10 years, I'm going to be forced to subdivide and develop 
those lands. So I'm not going to provide the permanent 
protection that they would like to provide that I think all of 
us as citizens would like to see provided on those lands.
    Senator Barrasso. Yes, Senator Baucus was here a little 
earlier and he talked about Montana ranchers. I think, I want 
to make sure I have him accurately quoted here. He said, 
``Ranchers don't want to be jacked around.''
    Does that--do you think that is fair assessment of what you 
see in Wyoming as well, Mr. Magagna, from your----
    Mr. Magagna. He is more brilliant with those words than I 
would have been, Senator.
    Senator Barrasso. Thank you. Thank you very much, Mr. 
Magagna.
    A question for Mr. Kerr, in your article, ``Don't try to 
improve grazing, abolish it!'' You state, ``What should the 
environmentalist strategy be?'' You said, ``We must fight a war 
of attrition. We must pick our battle and our battlegrounds. 
Our battle must be no grazing. Our best battlefield is in the 
courts, not the Congress and the Administration, either in the 
White House or the Agencies.''
    To me this seems like an extreme position. It is why rural 
grazing and timber communities are suffering. I want to just 
clarify for members of this committee that your preference is 
to completely eliminate grazing on public lands. Is that 
correct? Yes or no?
    Yes, is it a--my time is expired, a yes or no question?
    Mr. Kerr. That is not conducive to a yes or no question. I 
will answer later then if you're going to limit me to yes or 
no. Thank you.
    Senator Barrasso. Thank you. I'll ask for writing, your 
answer in writing.
    Mr. Kerr. I'd be happy to answer that in writing.*
---------------------------------------------------------------------------
    * Answers are found in the Appendix.
---------------------------------------------------------------------------
    Senator Wyden. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Gann, thank you so much for being here today. I had a 
couple questions about your testimony.
    Mr. Gann. Yes.
    Senator Cantwell. Do you--first of all, do you believe in 
this market based rate concept in general? Do you think that 
that's the way? I know it's part of our Federal system today to 
say it should be market based rates and then it wasn't really 
implemented until fairly recently.
    But do you think that's the right model for this?
    Mr. Gann. So if you look at the current system and while 
CUFFA was--became statute in 2000. It substantially did not 
change the practice that had been in place for the last 40 to 
50 years. So the current appraisal system has not worked for 
the last 40 or 50 years.
    CUFFA was an attempt, the last attempt to make it to work. 
It's failed. In simple terms, it does not produce a market 
based user fee.
    If fees are driven beyond the point where any consumer will 
pay it, by definition it's not a market fee.
    Senator Cantwell. But you think the payment structure 
should be based on market rate? Is that right?
    Mr. Gann. I think if you look at the proposed CFA fee, it 
is based on the market, but the market is defined as other 
recreation programs in the public domain and what they charge. 
The proposed CFA suggests that that, the proposed fees, are 
actually a little higher than ``the market.'' But ``the 
market'' is challenging to define and challenging to 
administer.
    Senator Cantwell. OK. If we implemented what you're talking 
about where do you think it would be in 10 or 15 years?
    Mr. Gann. You would see a steady increase of fees based on 
the department of current index which essentially means, user 
fees go up at the rate of inflation, at the rate of cost of all 
goods and services year by year.
    Senator Cantwell. So you're----
    Mr. Gann. So over a long period of time it will maintain 
market value over a long period of time.
    Senator Cantwell. So the fees wouldn't be flat?
    Mr. Gann. The fees would go up every year with the index. 
If you look at the last 25 years that was two to two and a half 
percent a year.
    Senator Cantwell. OK.
    Mr. Gann. So over a longer period of time it continues to 
go up.
    Senator Cantwell. OK. So you're supporting legislation with 
the changes outlined.
    Mr. Gann. Yes. Yes, we've had a significant dialog with the 
Forest Service recently. They've raised several concerns that 
we have tried to work with them to address. We believe we're on 
the same page in terms of the needed changes.
    Senator Cantwell. OK. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Cantwell.
    Just a few additional questions.
    Mr. Strahan, you mentioned an economic study in your 
testimony. You have heard me refer a number of times this 
afternoon to, kind of, the economic value of the treasures, the 
economic value of the river. What can you tell us in terms of, 
kind of, flushing out what you all have found in terms of the 
economic benefits as a result of this legislation for 
businesses in your area?
    Mr. Strahan. In 2000, excuse me, in 2008 Econ Northwest 
conducted a study of the economics of the Wild Rogue section. 
They determined that just within this section that's being 
addressed in your bill has brought to us over $18 million in 
economic benefits in Southern Oregon as well as 300 plus, full- 
and part-time jobs. Then one extrapolates that and looks 
further up river, which is also a Wild and Scenic River 
designation, but it's managed differently under the BLM, we 
found that there was a $30 million economic input to our region 
there and across the State of Oregon.
    So clearly the Wild and Scenic and Wilderness designation 
has been paramount in the economics of Southern Oregon.
    Then the neat thing that we need to remember about these 
sorts of--this sort of legislation and these sorts of resources 
is that these fish bring jobs wherever they go. As a territory 
salesman of sporting goods, I've witnessed, since 1975, the 
impact on the Southern Oregon coast. We're talking Brookings, 
Gold Beach, Coos Bay. Our Rogue River fish provide ocean 
fisheries in that manner as well as when they migrate upstream.
    We have a recreation income coming from Gold Beach, Grants 
Pass, Gold Hill, Rogue River, Medford, Oregon. Besides the 
direct impact to my industry and to what we do, we have 
restaurants. We have convenience stores. We have gas stations. 
It's just a very large encompassing economic benefit to the 
region.
    Senator Wyden. Alright.
    Let me ask you, Mr. Kerr, with respect to--excuse me. Yes, 
Mr. Kerr, if a grazing permit renewal or transfer doesn't 
change the use or management of the land what is, in your view, 
the implications of a categorical exclusion from NEPA?
    Mr. Kerr. I think it's complicated by--I think the argument 
is that it's merely administerial. I can't make a strong 
argument to that. I do know that there is a, as was stated 
earlier by the BLM, quite a backlog. I know the Forest Service 
doesn't have a backlog.
    So we want the agency to do their job, take a hard look and 
evaluate these permits. If there's an opportunity arises to--
that the agency should take to do that, we want to have them do 
that. You know, it's better to get the agencies adequate 
resources to do these permit renewals in a methodical and 
thoughtful manner. But I think the language regarding a 
categorical exclusion would be applied much broader than the 
particular circumstance that you're asking about.
    Senator Wyden. Alright.
    Mr. Crary, one question for you. With respect to S. 1774, 
what is your assessment of this legislation with respect to 
grazing operations?
    Mr. Crary. As far as it would impact this would have? Is 
that?
    Senator Wyden. Yes, yes. How your folks see it?
    Mr. Crary. The permitees?
    Senator Wyden. Yes.
    Mr. Crary. How do they see it?
    Senator Wyden. Yes.
    Mr. Crary. Most of them are not in favor of it. But when 
asked they'd have to say just because. As far as being able to 
point to any specific reason that this would jeopardize their 
permit in any way they're really not able to.
    Senator Wyden. Gentlemen, would you all like to add 
anything? It's been a long afternoon and you all have been 
patient. I always like to give our witnesses the last word.
    I'm struck by, as I listened to my colleagues ask 
questions. It's not only is there a sense of protecting these 
special places. It's recognizing that there's economic benefit.
    You've heard Senators say again and again they're looking 
at the kind of work and the kind of effort that goes into 
these. A bill that is going to be sustained with popular 
support, you know, in the West doesn't happen by osmosis. I 
mean, these are issues that can get people polarized and off in 
separate corners pretty darn quickly.
    What you all have shown in a lot of these issues that we've 
dealt with and it's sort of a common, common theme is an 
ability to get beyond that. That, in my view, is making policy 
in the West at its best.
    We thank you for your patience. We're going to have 
certainly additional areas we're going to have to follow up on, 
the agencies in a number of instances, desire some 
modifications. But I'm looking forward to working with all of 
you and my colleagues.
    This committee does its work in a bipartisan basis. I think 
we can move forward expeditiously on today's agenda.
    Do any of you have any last words that you'd like to offer 
up?
    Mr. Gann. Mr. Chairman, I'd just like to thank you for 
holding this hearing. You are correct that our organization has 
worked very closely with the stakeholders, Forest Service as 
well as certain Members of Congress to really, thoroughly, vet 
this new fee system. It's really designed to last.
    This is the second time in a decade we're back here 
promoting a new fee system. We assure you that this is one 
designed to last for decades and decades to come. Thank you.
    Senator Wyden. The end is in sight on this topic.
    Mr. Gann. Yes. Thank you.
    Senator Wyden. Alright.
    Mr. Strahan, I understand you'd like to say something.
    Mr. Strahan. Yes, sir. Thank you for the opportunity.
    Senator Wyden. Only fitting that Oregon have the last word.
    [Laughter.]
    Mr. Strahan. I try too.
    Senator Wyden. Go ahead.
    Mr. Strahan. Anyway, just to kind of play up on what you 
were saying in terms of collaboration of negotiation. I wanted 
to point out that this particular bill is not being opposed by 
the American Federal or--excuse me, the American Forest 
Resource Council to an unprecedented negotiation with 
conservation. They have agreed not to oppose this.
    I think it plays into the importance of a diverse economy. 
We can't have a timber industry and we can't have a recreation 
industry. I think we'd all agree that a diverse economy creates 
a stable economy and I'd just like to leave you with that 
thought.
    Thank you once again for the opportunity.
    Senator Wyden. We thank all of you.
    Mr. Recorder, let's make Senator Lee's statement a part of 
the record as well.
    Mr. Kerr. Senator Wyden, may I say something?
    Senator Wyden. Mr. Kerr, please.
    Mr. Kerr. I would note, it did occur to me that I am the 
only public witness in opposition to any of the bills on the 
list today. I think it's indicative of the nature of S. 1129. 
It was not developed collaboratively. We were not consulted. 
The livestock industry did not reach out to us in any way.
    That compares greatly to the other bills that are being 
heard today. Also as your bill compared to what happened with 
the Oregon Eastside Forest bill that you have done so much work 
on. You know, I think it's the difference of approach. So that 
puts us in opposition today.
    We offer an alternative of voluntary grazing permit 
retirement that we think is a better way. You know, perhaps the 
conservation community will be consulted by the livestock 
industry on this and something could be worked out. But we 
haven't been so far.
    Senator Wyden. But just to finish that last thought, Mr. 
Recorder, let's make Senator Lee's statement a part of the 
record.
    Just on your point, you know, Mr. Kerr, and I've worked 
very collaboratively with Senator Barrasso over the years. Of 
course, worked with you on a number of instances, so let's see 
what we can do to find some common ground here. There may be 
more to work----
    Mr. Kerr. We'd appreciate that, Senator.
    Senator Wyden. There may be more to work with than meets 
the eye. Two people that I've enjoyed working with over the 
years, Senator Barrasso and yourself, and of course, you played 
an absolutely key role in putting together the Eastside bill in 
Oregon and certainly in our state. When it comes to natural 
resources policy people will long remember that John Shelk, one 
of our most distinguished timber men over the years said he 
never could conceive of working with you on anything, let alone 
agreeing with you on anything.
    Of course that's what you were able to do on the Eastside 
bill. As has been noted before in this subcommittee, that even 
before we've gotten that bill enacted into law the trust that 
has been developed between the timber industry and 
environmental folks has led the agencies to actually start 
living under that approach even before it is formally enacted 
into law. So I think that's an important note to wrap up with.
    I intend to work closely with Senator Barrasso and you and 
other interested parties to try to find some common ground.
    So with that the subcommittee is adjourned.
    [Whereupon, at 4:17 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                       WildEarth Guardians,
                                                    March 31, 2012.
Hon. Ron Wyden,
Chair, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senators Wyden and Barrasso:
    This letter follows up on my testimony before the subcommittee on 
Thursday, March 22, 2012. I request that it be included in the official 
hearing record.
    I wish to address two issues.

    Question 1. Livestock Grazing Damages Public Lands and Resources.
    Answer. As I noted in my testimony, livestock grazing on federal 
public lands is not benign, but rather causes serious ecological and 
hydrological damage to western lands and watersheds. Following is a 
summary from the report by WildEarth Guardians (2009) entitled 
``Western Wildlife Under Hoof: Public Lands Grazing Threatens Iconic 
Species.''

          Livestock have done more damage to the Earth than the 
        chainsaw and bulldozer combined. Not only have livestock been 
        around longer than developers, miners, and loggers, but they 
        have grazed nearly everywhere. On public land across the West, 
        millions of non-native livestock (including cattle, sheep, 
        goats and horses) remove and trample vegetation, damage soil, 
        spread invasive weeds, despoil water, deprive native wildlife 
        of forage and shelter, accelerate desertification and even 
        contribute to global warming. Former Secretary of the Interior 
        Bruce Babbitt has written that federal public lands livestock 
        grazing ``is the most damaging use of public land.''
          Livestock grazing has had a profound effect on arid 
        landscapes in the West. Archeological and palynological 
        (pollen, spores) evidence indicates that the introduction of 
        domestic livestock has had a greater impact on the Great Basin 
        than any event in the previous 1,000 years. More than 99 
        percent of remaining sagebrush steppe has been affected by 
        livestock and approximately 30 percent has been heavily grazed. 
        Research in southeastern Arizona has similarly found that 
        grazing has probably had greater effect on the vegetation, 
        soil, fire ecology, and the spread of nonnative weeds than any 
        other land use in the region. Ubiquitous, constant grazing is 
        deemed the most potent cause of desertification in the United 
        States.
          The impacts from grazing are even more apparent in riparian 
        areas. Western streams were historically viewed by the 
        livestock industry and managed by the federal government as 
        ``sacrifice areas`` for domestic livestock. Decades of heavy 
        grazing in riparian zones has cost western ecosystems 
        generations of willows and cottonwoods, eliminated American 
        beaver from much of the landscape, burdened hydrological 
        systems with millions of tons of sediment, and significantly 
        reduced fish and other wildlife to a fraction of their historic 
        range. Further, nearly all surface waters in the West have been 
        fouled with livestock waste that produce harmful waterborne 
        bacteria and protozoa such as Giardia. [citations omitted]

    Omitted citations in the above quotation may be found among the 73 
references in the report, most of which are of government reports or 
peer-reviewed scientific articles. The entire report may be downloaded 
at:

    http://www.wildearthguardians.org/support_docs/report-WWUH-4-
09_lowres.pdf.

    Question 2. Answering Senator Barrasso's Question Regarding My 
Position on Public Lands Grazing.
    Answer. In a question to me, Senator Barrasso insisted that I 
answer--with a mere ``yes'' or ``no''--whether it was my ``preference 
is to completely eliminate grazing on public lands.`` I refused to 
answer under such terms, but I did offer to submit a more informative 
answer for the record. He had made reference to an article I wrote for 
High Country News in 1994 entitled ``Don't Try to Improve Grazing; 
Abolish It!'' I have included the entire article below.* At the time I 
wrote the article I worked for Oregon Wild (then known as Oregon 
Natural Resources Council) and had no relationship with WildEarth 
Guardians.
---------------------------------------------------------------------------
    * Article has been retained in subcommittee files.
---------------------------------------------------------------------------
    I favor the end of abusive livestock grazing on public lands. The 
evidence is voluminous and compelling that grazing harms species, 
ecosystems, and watersheds (see above). Livestock grazing also 
conflicts with most forms of recreation. Approximately 2 percent of the 
nation's livestock feed comes from federal public lands. This miniscule 
amount of forage could easily be made up through increased production 
on private grasslands. I also object to the federal government 
subsidizing livestock grazing on federal public lands by spending many 
times more than it receives in grazing fees.\1\
---------------------------------------------------------------------------
    \1\ See Government Accountability Office. 2005. Livestock Grazing: 
Federal Expenditures and Receipts Vary, Depending on the Agency and the 
Purpose of the Fee Charged. GAO-05-869. Government Accountability 
Office. Washington, DC.
---------------------------------------------------------------------------
    Both my beliefs and actions have evolved on public lands grazing in 
the nearly two decades since I wrote the article the Senator Barrasso 
quoted. In that time, I have:

  <bullet> Worked with Senator Wyden to enact the Steens Mountain 
        Cooperative Management and Protection Act of 2000, which 
        established-with the consent of local grazing permittees-the 
        first legislatively designated livestock-free wilderness in the 
        United States, covering approximately 100,000 acres.
  <bullet> Worked with Senator Wyden to enact legislation to facilitate 
        voluntary federal grazing permit retirement for grazing 
        allotments in and near the Cascade-Siskiyou National Monument, 
        with the support of affected grazing permittees.
  <bullet> Advised conservation organizations on a voluntary grazing 
        permit retirement provision that was included in legislation 
        that designated new wilderness in Idaho's Owyhee canyonlands. 
        Local grazing permittees agreed to the inclusion of the 
        provision.

    I am currently working with Senator Wyden to enact the Oregon Caves 
Revitalization Act, which includes a voluntary grazing permit 
retirement provision, which is supported by the affected grazing 
permittee.
    When I reread the article that Senator Barrasso quoted, I 
discovered that:

  <bullet> I called for compensating grazing permittees who lost their 
        grazing privileges on public lands. I began advocating for 
        compensating ranchers in 1994 when even the conservation 
        community objected to the concept. Now, in 2012, voluntary 
        federal grazing permit retirement has become the preferred 
        method for equitably resolving livestock grazing conflicts on 
        the nation's public lands.
  <bullet> Some of my ideas in 1994 were good ones, while others were 
        not.
  <bullet> My position on public lands grazing has evolved.
  <bullet> I misattributed the quote ``You can get more with a kind 
        word and a gun than just with a kind word'' to Che Guevara. In 
        fact, I later learned it was the character ``Al Capone'' 
        (played by Robert De Niro) in a television episode of The 
        Untouchables.
    Thank you for the opportunity to testify before the subcommittee.
            Sincerely,
                                                 Andy Kerr,
                                                           Advisor.
                                 ______
                                 
   Responses of Leslie A.C. Weldon to Questions From Senator Barrasso

    Question 1. In your testimony you said the Forest Service doesn't 
track payments made under the Equal Access to Justice Act or other fee 
shifting statutes. Using the Oregon Natural Desert Association's 
(plaintiff) application for interim fees and costs against Secretary 
Vilsack (defendant) for almost $1 million dollars as an example, what 
do you estimate, on this one application, was the impact on the agency 
budgets, time, and personnel? The plaintiff's motion seeks fees between 
October 2001 and February 2012.
    Answer. Oregon Natural Desert Association (ONDA) has filed a motion 
with the court seeking almost a million dollars for costs through June 
2009. We've responded and are awaiting a ruling. Although we have been 
tracking Equal Access to Justice Act (EAJA) fees and other litigation 
fees paid to attorneys in natural resource litigation, we have not been 
tracking those other costs associated with litigation, such as Agency 
personnel costs. Forest Service employees generally do not track their 
time for specific projects or cases.
    For over a decade, various Forest Service personnel in the Pacific 
Northwest Region, on various forests, have had to address a number of 
law suits filed by the Oregon Natural Desert Association. A 
considerable amount of time has been spent in this endeavor. There have 
been costs to the Malheur National Forest, Pacific Northwest Regional 
Office and the Washington Office as well as the Office of General 
Counsel to respond to the litigation at various levels, however 
attempts to estimate costs to the agency are speculative since there is 
no way to develop an accounting for that time. Also, the Forest Service 
doesn't track the cost of the litigation for the Department of Justice 
(DOJ). We would defer to the Department of Justice for an accounting of 
litigation costs.
    For Endangered Species Act claims, plaintiffs are entitled to 
recover costs, but those come from the DOJ's judgment fund. For 
National Forest Management Act (NFMA) claims, the recovery is under 
EAJA and those are paid by the agency from its funds. The current 
request is for almost a million dollars. If the court awards fees in 
connection with Plaintiffs' NFMA claims, that t the Forest Service 
would only be required to pay the costs for litigating the NFMA claim.
    Question 2. According to the FY 2013 budget, the Forest Service 
plans to complete NEPA decisions for 125 allotments, compared to a 
target of 250 in FY 2012 due to anticipated increase in NEPA analysis 
costs. With the costs associated with NEPA decisions, how important is 
codifying Rescissions Act flexibility to the agency's ability to 
determine the priority and timing of environmental analysis?
    Answer. Codifying flexibility for the Forest Service in determining 
the priority and timing of environmental analysis documentation for 
livestock grazing activities on National Forest System lands is 
essential given limited agency budgets, fluctuating resource conditions 
on-the-ground and emergencies such as wildfires and post wildfire 
emergency rehabilitation. The flexibility is not found in the 1995 
Rescissions Act, but first appeared in the 2003 Appropriations Rider. 
The Rescission Act itself didn't provide any flexibility and that was 
the problem because of the language requiring adherence to the 
schedule.
    Question 3. In the last ten years, how many grazing permits have 
been reissued using current appropriation rider language while the NEPA 
process is still being completed?
    Answer. From 2003 through 2011, 5,689 term grazing permits were 
issued under the recurring appropriation rider and the Rescissions Act.
    Question 4. What impact would S. 2001 have on accessing possible 
rare earth deposits? What studies or inventories have been conducted to 
know what rare earth deposits may be deposited?
    Answer. S. 2001 would withdrawal lands the land designated as 
wilderness from location, entry, and patent the mining laws subject to 
valid existing rights. Except where mining claims already exist and 
claimants can demonstrate valid existing rights, all new exploration 
and development of rare earth minerals would be prohibited.
    The Forest Service has conducted no studies or inventories for the 
existence of rare earth minerals. The United States Geological Survey 
(USGS) is the federal agency tasked with conducting and publishing 
mineral resource assessments. The Forest Service defers to the USGS for 
the current status of mineral assessments.

  Responses of Leslie A.C. Weldon to Questions From Senator Murkowski
                                s. 1129

    Question 1. Please clarify MS. Weldon's assertion that the Forest 
Service has no backlog of grazing permits. Did she mean to suggest that 
all of the existing or renewed grazing permits had NEPA completed 
before they were re-let?
    Answer. Ms. Weldon did not mean to suggest that NEPA has been 
completed for all allotments before permits are renewed, but rather 
that the Forest Service does not have a backlog of permits needing 
issuance, reissuance or transferal, awaiting the completion of NEPA 
because it issues permits under the authority of the recurring 
appropriations rider, as well as the Rescissions Act, pending the 
completion of NEPA. The Forest Service completes NEPA on grazing 
allotments, not grazing permits in accordance with the Rescissions Act 
schedule. NEPA is not based on the timing of permit expiration. It is 
important that the Agency is able to issue the permits so that 
permittees can continue their use uninterrupted as we work toward NEPA 
completion on the allotment.
    Question 2. Please tell us how many grazing permit applications for 
renewal there were in each year since 2003.
    Answer. The Forest Service does not track renewals as a subgroup of 
permits issued each year. The following data represent total permits 
issued each year for NFS lands, including renewals.


 

 

                            2003                                  416
                            2004                                  466
                            2005                                  520
                            2006                                 1003
                            2007                                  578
                            2008                                  563
                            2009                                  730
                            2010                                  658
                            2011                                  755


    Question 3. Please tell us how many years passed before all the 
NEPA was completed on all of the grazing permits that were renewed in 
1995?
    Answer. As a result of changing priorities and funding levels from 
those used to develop the 1995 allotment NEPA schedule, the Forest 
Service has not completed NEPA analysis for all of the allotments with 
permits that were issued in 1995. Therefore, the need exists to 
continue the Secretary's authority and sole discretion in setting 
priority for the completion of allotment NEPA analyses.
    Question 4. Please tell us how many grazing permit application for 
renewal will be renewed in 2012?
    Answer. Local units manage and process the applications for term 
grazing permits, whether renewals, transfers or new applications and 
the agency does track how many total permits are issued each year. 
However, we are unable to provide the number of term grazing permits 
issued so far in 2012, because we compile the data on an annual basis.
    Question 5. Please tell us how many years it will take the Forest 
Service to complete the NEPA work that will be needed to underpin the 
grazing permits that are renewed in 2012?
    Answer. The 2010 Rescissions Act Schedule identified 3,605 grazing 
allotments that will need NEPA completed between 2011 and 2019. 
However, because conditions can and do change on our grazing 
allotments, that number is likely to change. Annually the Forest 
Service units will develop their NEPA needs; and in 2013, the Forest 
Service would again issue an agency wide updated schedule that would 
include any changes.
    Question 6. If Congress does not renew Interior Appropriations 
special provision number 415 and S. 1129 is not signed into law, how 
many grazing permits would you be forced to terminate?
    Answer. The Forest Service relies on the Rescission Act as well as 
the recurring appropriations rider to provide the authority to continue 
issuance of grazing permits where NEPA has not been completed on the 
associated allotment. Therefore, since we would continue to have 
authority to reissue permits under the Rescissions Act, there will be 
no forced terminations of grazing permits if section 415 is not renewed 
or S. 1129 is not enacted.
    Question 7. Do you agree that Special Provision 415 relates to both 
the Forest Service and the Department of the Interior?
    Answer. Yes, section 415 relates both to the Forest Service and the 
Department of the Interior.
    Question 8. Can you provide data or an analysis on what the 
economic impact would be to the ranchers who hold these permits and the 
communities they live in if Sec. 415 or S. 1129 were not in place?
    Answer. Under the Rescissions Act, there would be no economic 
impact to the permittee or the community. Because the Forest Service is 
required to issue, transfer, or renew permits under the authority of 
the Rescissions Act, there would be no break in use of the grazing 
permit. Grazing would continue, whether those provisions have been 
enacted or not because the permits would be issued with the same terms 
and conditions as the expired or transferred permit.
    Question 9. Please explain how you are able to describe that only 
25% of your grazing permit renewals currently do not have the required 
NEPA completed?
    Answer. The Forest Service conducts analysis, documentation and 
disclosure pursuant to NEPA on grazing allotments and then issues the 
term grazing permits to the applicants. To clarify, approximately 1,700 
allotments do not have the analysis, documentation and disclosure 
pursuant to NEPA completed. For these allotments SEC. 415 of the FY 
2012 Interior Appropriations and Related Agency law and Section 325 of 
Public Law 108-108 (117 Stat. 1307), allow the issuance of 10-year term 
grazing permits to applicants who graze their livestock on the affected 
allotments.
    Question 10. With a proposed 27% cut in the grazing program, please 
provide an estimate of the number of grazing allotment decision notices 
that will be completed in FY 2013 and please provide a detailed 
explanation of how you will accomplish that level if your estimate is 
higher than 142 permit decisions?
    Answer. In the Forest Service FY 2013 Budget Request, the agency 
has requested a 27 percent reduction in spending on grazing management; 
proposing to drop grazing funding from $55.3 million down to $40.4 
million dollars. Nevertheless, the FY 2013 President's Budget requests 
$13, 730,000 to complete livestock grazing NEPA analysis and decisions 
for 125 allotments.
    S. 1906, a bill to modify the Forest Service Recreation Residence 
Program as the program applies to units of the National Forest System 
derived from the public domain by implementing a simple, equitable, and 
predictable procedure for determining cabin user fees;
    Question 11. Can you describe the areas of potential agreement 
related to this legislative proposal?
    Answer. It is my understanding that there have been productive 
discussions between the Forest Service and groups that represent cabin 
users who have leases within the National Forests. The bill would 
reduce the cost of administering the recreation residence program 
because there would no longer be a need for fully developed lot 
appraisals once lots are placed into their corresponding tiers. 
Representatives of the cabin owners' organization also agreed to add an 
additional tier on the upper end in order to better capture higher lot 
values. The representatives also have agreed to removal of the 
provision requiring the agency to assess a transfer fee that was tied 
to the sale value of the cabin. Because the agency does not have an 
interest in cabin values (only lot values) and because it would have 
required administrative resources to track those sales, we are 
supportive of removing that provision from the bill.
    Question 12. Can you describe the areas of disagreement that still 
must be worked out?
    Answer. The agency can support the most recent draft amendments to 
S. 1906 if changes are made as described in testimony and in the answer 
to Question 11, and if the provision requiring the agency to assess a 
transfer fee at the point of cabin sale is removed.
    Question 13. Given this Administration's beliefs about global 
warming and the drying of the Intermountain West, does the Forest 
Service think it wise to impose these restrictions on water development 
in this bill?
    Answer. Section 4(d)(3) of S. 1635 would prohibit the development 
of any new irrigation or pumping facility or other specified water 
structures in the covered land. No, it may not be wise to impose water 
restrictions because there are existing reservoirs in these areas. 
Also, in general, it is preferable to expand reservoirs at high 
elevations (all these lands are above 10,000 feet) because 
substantially less evaporative water loss occurs at these elevations. 
The Forest Service testimony on S. 1635 addressed water rights and 
water development in Section 4(d)(3) which would prohibit new water 
development projects in the special management area. This provision is 
more restrictive than section 4(d)(4) of the Wilderness Act under which 
the President of the United States may exercise discretion to authorize 
such facilities within designated wilderness areas if they are 
determined to be in the public interest.
    We note, however, that the prohibitions on water develop in the 
Sheep Mountain special management area would consistent with the 
prohibitions in wilderness subject to the Colorado Wilderness Act of 
1993, including the wilderness additions that would be designated by 
this bill.
    Question 14. Is the Forest Service willing to forgo the opportunity 
to develop wildlife stock ponds or guzzlers within this Wilderness if 
climate change does result in seasonal drying in this area?
    Answer. We see no need to develop wildlife stock ponds or guzzlers 
either in the Sheep Mountain SMA or in the wilderness additions that 
would be designated by S. 1635. The wildlife species of most concern at 
these high elevations is the bighorn sheep and water availability (or 
lack thereof) is not a limiting factor.
    Section 5 (a) of this bill says the Secretary may continue to 
authorize the competitive running event permitted since 1992 in the 
vicinity of the Special Management Area and the Liberty Bell addition 
to the Mount Sneffels Wilderness designated by section 2(a)(21) of the 
Colorado Wilderness Act of 1993 (as added by section 3) in a manner 
compatible with the preservation of the areas as wilderness.
    Question 15. Would you describe the restrictions the Forest Service 
has placed on these events in the past?
    Answer. The Forest Service has not placed any non-typical 
restrictions through the special use permit on the competitive running 
event in the Special Management Area and the Liberty Bell addition.
    Question 16. Would you describe the restrictions the Forest Service 
will likely place on these events in the future?
    Answer. We would likely consider capping the total number at the 
organizer's current cap of 100 runners.
    Question 17. Do you believe that this type of imprint by man 
conforms to the original 1964 Wilderness Act and the solitude that most 
users expect when they enter into and recreate in a Wilderness Area?
    Answer. A competitive event is not consistent with Forest Service 
wilderness policy, which reflects the Wilderness Act prohibition 
against commercial enterprise. This type of imprint by man does not 
conform to the original 1964 Wilderness Act. The competitive foot race 
would not be in the proposed wilderness additions.
    Section 4 on the Sheep Mountain Special Management Area Management 
Area says the purpose of the Special Management Area is to conserve and 
protect for the benefit and enjoyment of present and future generations 
of the geological, cultural, archaeological, paleontological, natural, 
scientific, recreational, wilderness, wildlife, riparian, historical, 
educational, and scenic resources of the Special Management Area. The 
Special Management Area would preserve options for later designation as 
Wilderness by the Congress, if the current uses would cease.
    Question 18. If these uses are to continue, why is this area any 
different than any other parcel of developed or undeveloped recreation 
land managed by the Forest Service and why modify its purpose?
    Answer. The difference is that this bill would allow for 
continuation of only the existing helicopter activities, which include 
heliskiing and helicopter access for a utility company's access for 
annual dam inspection. As compared to any other parcel of developed or 
undeveloped land, there would only be two such uses now and for at 
least the near future. The geographic impact of these uses, however, is 
not insignificant in that the heliskiing operation is authorized to use 
about 6,000 acres of the proposed SMA, which represents about 27 
percent of the total acreage proposed for designation.
    Question 19. In your mind, do the restrictions within the purposes 
make this more like a Wilderness Area or more like undeveloped 
recreation land allocations currently utilized in Region Two of the 
Forest Service?
    Answer. The allowance of the helicopter uses makes this SMA more 
like undeveloped recreation land currently utilized by the Rocky 
Mountain Region. For this reason, we support designation of this parcel 
as a Special Management Area.
    S. 1774, a bill to establish the Rocky Mountain Front Conservation 
Management Area, to designate certain Federal land as wilderness, and 
to improve the management of noxious weeds in the Lewis and Clark 
National Forest;
    Question 20. Are there any oil and gas operations or potential oil 
and gas deposits within the areas to be designated Wilderness additions 
or the Conservation Management Area in this bill?
    Answer. The lands identified in the Rocky Mountain Front Heritage 
Act were congressionally withdrawn from oil and gas entry in 2006 by 
Section 403(a) of Public Law 109-432. There are no leases remaining on 
these lands. There are no active oil or gas operations on the Lewis & 
Clark NF (L&C NF) lands being considered in S. 1774. The Rocky Mountain 
Front on the Lewis & Clark is part of the Montana Overthrust Belt. This 
area is structurally similar to areas that are highly productive for 
oil and gas in Canada, Wyoming and Utah. USGS has ranked it as highly 
prospective for hydrocarbons. Analysis in the 1997 L&C NF Oil and Gas 
Leasing FEIS ranked the entire area as ``high'' potential for the 
occurrence of oil and gas. Gas production has occurred in and adjacent 
to the forest in the Blackleaf Field. One well in the field was located 
on the L&C NF. It was productive from 1981 to 1991.
    Question 21. What are the known mineral deposits and potentially 
developable mineral deposits within the proposed Wilderness additions 
and the Conservation management area?
    Answer. The mineral withdrawal in Section 403(a) of Public Law 109-
432 also applies to locatable minerals and geothermal claims. The 
geologic setting contains rock formations that may contain (low to 
moderate potential) undiscovered copper and silver mineral resources.
    Question 22. I am wondering if the Forest Service has any other 
land use designations that are analogous to the proposed Conservation 
management areas. It seems to me this is typically a land allocation 
used within the vernacular of the Bureau of Land Management. Does this 
land allocation title cause the Forest Service any concern?
    Answer. The Northern Region of the Forest Service does not have a 
land allocation analogous to the term Conservation Area; however, the 
Forest Service does not have any concerns if Congress chooses to use 
that terminology.
    Question 23. If not, how long will it take you to develop a plan 
for the management of the area and do you need additional specific 
direction on what is or isn't going to be allowed in this area?
    Answer. S.1774 does not specifically require development of a new 
management plan for the area. National Forest lands encompassed within 
the area covered by S.1774 would largely continue to be managed 
according to existing management plans, policies, and regulations. 
Areas newly designated as Wilderness would be treated as additions to 
the adjacent Bob Marshall Wilderness Complex (BMWC) and would be 
managed consistent with other Wilderness lands lying within the complex 
(for example, current management plans and direction that apply to the 
BMWC include the Bob Marshall Wilderness Complex Guidebook for Wildland 
Fire, BMWC Recreation Management Direction plan, and special orders 
covering topics such as food storage and camping stay limits). Lands 
receiving the Conservation Area designation would be managed in 
accordance with the current Forest Plan direction. Additionally, the 
legislation creates two new planning mandates: developing a 
comprehensive weed management strategy and conducting a study to 
improve non-motorized recreation opportunities. We need a minimum of 
three years to develop a quality comprehensive weed strategy and to 
conduct the trails opportunity study. Attempting to complete the weed 
strategy or trail study in less than three years would require us to 
divert resources from important ongoing management tasks such as 
treating weeds and maintaining trails. Additionally, requiring the 
completion of the weed strategy in one year and the trails study in two 
years could have the undesired effect of limiting opportunities for 
other stake holders such as Indian tribes, State and local agencies, 
weed districts, or other members of the public from fully collaborating 
in the process.
                                 ______
                                 
   Response of Mike Pool to Question From Senator Bingaman, on S. 303

    Question 1. Am I correct in my understanding that S. 303 provides 
that certain claims listed in the bill be considered to have received 
what is called a ``first-half final certificate'' before September 30, 
1994, thus making the claimant eligible to receive a ``patent''--or fee 
simple title--to these federal lands and minerals under the Mining Law 
of 1872 for $2.50 per acre?
    Answer. Deeming a claimant to have received a first half first 
certificate before September 30, 1994, will allow the BLM to continue 
to process the pending patent application for the mining claims listed 
in the bill. To be eligible for a patent, the claimant would need to 
pay the purchase price, which is $2.50 per acre for a placer claim, and 
satisfy all the other requirements for patenting under the Mining Law 
of 1872, including demonstrating, and verifying the existence of a 
valuable mineral deposit as of the date the claimant satisfied all the 
requirements for patenting. If the applicant, satisfies these 
requirements, then the applicant would receive a patent.
 Responses of Mike Pool to Questions From Senator Barrasso, on S. 1129
    Question 1. What impact does litigation have on the BLM's resources 
and ability to issue grazing permits in a timely manner?
    Answer. Litigation work associated with administration of the 
grazing program varies greatly by state and region across the Bureau. 
In some Field Offices there is little to no litigation workload, while 
in other offices it may account for a substantial amount of staff time. 
The timing of litigation can further influence the capability for on-
the-ground range management. For example, if staff must prepare case 
files, prepare briefings, or offer testimony during the field season 
(usually spring and summer months) then their ability to perform 
monitoring, compliance checks, and NEPA work necessary to support fully 
processing permits becomes limited.
    Question 2. In the last ten years, how many grazing permits have 
been reissued using current appropriation rider language while the NEPA 
process is still being completed?
    Answer. Based on information readily available, the BLM has issued 
an average of 1,300 permits per year under the appropriation riders for 
the past 5 years. Actual annual numbers for the last five years are 
shown in the table below. The BLM rangeland administration databases do 
not include the number of permits issued under appropriations riders 
prior to 2007 but the number of permits issued annually is likely 
similar to the number of permits issued over the last five years.


------------------------------------------------------------------------
     BLM Grazing Permits & Leases Issued or Processed from 2007-2011
-------------------------------------------------------------------------
            Permit Status               2007   2008   2009   2010   2011
------------------------------------------------------------------------
Issued using Appropriations Language    1068   1333   1741   1286   1203
 Authority
------------------------------------------------------------------------
Issued after completion of NEPA         2011   2168   2554   1843   1945
 Process
========================================================================
Total Issued                            3079   3501   4295   3129   3148
------------------------------------------------------------------------

    Question 3. Section 123 of the Consolidated Appropriations Act of 
2012 provided flexibility when considering NEPA analysis for trailing 
or crossing permits. As mentioned in your response to my question about 
how the BLM is interpreting and implementing the law, will you provide 
documentation about how the local field offices will be determining or 
handling this issue?
    Answer. The BLM has prepared guidance on administration of crossing 
permits and associated NEPA documentation. This guidance has been 
transmitted to the field as an instruction memorandum and is available 
at the following website: www.blm.gov/wo/st/en/info/regulations/
Instruction_Memos_and_Bulletins/national_instruction/2012/
IM_2012_096.html.
    Question 4. The BLM budget proposes to cut $15.8 million from the 
Rangeland Management program for grazing administration. How do you 
justify cutting rangeland management programs when your agency has a 
backlog of NEPA allotments to complete, and is struggling to complete 
allotment management plans, rangeland health assessments, and process 
permits?
    Answer. The FY 2013 budget requests a decrease of $15.8 million, 
which will bring the budget to the 2010 levels. The Budget includes 
appropriations language for a three-year pilot project to allow BLM to 
recover some of the costs of issuing grazing permits/leases on BLM 
lands. BLM would charge an administrative fee of $1 per Animal Unit 
Month, which would be collected along with current grazing fees. The 
budget estimates the administrative fee will generate $6.5 million in 
2013, and that it will assist the BLM in processing pending 
applications for grazing permit renewals.

 Responses of Mike Pool to Questions From Senator Murkowski, on S. 303
    Question 1. On average, how many miners a year fail to submit their 
small miner waiver request applications and thus lose their mining 
claims for failure to file their applications on time? Are we talking a 
handful, dozens or hundreds? How many small miner waivers do you 
process each year and what is the total universe of miners who hold 
less than 10 claims and thus qualify for the waiver program? What is 
the total cost currently of sending a letter to a miner informing him 
that his application did not arrive in a timely fashion and that his 
claims are being revoked?
    Answer. Currently, almost 30,000 claimants hold 10 or fewer claims. 
In 2011, a total of approximately 41,000 claims were forfeited by small 
miners and entities holding larger numbers of claims. Mining claims are 
forfeited for many reasons, and the number of claims forfeited can vary 
widely from year to year. Often, claimants voluntarily forfeit their 
mining claims because the claimant has evaluated the claim and found no 
mining opportunity worth pursuing at this time; however, the BLM has no 
way of knowing whether a forfeiture is voluntary or inadvertent. On an 
average for the last five years, the BLM has processed approximately 
21,000 waivers annually. The BLM estimates that the total cost 
currently of sending a letter to a miner informing him that the BLM did 
not timely receive the statutorily required maintenance fees and that 
his claims have been forfeited by operation of law is about $41.50, 
including staff time.
    Question 2. How many appeals of claim forfeiture caused by miners 
failing to meet the required filing deadlines are currently pending? 
What is the cost of an average appeals process to adjudicate such 
forfeitures?
    Answer. The BLM tracks if an appeal is filed but does not track the 
action the mining claimant is appealing. Between October 1, 2010, and 
September 30, 2011, 71 appeals were filed involving 352 claims, but as 
stated, there is no consolidated record of the reason or reasons for 
the appeals. Without knowing the reason for the appeal or the number of 
claims involved, estimating the cost to adjudicate each appeal of a 
forfeited claim is not possible.
    Question 3. The Department, in its testimony on the bill, objects 
to it because of the ``enormous administrative burden'' it would cause 
the Department to comply. The Department is apparently concerned that 
miners in great numbers would file their applications late should S. 
303 pass. Would the Department's concerns be alleviated if a penalty 
would be added for late filings to provide a continued financial 
incentive for miners to file their forms on time, but not lose their 
claims as the automatic response to late filings, or in cases where the 
Department may have improperly processed filings? What might be an 
acceptable level of penalty to encourage on-time filing, a fine of $1 
per claim per day for a late filing, a fine of $5 a day per claim for a 
late filing? How high would such a penalty need to be to likely make a 
modified process revenue neutral to the BLM?
    Answer. Imposing a late fee or fine would not relieve the 
administrative burden to the BLM under S. 303, although it would 
recover some of the associated costs of the new administrative duties. 
For all claimants who submit an untimely waiver as well as for 
claimants who did not pay the maintenance fee or file a waiver at all, 
the BLM would still be required to check its records and determine 
whether the claimant was eligible for a waiver on the date the payment 
was due, and, if so, send a notice to those claimants and provide a 60-
day period in which to cure by filing a proper waiver or paying the 
maintenance fee. If the claimant didn't respond to the 60-day cure 
notice, the BLM would then have to issue an appealable decision 
declaring the claim(s) forfeited. Imposing the late fee or fine would 
not remove the additional administrative steps of investigating the 
ownership of each claim and then sending out notices for which claims 
for a timely fee payment or waiver was not received.
    The BLM estimates the cost of approximately $400,000 annually to 
implement the provisions of S. 303.
    Question 4. Why does the BLM feel that the language which says that 
miners should have the ability to cure any ``defect for any reason'' 
doesn't apply to the primary potential defect, that of not having the 
application recorded as being timely received?
    Answer. The Omnibus Consolidated and Emergency Supplemental 
Appropriations Act of October 21, 1998 (Pub. L. No. 105-277, 112 Stat. 
2681-235) that created the 60-day cure period, codified the 
Department's existing regulatory practice of providing a cure period 
for timely filed but defective maintenance fee waivers. There is no 
evidence that Congress intended to alter the Department's regulatory 
interpretation that allowed a claimant to cure a defective maintenance 
fee waiver only if the waiver was filed on time[delete extra space ]. 
Rather, the history of the Act indicates that the purpose of amending 
the United States Code was simply to extend the cure period from 30 
days under BLM's regulations to 60 days. The Interior Board of Land 
Appeals (IBLA) has repeatedly affirmed this regulatory interpretation 
that allows a mining claimant to avoid forfeiture only where a timely, 
but defective waiver certification is filed, and the claimant 
thereafter cures the defect or pays the maintenance fee. The IBLA's 
reasoning is that the Secretary has no discretion to allow a cure 
because the claim becomes forfeited by operation of law when the 
deadline passes and the BLM has not received payment or a valid waiver. 
The IBLA's decisions on this issue represent the final decision of the 
Department, and have never been overturned in Federal Court.
    Question 5. Can the Department suggest any changes in the allowable 
grounds for appeals that would solve the current issue that applicants 
have no effective appeals process to overcome the burden of ``presumed 
administrative regularity'' in the processing of small miner waiver 
applications by the government when they believe that the Department, 
by clerical error, did not credit arrival of their mining waiver 
request forms on time?
    Answer. The Department's regulations at 43 CFR Part 4 allow any 
party adversely affected by a decision of the BLM to appeal to the 
IBLA. Mining claimants who believe that their mining claims were 
improperly declared void can appeal a decision under the Department's 
appeal regulations, and all decisions made by the BLM include specific 
instructions telling mining claimants about their appeal rights. If the 
mining claimant receives an adverse decision on appeal, the mining 
claimant can challenge the Department's decision in the U.S. District 
Courts. The BLM mining law adjudicators remind claimants that when they 
mail their documents, they should always send the documents by 
certified mail, return receipt requested, keeping a copy of what they 
sent. Additionally, BLM offices also remind claimants they should send 
duplicate copies to the BLM so the copies can be date stamped and 
returned to the claimant. The claimant should also make their filing 
well in advance of the September 1 filing date so that should a 
document not be received, there would be ample time to re-file the 
document if necessary.
                                s. 1788
    Question 6. Given this Administration's beliefs about global 
warming and the drying of the Intermountain West, does the BLM think it 
wise to impose these restrictions on water development in this bill?
    Answer. These restrictions only apply to BLM-managed lands within 
the proposed wilderness area and there are extensive BLM-managed lands 
in the surrounding area on which there are no restrictions on water 
developments. Similar language has been included in many wilderness 
designation bills.
    Question 7. Is the Bureau of Land Management willing to forgo the 
opportunity to develop wildlife stock ponds or guzzlers within this 
Wilderness if climate change does result in seasonal drying in this 
area?
    Answer. Section 10(d) of the bill specifically gives the BLM the 
authority to authorize new wildlife water developments including 
guzzlers (where appropriate) within the Pine Forest wilderness area.
                                s. 1559
    Question 8. At this point in time, what is the Bureau's land 
management plan for these lighthouse reserves?
    Answer. Of the approximately 1,000 acres of islands and rocks, most 
are currently withdrawn from mining. The lands are currently managed 
for their scenic, recreational, historic, cultural, and natural 
resource values. There is currently no land use plan covering the lands 
proposed for the San Juan Islands NCA; however, BLM would prepare a 
land use plan as directed by S.1559, if it is enacted.
    Question 9. How would the designation called for in this 
legislation change the day-to-day management and use that is occurring 
on these lighthouse reserves?
    Answer. While there would be very little change in the day-to-day 
management, the designation would provide a permanent, consistent 
management scheme allowing for the continued protection of the 
important natural, scientific, cultural and historic values of the 
public lands within the San Juan Islands. The bill adds a consistent 
overlay of permanent management protections of these resources while 
continuing to allow the current recreational uses.
    Question 10. Can you assure me that recreational users such as 
people walking their dogs will not be harassed by DOI law enforcement 
personnel if this legislation is passed?
    Answer. We have not had, nor do we anticipate having, any problems 
with dog walkers within the proposed San Juan Island National 
Conservation Area.
    Question 11. Should we expect any new restrictions will be placed 
on access or use of these areas if this legislation is passed?
    Answer. We do not anticipate any new restrictions on access.
                                s. 2001
    Question 12. How many acres of suitable timber base will be lost if 
this bill is signed into law?
    Answer. The BLM has not identified any ``suitable timber'' in the 
proposed areas. There is currently one past sale (sold, awaiting 
protest resolution) potentially affected by S. 2001 which covers 16 
acres. There are four additional sales planned for future years. The 
total for all of these possible sales is less than 1,100 acres. The 
timing of the passage of this bill may preclude all of these timber 
sales.
    Question 13. Approximately how much revenue could have been 
generated over the next five decades from this timber base on an annual 
basis assuming 2012 stumpage rates in the area?
    Answer. Of the total nearly 60,000 acres being proposed for 
wilderness designation less than 1,100 acres, or 1.8 percent contain 
planned timber sales.
    Question 14. There are several miles of wild and scenic river 
designations in this bill; do those designations cut off areas of 
suitable timber base from access?
    Answer. Most of the wild and scenic river designations in S. 2001 
are within the designated wilderness, therefore the wild and scenic 
overlay would have no additional affect. For those parts of the 
corridor outside of the designated wilderness, it would depend upon the 
specific designation (wild, scenic, or recreational). In ``wild'' 
segments the cutting of trees is generally not permitted except for 
protective purposes such as wildfire suppression. On ``scenic'' or 
``recreational'' segments, designation is not likely to significantly 
affect timber harvesting or logging practices beyond existing 
limitations to protect riparian zones and wetlands which are guided by 
other legal mandates and planning direction.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Hon. Mike Lee, U.S. Senator From Utah, on S. 2056

    Thank you, Senator Wyden. And I'd also like to thank Senator Baucus 
and the witnesses today for coming in to provide testimony on these 
pieces of legislation. At the outset, I'd like to speak in support of 
the Scofield Land Transfer Act, which, if passed, would resolve an 
issue that has existed for more than a decade.
    The Scofield Land Transfer Act proposes to remedy a discrepancy 
between local residents in Carbon County, Utah and the Bureau of 
Reclamation by authorizing certain transfers to residents who claim 
ownership of Federal land within the Scofield Reservoir Basin in 
exchange for the fair market value of the land.
    Many of these residents have invested time and money in these 
properties, and if this bill is passed, these Utahans will be able to 
enjoy the benefits of Scofield Reservoir in the future. The bill also 
addresses safety concerns raised by the Bureau of Reclamation and 
strikes a good balance between these concerns and the continued 
enjoyment of Scofield Reservoir. And while there may be further details 
to sort out, I believe the bill in general provides a sensible and 
satisfactory resolution to what has been a long and drawn out dispute.
    I look forward to working with the Bureau of Reclamation and my 
colleagues here to bring this issue to a final resolution. Thank you 
and I look forward to the testimony on this and the other bills we have 
before us today.
                                 ______
                                 
Prepared Statement of Debbie Sease, National Campaign Director, Sierra 
          Club, on S. 1635, S. 1774, S. 1788, S. 2001, S. 1559
    On behalf of the Sierra Club's 1.4 million members and supporters 
across the country, I want to thank you and the Public Lands and 
Forests Subcommittee for your continued work to protect American lands, 
water, and wildlife.
    Tomorrow's hearing includes four bills that would establish new 
wilderness areas as well as legislation that would establish a new 
national conservation area. Congress has not established new wilderness 
in three years and this hearing is a step in the right direction toward 
crafting a bipartisan bill that protects America's wild legacy. We 
thank you and all the members of your committee for working across the 
aisle to get the bills this far and look forward to seeing them move 
forward.
    The Sierra Club urges you to support the following bills:

  <bullet> S.1635, San Juan Mountains Wilderness Act of 2011--would 
        protect nearly 55,000 acres in southwest Colorado, 33,000 of 
        which would be wilderness. The bill would expand both the 
        Lizard Head and Mt. Sneffels wilderness areas and establish the 
        McKenna Peak wilderness area in western San Miguel County. It 
        would provide further protections by creating the Sheep 
        Mountain Special Management Area, where existing uses would be 
        allowed to continue. This stunning corner of Colorado is worthy 
        of protection and as such the bill is widely supported by local 
        businesses, conservationists, hunters nd anglers, biking 
        groups, and many other local stakeholders.
  <bullet> S. 1774, Rocky Mountain Front Heritage Act of 2011--would 
        designate over 67,000 acres of wilderness and create 208,000 
        acres of Conservation Management Areas in western Montana. The 
        area is world-class wildlife habitat and has some of the 
        highest diversity of animals and plants in the entire Rocky 
        Mountain Range. This legislation would ensure protected and 
        connected areas between summer and winter habitat, creating a 
        refuge area prized by hunters and outdoor enthusiasts alike.
  <bullet> S. 1788, Pine Forest Range Recreation Enhancement Act of 
        2011--would create the 26,000 acre Pine Forest Range Wilderness 
        in northwest Nevada. The area is key habitat for mountain 
        lions, mule deer, sage grouse, pronghorn antelope, and 
        California bighorn sheep. It is also renowned for providing 
        some of the best hunting and fishing opportunities in the 
        state. The legislation is the result of a long long 
        collaborative process that involded more than 50 people 
        representing a long list of relevant stakeholders. They 
        successfully came to an agreement that provides permanent 
        protection and provides a potential boost to the local economy.
  <bullet> S. 2001, Rogue Wilderness Area Expansion Act of 2011--would 
        add more than 58,000 acres of wilderness to the Wild Rogue 
        Wilderness Area in southwest Oregon. It would also protect more 
        than 90 miles of the Rogue River and its tributaries as Wild 
        and Scenic and increase protections for another 50 miles from 
        mining and dam building. The area is a world-class destination 
        for recreation and fishing and provides habitat to key species 
        such as cougars, salmon, steelhead, and bears.
  <bullet> S. 1559, San Juan Islands National Conservation Act of 
        2011--would protect over 1000 acres in the San Juan Archipelago 
        in Washington. The area includes dozens of small islands and 
        reefs that are havens for nesting sea birds, harbor seals, rare 
        plants and contains numerous cultural and historic sites. It 
        also has an abundance of recreational activities such as 
        kayaking, camping, bird-watching, hunting and fishing, boating, 
        and wildlife viewing.

    The Senate Energy and Natural Resources Committee has already 
reported out a long, bipartisan list of important land protection 
measures this Congress. This list includes legislation that would 
establish Wilderness Areas, Conservation Areas, and Wild and Scenic 
Rivers. All told the five bills highlighted above would protect more 
than 400,000 acres as wilderness or other designated protected areas. 
Four of them (S. 1635, S. 1788, S. 2001 and S. 1559) have also been 
identified by the Bureau of Land Management as areas deserving of 
protection in a report that was sent ot Congress in November 2011.
    These locally-driven public lands protection bills would support 
jobs in local communities, assist wildlife adapting to changing 
conditions, and preserve unparalleled recreational opportunities for 
millions of Americans. They represent many years of on-the-ground work 
of conservationists, local elected officials, and Congress. Thanks to 
the diligent work of the Public Lands and Forests Subcommittee as well 
as the Energy and Natural Resources Committee there is an opportunity 
to pass meaningful lands protection bills before this Congress 
adjourns. We look forward to working with you to continue moving these 
forward.
                                 ______
                                 
  Statement of Hon. Dean Heller, U.S. Senator From Nevada, on S. 1473,
                            S. 1788, S. 1492
    Chairman Wyden and Ranking Member Barrasso, I want to start by 
thanking you for holding this hearing today. As you both know, 87 
percent of Nevada's lands are controlled by the federal government--so 
the health of our communities is intertwined with our public lands and 
the actions of land management agencies.
    I am pleased to have the opportunity to discuss the three bills for 
Nevada that are being considered today.
    I authored S. 1473, the Mesquite Land Conveyances Act of 2011, to 
provide the City of Mesquite continued flexibility to grow in a smart 
and responsible manner in the future. The bill gives the City of 
Mesquite an extension of the deadline for the City to purchase federal 
lands set aside by previous legislation for the purpose of planning and 
sustainability. The City is not presently in a position to purchase the 
final sections of lands due to the severe economic conditions that 
continue to plague Southern Nevada. The City of Mesquite remains 
committed to ensuring that its growth is done in a positive manner, and 
this bill will allow them that flexibility. S. 1473 is very simple, has 
no cost associated with it, and is the right thing to do for the 
community.
    S. 1788, the Pine Forest Range Recreation Enhancement Act, will 
resolve outstanding issues related to Wilderness Study Areas in the 
range. The Pine Forest Range is a popular destination for sportsmen and 
recreationists alike. It is the culmination of a two-year, locally 
driven process that was transparent and will result in enhanced 
recreation opportunities and better land management. I am pleased to 
support this bill and offer it as an example of how public land 
designations should be handled.
    S. 1492, the Three Kids Mine Remediation and Reclamation Act, will 
provide a way to remediate the 1,260 acre abandoned manganese mine and 
mill site in Henderson at no cost to the federal government. The bill 
will convey the federal land within the project site to the Henderson 
Redevelopment Agency. This innovative solution to a long-standing 
problem will allow the site to be fully reclaimed and subsequently 
developed.
    I look forward to the testimony of our witnesses and urge my 
colleagues to join me in supporting these important pieces of 
legislation.
                                 ______
                                 
   Statement of Hon. Harry Reid, U.S. Senator From Nevada, on S. 1492
    Thank you Chairman Wyden and Senator Barrasso for the opportunity 
to address your subcommittee about a bipartisan proposal to facilitate 
the remediation and redevelopment of a dangerous abandoned mine site 
near Lake Mead.
    Last August, I introduced the Three Kids Mine Remediation and 
Reclamation Act of 2011 together with Senator Heller. A companion bill 
was introduced in the House, where it is backed by all members of the 
Nevada congressional delegation. Last month the House measure was 
successfully reported out of committee.
    The onset of World War I nearly 100 years ago required the U.S. 
military to replace foreign natural resource imports with domestic 
supplies, including manganese needed for steel production. Therefore, 
the Three Kids Mine in Henderson, Nevada began producing manganese in 
1917, and continued to support the building of warships and tanks 
through 1961, after which it was mostly abandoned and used occasionally 
as a storage site for federal manganese reserves. The Three Kids site 
was forgotten for decades, until the population explosion in southern 
Nevada put the mine right in people's backyards.
    Today, the Three Kids Mine site is littered with hazards, including 
three large mine pits that are hundreds of feet deep, ruins from the 
mine facility, and a sludge pool of mine tailings made up of arsenic, 
lead, and diesel fuel.
    As a result of how the mine was developed and managed, about three-
quarters of the site is federal land managed by the Bureau of Land 
Management (BLM) and the Bureau of Reclamation, while the remaining 
portion is privately owned. Unfortunately, because of the complicated 
land ownership pattern and the immense cost of cleanup, the federal 
government was never able to initiate the reclamation process.
    To turn the Three Kids Mine site into a job-creating opportunity 
while also cleaning up this public health and safety hazard, my 
legislation directs the BLM to convey the 948 acres of federal land on 
the site to the Henderson Redevelopment Agency at fair market value, 
after taking into consideration the cost of cleanup for the whole mine 
site. Upon conveyance, the U.S. would be released from liability for 
the contamination on the site.
    The City of Henderson will then be able to take advantage of Nevada 
redevelopment laws designed to address blight conditions such as the 
Three Kids Mine. The land conveyance directed by S. 1492 would allow 
Henderson to work with local developers to finance and implement a plan 
to remediate the abandoned toxic mine site. The cleanup will be 
undertaken to meet stringent state and federal standards.
    Local officials and developers will finally be able to turn this 
wasteland into safe, productive land for the local community.
    The project will take decades from start to finish, but the City of 
Henderson and the developers are committed to the effort, and have 
worked hard to put together a viable plan to fix this old problem 
without costing taxpayers a dime for cleanup. Keeping our communities 
safe, healthy, and livable is critical. Removing this physical and 
environmental hazard from Southern Nevada is a high priority for the 
City of Henderson, and for our delegation.
    I look forward to working with this committee to move S. 1492 
through the legislative process.
    Thank you again for the opportunity to be here with you today. I 
request that my statement be included in the record.
                               on s. 1788
    Thank you Chairman Wyden and Senator Barrasso for the opportunity 
to address your subcommittee about our bipartisan proposal to create 
26,000 acres of new wilderness in northern Nevada.
    Last November, I introduced the Pine Forest Recreation Enhancement 
Act of 2011 together with the rest of the Nevada congressional 
delegation.
    The Pine Forest Recreation Enhancement Act of 2011 would designate 
26,000 acres of public lands within the adjoining Blue Lakes and Alder 
Creek Wilderness Study Areas (WSAs) as the Pine Forest Range Wilderness 
Area, while releasing 1,500 acres of existing WSA lands. The bill also 
directs the Bureau of Land Management (BLM) to exchange federal lands 
near ranches in Humboldt County for private parcels within the existing 
WSAs. These exchanges will allow the BLM to more effectively manage the 
wilderness area, while at the same time increasing economic development 
opportunities for ranching operations by providing land for 
agricultural uses.
    Protecting these untouched natural lands in Nevada is important to 
me and to the people of Humboldt County. Known as the ``Pine Forest 
Range'' it is one of the most beautiful and wild places in northern 
Nevada, with streams teeming with Lahontan Cutthroat Trout as big as 
your leg.
    This bill was the product of a comprehensive local process that 
took into consideration the concerns of local landowners, sportsmen, 
conservationists, former state officials, and other interested parties 
in Humboldt County.
    This diverse group of stakeholders came together from the ground up 
to develop a compromise proposal through a series of public meetings 
and field trips. The process was so successful that, for the first time 
that I can remember, a wilderness proposal was presented by the county 
commission to our delegation with almost unanimous support. The Nevada 
State Legislature also passed a joint resolution endorsing the work of 
the county commission and the Pine Forest Working Group.
    With the partisanship that divides us on so many other issues in 
these times, it was heartening to see a disparate set of constituents 
with various interests come together for the common cause of preserving 
Nevada's treasured landscapes for future generations to enjoy.
    Beyond the widespread state and local support, there is no question 
that the pristine natural lands and wildlife habitat in the Blue Lakes 
and Alder Creek WSAs should receive the strongest level of protection 
we can provide for public lands. Rising from the confluence of the 
Great Basin and Owyhee deserts, the foothills of the Pine Forest Range 
back up to the Black Rock Desert, and its peaks climb from over 5,000 
feet to more than 9,000 feet. You will find there alpine lakes 
surrounded by granite spires that create a habitat far different from 
surrounding ranges.
    The Blue Lake complex, including Onion Valley and Knott Creek 
reservoirs, is a destination for many anglers. The area is home to a 
variety of large trout, including rainbow, brook, cutthroat, tiger, and 
the Lahontan Cutthroat--which is native only to Nevada.
    The thick forests of aspen and pine that blanket these mountains 
provide a stronghold for mule deer, pronghorn, and bighorn sheep. The 
area is also well known by sportsmen across the west for its world 
class chukar hunting--a favorite fall pastime for many Nevadans.
    I look forward to working with the Senate Energy Committee to move 
this legislation forward.
    Thank you again for the opportunity to be here with you today. I 
request that my statement be included in the record.
                                 ______
                                 
                               National Mining Association,
                                    Washington, DC, March 19, 2012.
Hon. Lisa Murkowski,
Ranking Member, U.S. Senator, Senate Dirksen 304, Washington, DC.
    Dear Ranking Member Murkowski,
    On behalf of the National Mining Association (NMA), I write to 
express our support for the passage of S. 303, a bill to require the 
BLM to provide waivers for small miners. This is an important bill for 
small miners across the United States who mine minerals and metals 
vital to our economic success, but are sometimes overwhelmed with the 
myriad of paper work. The minor changes proposed will correct a problem 
that has resulted in unintended claim forfeitures by small miners over 
past several years.
    S. 303 clarifies that the current cure, or opportunity to correct, 
provision applies to the failure to timely file a small miner waiver 
application or affidavit of annual labor. A question has arisen whether 
the original language of the statute included these situations. The 
bill will aid individuals who could lose their claims and their 
livelihoods by this type of clerical error, and cannot pursue a cure 
under the current inflexible interpretation of the law.
    NMA thanks Sen. Murkowski for her leadership on the introduction of 
S. 303. NMA urges members of Congress to support this important 
legislation and oppose any amendments that would be detrimental to job 
growth and economic development.
            Sincerely,
                                                 Hal Quinn,
                                                   President & CEO.
                                 ______
                                 
                              Northwest Mining Association,
                                       Spokane, WA, March 19, 2012.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 
        Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Energy and Natural Resources Committee, U.S. Senate 
        Washington, DC.
Re: S. 303--Small Miner Waivers to Claim Maintenance Fees

    Dear Chairman Bingaman and Ranking Member Murkowski:
    The Northwest Mining Association (NWMA) is writing in support of S. 
303, which would clarify a cure provision already in law. S. 303 is an 
important bill for small miners with federal mining claims. The 
legislation clarifies the cure provisions already in law apply to the 
failure to timely file a small miner claim maintenance fee waiver and 
affidavit of annual labor. Current law provides:

          If a small miner waiver application is determined to be 
        defective for any reason, the claimant shall have a period of 
        60 days after receipt of written notification of the defect or 
        defects by the Bureau of Land Management to: (A) cure such 
        defect or defects or (B) pay the $100 (now $140) claim 
        maintenance fee for such a period (emphasis added).

    While the language seems straight forward, several of our members 
have lost their mining claims in cases where the waiver and affidavit 
were mailed in a timely manner, but due to clerical errors by BLM 
staff, mailing delays or unexplained reasons, the waiver and affidavit 
were not recorded as having been received in a timely fashion. BLM has 
then taken the position that the cure provision does not apply, and the 
claims are null and void.
    In some cases, this has resulted in needless litigation and 
substantial expense. Many of the small miners adversely impacted by the 
current interpretation of the right to cure have substantial investment 
in their mining claims. We believe S. 303 clarifies the original intent 
of Congress that claim holders have a right to know their applications 
have not been processed, and time for them to cure application/claim 
defects.
    NWMA is a 117 year old, 2,300 member, non-profit, non-partisan 
trade association based in Spokane, Washington. NWMA members reside in 
44 states, including 240 members in Alaska, and are actively involved 
in exploration and mining operations on public and private lands, 
especially in the West. Our diverse membership includes every facet of 
the mining industry including geology, exploration, mining, 
engineering, equipment manufacturing, technical services, and sales of 
equipment and supplies. NWMA's broad membership represents a true 
cross-section of the American mining community from small miners and 
exploration geologists to both junior and large mining companies. More 
than 90% of our members are small businesses or work for small 
businesses. Most of our members are individual citizens.
    We urge you to support this important legislation. Thank you for 
your consideration. Sincerely,
                                               Laura Skaer,
                                                Executive Director.
                                 ______
                                 
                           Alaska Miners Association, Inc.,
                                     Anchorage, AK, March 16, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Energy Committee, U.S. Senate, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy Committee, U.S. Senate, Washington, DC.
    Dear Senator Bingaman and Senator Murkowski:
    I am writing on behalf of the Alaska Miners Association in support 
of Senate Bill 303, which would clarify a cure provision already in 
law.
    The Alaska Miners Association is a non-profit membership 
organization established in 1939 to represent the mining industry in 
Alaska. The AMA is composed of more than 1400 individual prospectors, 
geologists and engineers, vendors, suction dredge miners, small family 
mines, junior mining companies, and major mining companies. Our members 
look for and produce gold, silver, platinum, lead, zinc, copper, coal, 
limestone, sand and gravel, crushed stone, armor rock, and other 
materials. Many of our members have federal mining claims.
    This is an important bill for small miners in Alaska who know how 
to mine but do not have an office staff that monitors the myriad of 
necessary filings. The minor changes proposed will correct a problem 
that has adversely impacted a number of these small family mines over 
past several years.
    Senate Bill 303 makes it clear that the cure provision, already in 
the law, applies to the failure to timely file a small miner waiver 
application or affidavit of annual labor. A question has arisen whether 
the original language of the statute included these situations. The 
bill also will aid two individuals who have lost their claims and their 
livelihoods by this type of clerical error and were not able to pursue 
a cure under the existing inflexible interpretation.
    Thank you for holding a hearing on this matter. We urge prompt 
passage of Senate Bill 303 by the Committee.
            Sincerely,
                                               Fred Parady,
                                                Executive Director.
                                 ______
                                 
                                        Grand Canyon Trust,
                                     Flagstaff, AZ, March 29, 2012.
Hon. Ron Wyden,
Chair, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, Committee on 
        Energy and Natural Resources, U.S. Senate, Washington, DC.
In re: S.1129

    Dear Chair Wyden and Ranking Member Barrasso,
    Grand Canyon Trust respectfully requests this letter be included in 
the official record.
    S. 1129 would fail the public, who are legitimate stakeholders in 
management of grazing, just as permittees are.
    1. S. 1129 would extend the length of a term-grazing permit on 
Forest Service and Bureau of Land Management lands from 10 to 20 years.
    Locking term permits into a once-every-20-year review will merely 
increase a growing sense of many that public lands livestock grazing 
may have to be eliminated because it is publicly unaccountable while so 
often directly and/or indirectly causing or exacerbating adverse 
environmental impacts to vegetation, soil, streams, fish, and/or 
wildlife.
    The public must insist on accountability on their public lands. 
Reviewing the potentially adverse conditions associated with a given 
term permit once every two decades is patently unresponsive to the 
public, science, and climate trends.
    2. S. 1129 would allow for a publicly unaccountable ``categorical 
exclusion'' from public review of conditions on an allotment.
    The permit renewal process is one of the few chances for the public 
to participate in public lands grazing management in accordance with 
the National Environmental Policy Act (NEPA), the Federal Lands Policy 
and Management Act (FLPMA) and National Forest Management Act (NFMA). 
Under S, 1129, most term grazing permits would be exempt from any 
meaningful public environmental review.
    The use of categorical exclusions is already allowed under NEPA 
regulations for decisions that actually have no environmental impact. 
It is telling that the federal agencies rarely even attempt to issue or 
renew a term permit under a categorical exclusion, knowing as they do 
that livestock grazing alone and in conjunction with other activities, 
e.g., oil and gas development and motorized dispersed camping, has 
multiple and often severe impacts to wildlife, fish, vegetation, soil, 
and water systems.
    3. S, 1129 would establish a special track for administrative 
review available only to grazing permittees.
    Livestock grazing is by its very nature a multi-stakeholder issue, 
because of livestock impacts so often documented and observed on water 
systems, fisheries, big game, birds, flowers, springs, aspen, 
streambanks, and other ecosystem services depended upon by downstream 
communities, hunters, anglers, campers, and wildlife-watchers. The 
application of particular appeal provisions in S, 1129 that apply only 
to permittees are discriminatory.
    The review of allotment conditions as well as agency responses to 
allotment conditions that need improvement must be appealable equally 
by all stakeholders--permittee and non-permittee alike.
    Grand Canyon Trust works closely with permittees, the Forest 
Service, BLM, conservationists, scientists, local residents, and local 
and state agencies in numerous term permit decisions. The intent of S. 
1129 to eliminate all incentives for such collaborative work through 
unaccountable term permit issuance and renewal is fundamentally 
arbitrary and hostile to the vast majority of stakeholders in the 
nation's federal lands.
            Sincerely,
                                        Mary O'Brien Ph.D.,
                                      Utah Forest Program Director.
                                 ______
                                 
    Statement of Jon Marvel, Executive Director, Western Watersheds 
                          Project, on S. 1129
I. Introduction
    The following comments are submitted on behalf of the staff and 
members of Western Watersheds Project,\1\ an environmental conservation 
organization based in Hailey, Idaho, with additional offices in Boise, 
Idaho, Arizona, Montana, Wyoming, California, and Utah. Western 
Watersheds Project works to protect and restore western watersheds and 
wildlife through education, public policy initiatives and litigation 
with a primary focus on the negative impacts of livestock grazing on 
250,000,000 acres of public lands. Western Watersheds Project includes 
a staff and active volunteer membership of scientists, former agency 
personnel, and citizens who have intimate first-hand knowledge and on-
the-ground experience with the management and conditions of wildlife 
populations and the hundreds of millions of acres of public lands that 
are the subject of the legislation being considered at this time.
---------------------------------------------------------------------------
    \1\ www.WesternWatersheds.org
---------------------------------------------------------------------------
    WWP's active involvement in public lands management includes public 
oversight of Department of Interior and Department of Agriculture 
federal regulation and rule-making efforts, federal landscape-level 
management plans, federal site-specific grazing decisions, and all 
federal actions involving the administration of livestock grazing on 
federal public lands. Our day-to-day activities involve reviewing, 
documenting and often challenging agency implementation of federal 
laws. It is with this interest and experience that Western Watersheds 
Project urges the Subcommittee on Public Lands and Forests to oppose S. 
1129 in its entirety.
II. S.1129 Misses the Mark
    Proponents of S. 1129 and Western Watersheds Project share a common 
recognition that there exist significant problems in the administration 
of the federal grazing program. It is true that the federal grazing 
programs need improving. However, the main problem with the federal 
public lands grazing program is not the permit length, the National 
Environmental Policy Act requirements, or the administrative review 
process that S.1129 seeks to remedy. The problem is that federal 
agencies' administration of public lands across the west has failed to 
meet very basic environmental standards as directed by Congress in the 
agencies' respective organic acts\2\ and as established by other 
environmental statutes and direction. This failure to lawfully 
administer grazing on federal public lands is ubiquitous across the 
western landscape.\3\ The current bill is designed less to improve 
conditions than to entrench them in spite of a great majority of 
Americans' clear interest in clean water, abundant wildlife, and 
healthy ecosystems.
---------------------------------------------------------------------------
    \2\ Federal Land Policy Management Act, National Forest Management 
Act, etc.
    \3\ GAO. 1993. Rangeland Management: BLM's Range Improvement 
Project Data Base Is Incomplete and Inaccurate. RCED-93-92. General 
Accounting Office. Washington, DC. GAO; GAO. 1992. Rangeland 
Management: Interior's Monitoring Has Fallen Short of Agency 
Requirements. RCED-92-51. General Accounting Office. Washington, DC. 
GAO; GAO. 1990. Public Rangelands: BLM Efforts to Prevent Unauthorized 
Livestock Grazing Need Strengthening. RCED-91-17. General Accounting 
Office. Washington, DC GAO; GAO. 1988. Public Rangelands: some riparian 
areas restored but widespread improvement will be slow. RCED-88-105. 
General Accounting Office. Washington, DC; GAO. 1988. Public 
Rangelands: More Emphasis Needed on Declining and Overstocked Grazing 
Allotments. RCED-88-80. General Accounting Office. Washington, DC.
---------------------------------------------------------------------------
    Each substantive part of S. 1129 would change federal public lands 
grazing policy to the detriment of land managers' ability to properly 
manage, the public's interest, and the condition of the landscape 
itself. For example:
SEC. 2. Extends grazing permits and leases to last 20 years instead of 
        the current 10-year terms.

  <bullet> Grazing permits and leases would outlast the Resource 
        Management Plans that guide them, making overarching changes 
        harder to implement.
  <bullet> Limits opportunities for public and agency oversight, since 
        most allotments only get evaluated and monitored in advance of 
        permit or lease renewals, and limits opportunities to identify 
        and address adverse impacts.
  <bullet> Fails to address the need for change in response to changing 
        public values, environmental conditions, and legal obligations 
        in a timely fashion.
  <bullet> This would affect thousands of permits that have already 
        been reissued for ten years under Congressional riders that 
        have endured decades of environmental degradation given agency 
        inattention. In some cases, a 20 year renewal would mean up to 
        40 years without environmental oversight.

    Backlog in the permit renewal process exists because the on-the-
ground environmental conditions of allotments are problematic, thus 
environmental review and scientifically justifiable response is 
properly demanded of the agency under the law. Arbitrarily deferring 
attention and responsive management for an additional decade would 
sweep those problems under the rug and violate the public trust 
responsibilities of the agencies.
SEC. 3. SEC. 405. RENEWAL, TRANSFER, AND REISSUANCE OF GRAZING PERMITS 
        AND LEASES.
            (c) Terms and conditions continue until the permit or lease 
                    is reissued

  <bullet> Where a permit was extended for 20 years, this proposed 
        change would mean that agencies would not be able to 
        incorporate new information based on overarching guidance such 
        as that in a land use plan or for emerging science for nearly 
        two decades.
            (e) (1) Categorically excludes permit and lease renewals 
                    from the requirement to prepare an environmental 
                    analysis if the decision continues the current 
                    grazing management of the allotment.

  <bullet> The determination to continue the current management of the 
        allotment should be made in the context of a range of 
        alternatives and only after taking a hard look in a full 
        environmental analysis. The change proposed under S.1129 
        subverts NEPA by requiring the land managers to determine at 
        the outset what the outcome would be. Without a full assessment 
        of resource conditions, a review of the environmental context, 
        an updated compilation of current management and public 
        resources, there is no basis for determining to continue 
        current management.
  <bullet> Categorically excluding permit renewals disenfranchises 
        public lands users by limiting their ability to participate in 
        the full NEPA process. Without environmental review, there is 
        no opportunity for the agency to solicit and consider new 
        information and evidence that could help in decision-making.
            OR, (2) If only minor modifications to the permit are 
                    required, a categorical exclusions will be applied 
                    when monitoring indicates conformance with Land Use 
                    Plan objectives and there are no extraordinary 
                    circumstances.

  <bullet> Any modifications to a permit should be considered within 
        the context of full NEPA. This subpart fails to identify who 
        would be making the determinations about which modifications 
        are necessary, fails to define ``minor,'' and leaves the 
        application of the categorical exclusion to manager discretion, 
        with no public involvement.
  <bullet> Monitoring results should be documented, disclosed and 
        compared with Land Use Plan objectives in a way that is 
        transparent and defensible, i.e. through a full environmental 
        analysis.

    Taken together, subparts 1 and 2 of this section would essentially 
allow nearly all management to be done without any public 
participation, contrary to the provisions of NEPA, the Federal Lands 
Policy and Management Act (FLPMA) and National Forest Management Act 
(NFMA).
            (f) Allows Secretary the sole discretion to set the timing 
                    for grazing permit renewals where an EA does need 
                    to be completed under (e)(1) and (2), and the 
                    analysis to be scheduled with consideration of the 
                    environmental significance of the allotment and the 
                    available funding.

  <bullet> Paired with Sec.  405(c), this would allow grazing permit 
        renewals to be deferred indefinitely on lands where an 
        environmental analysis is required, i.e. the lands where 
        monitoring does not support conformance with Land Use Plan 
        objectives, where more than minor modifications are necessary, 
        and where management changes are necessary.
  <bullet> This incentivizes underfunding the range program, because 
        without funds, no full NEPA analysis could be required and no 
        changes would have to be made. Too much is left to Secretarial 
        discretion that remain legally mandated instead.
  <bullet> Basing environmental analysis on funding considerations 
        allows congressional budgets to dictate the conditions of our 
        public lands and undermines other regulations requiring 
        oversight at regular and frequent intervals.

    Ultimately, this section emphasizes maintaining the status quo on 
most allotments and limits the application of NEPA to very few permit 
renewals. Without full oversight and public participation, the non-
livestock uses of these federal lands are de-prioritized and the 
current conditions and management will persist indefinitely.
SEC. 4. APPLICABILITY OF ADMINISTRATIVE PROCEDURE ACT TO GRAZING 
        APPEALS. (a) and (b) amend 16 USC 1612 and 43 USC 175 to 
        establish permittee appeals in accordance with the APA.
  <bullet> This section creates separate appeals processes for the 
        permittee and the public, which is unfair since all Americans 
        have equal stake in public lands management.
  <bullet> Permittee appeals cause the decision to automatically be 
        suspended pending resolution, creating a de facto automatic 
        ``stay'' that could last years. (Unless the Secretary declares 
        an ``emergency regarding the deterioration of resources.'') 
        This is the reverse of the burden on the public, which requires 
        the demonstration of likely irreparable harm if the decision is 
        to go forward. The burden of proof to stay a grazing decision 
        should be the same, no matter who brings the appeal.
  <bullet> Appeals processes can last years, and under the proposed 
        legislation, permittee appeals would automatically forestall 
        agency-approved changes while the appeals are resolved, rather 
        than the current process wherein a petition for stay must be 
        granted in consideration of the facts of the appeal. Even 
        frivolous appeals could thwart management for years.
  <bullet> Permittee appeals would also be provided an evidentiary 
        hearing, which would make FS grazing decisions subject to 
        external review rather than line officer adjudication. This 
        differs from the current public appeals process and will be 
        very different if the appeals regulations are modified to the 
        ``objection process'' as described under the Healthy Forests 
        Restoration Act (HFRA).

    None of these legislative changes to agency regulations would 
address the real problems of the public lands' grazing programs: the 
direct and indirect ecological impacts of this land use in the arid 
west and the mismanagement that has plagued the agency administration 
since the Taylor Grazing Act was enacted. Instead, S. 1129 effectively 
directs the land management agencies to turn a blind eye to the 
environmental impacts on the ground, reducing and outright eliminating 
the frequency by which those publicly supported environmental standards 
are monitored, considered and enforced pursuant to law.
III. S.1129 Ignores the Environmental Consequences of the Livestock 
        Grazing Program
    Public lands ranching is the most ubiquitous use of public lands in 
the country, occurring on over 250,000,000 acres of land, an area 
roughly the size of the states of California and Texas combined. Make 
no mistake, despite the unfounded claims of proponents of S.1129, 
researchers have suggested livestock grazing is ``the most severe and 
insidious of the impacts on the rangeland'' and that grazing is the 
``most insidious and pervasive threat to biodiversity on 
rangelands.''\4\ Wildlife and species populations have declined as 
direct conflict with livestock and shared habitats sustain a myriad of 
ongoing impacts from public lands ranching. Direct impacts associated 
with livestock includes the widespread pollution of water,\5\ the 
removal of vegetation--i.e. direct competition with wildlife for 
food,\6\ the alteration of complex habitat structures and composition 
including the most significant contributor to desertification of the 
western landscape,\7\ the physical impairment of stream-bank (riparian) 
habitats\8\ that a majority of wildlife depend on for survival in the 
semi-arid and arid west, soil disturbances which allow for displacement 
of native vegetation with exotic weeds,\9\ the introduction and 
continued exposure of disease and a host of additional direct impacts.
---------------------------------------------------------------------------
    \4\ Fleischner, ``Ecological Costs,'' 629. Noss and Cooperrider, 
Saving Nature's Legacy, 221, 230, 258. See also generally Lauenroth et 
al., ``Effects of Grazing on Ecosystems,'' 69.
    \5\ Nearly all surface waters in the West are fouled with livestock 
wastes that produce harmful waterborne bacteria and protozoa such as 
Giardia. Suk, T., J. L. Riggs, B. C. Nelson. 1986. Water contamination 
with giardia in back country areas in Proc. of the National Wilderness 
Conference. Gen. Tech. Rep. INT-212. USDA-Forest Service, Intermountain 
Res. Stn. Ogden, UT: 237-239. Livestock grazing is the single largest 
contributor to non-point source pollution in New Mexico, accounting for 
approximately 15 percent of the water quality impairments statewide. J. 
Rankin. Plan to take better care of water quality is earning accolades; 
conservationists disagree. Albuquerque Journal (May 15, 2005).
    \6\ In one study, scientists found that domestic livestock grazing 
consumed 88.8 percent of the available forage (cattle and 
[domesticated] horses 82.3 percent, free-roaming horses 5.8 percent, 
sheep 0.7 percent), leaving 11.2 percent to wildlife species (mule 
ddder 10.1 percent, pronghorn 0.9 percent, bighorn sheep 0.1 percent, 
elk 0.1 percent). Cited in R.R. Kindschy, C. Sundstrom, and J.D. 
Yoakum, 1982, Wildlife habitats in managed rangelands-the Great Basin 
of southeastern Oregon: pronghorns, Gen. Tech. Rep. PNW 145, USDA-
Forest Service; USDI-BLM, Portland, OR: 6.
    \7\ ``Improving grazing . . . has been the most potent 
desertification force, in terms of total acreage [affecting 225 million 
acres or 351,562 square miles], within the United States.'' Chaney, E., 
W. Elmore, W.S. Platts. 1993. Livestock grazing on western riparian 
areas. Northwest Resource Information Center. Eagle, ID: 5 (fourth 
printing; produced for the Environmental Protection Agency). Council on 
Environmental Quality. 1980. The global 2000 report to the president of 
the United States: entering the twenty-first century. Pergamon Press. 
New York, NY.
    \8\ Livestock grazing has damaged 80 percent of the streams and 
riparian ecosystems in the arid West. Belsky, A.J., A. Matzke, S. 
Uselman. 1999. Survey of livestock influences on stream and riparian 
ecosystems in the western United States. J. Soil & Water Conserv. 
54(1): 19 (citations omitted). ``Extensive field observations int he 
late 1980s suggest riparian areas throughout much of the West were in 
the worst condition in history.'' Chaney E., W. Elmore, W.S. Platts. 
1993. Livestock grazing on western riparian areas. Northwest Resource 
Information Center. Eagle, ID: 5 (fourth printing; published by the 
Environmental Protection Agency). In 1988 the General Accounting Office 
concluded that ``poorly managed livestock grazing is the major cause of 
degraded riparian habitat on federal rangelands.'' GAO. 1988. Public 
Rangelands: some riparian areas restored but widespread improvement 
will be slow. RCED-88-105. General Accounting Office. Washington, DC: 
11
    \9\ ``At the community scale, livestock may be the major factor 
causing weed invasions.'' Livestock cause weed invasion by grazing and 
trampling native plants; clearing vegetation, destroying the soil crust 
and preparing weed seedbeds through hoof action; and transporting and 
dispersing seeds on their coats and through their digestive tracks. 
Belsky, A.J. and J.L. Gelbard. 2000. Livestock grazing and weed 
invasions in the arid west. Oregon Natural Desert Association. Bend, OR 
(citations omitted).
---------------------------------------------------------------------------
A. Water Quality
    Mismanagement of public lands ranching has resulted in the 
diminished quality and quantity of water originating from mountain 
springs and streams, many of which once ran clear and clean enough to 
drink from directly, a western American pastime. On several public land 
allotments in Wyoming, the Bighorn National Forest conducted water 
quality testing on streams running through permitted allotments and 
found levels of E coli so high that the water was unsafe to touch with 
exposed skin, let alone drink from as is the intent of state standards 
promulgated by Congress as established by the Clean Water Act. In 2010, 
the Journal of Water and Health published the results of an independent 
study that was conducted in the Sierra Nevada Mountains of California, 
the chief source of drinking water for as many as 20 million American 
citizens.\10\ Researchers found livestock grazing on public lands to be 
the primary source of fecal coliform and E. coli contamination of 
drinking water. In addition, researchers found that livestock may be 
depositing enough Giardia-transmitting protozoa to infect the entire 
city of Los Angeles each day. The Forest Service refuses to 
appropriately respond by reducing livestock impact to California's 
drinking water supply. On a vast majority of waters originating on 
public lands grazed by livestock, agencies refuse to test, let alone 
adequately consider water quality impacts in their environmental 
reviews of permit.
---------------------------------------------------------------------------
    \10\ Derlet, R.W., C.R. Goldman, and M.J. Connor. 2010. Reducing 
the impact of summer cattle grazing on water quality in the Sierra 
Nevada Mountains of California. Journal of Water and Health. 8(2): 326-
333.
---------------------------------------------------------------------------
B. Infrastructure
    In addition, livestock grazing infrastructure, commonly bought and 
paid for by the American tax-payer, has quite literally tamed the once 
wild West. Hundreds of thousands of miles of fencing on public lands 
have obstructed natural wildlife movement and migration, and water 
developments built to facilitate livestock use of public lands have 
dewatered springs, seeps, and streams which serve as critical habitats 
for a variety of wildlife across the west.
    In administering public land ranching, agencies have subjected 
public lands to widespread habitat alteration projects. One example 
took place on public lands just outside of Yellowstone National Park, a 
renowned public landscape celebrated by a majority of Americans for its 
wildlife attraction and breathtaking beauty. On one grazed public 
landscape near the Antelope Basin/Elk Lake area of Madison Valley over 
50 square miles of open, mountain sagebrush grassland habitat was 
subject to aggressive habitat manipulation, managers prescribed 
herbicide eradication of sagebrush and forbs, multiple prescribed 
burnings, and other impacts significantly diminishing wildlife habitat 
to provide more forage for livestock use of the public land. This type 
habitat manipulation to maintain and increase livestock use has 
occurred, and continues to occur, on millions of acres of western 
public lands that once teemed with wildlife and championed other 
recreational opportunities impaired by livestock that the Department of 
Interior recently found contribute an order of magnitude greater 
economic value to local economies than public lands ranching.\11\
---------------------------------------------------------------------------
    \11\ Report: The Department of Interior's Economic Contributions--
June 21, 2011
---------------------------------------------------------------------------
    C. Species and Habitat
    As a direct consequence of agencies' continued prioritization of 
livestock use on public lands and the widespread failure of management 
to make ``significant progress'' toward improving public lands habitat 
conditions on the ground on a significant number of permits throughout 
the west, species endangerment continues to escalate at an alarming 
rate. Livestock grazing is a contributing factor to more than 175 
threatened and endangered species,\12\ twenty one percent of imperiled 
species considered for listing on the Endangered Species Act, an amount 
roughly equal to logging and mining combined.\13\ Agencies have been 
unable or unwilling to adequately respond by reducing the duration of 
livestock use or the number of livestock permitted in order to curtail 
impact.\14\ Political pressure ensures that livestock is always the 
unchanged factor in management decisions and managers spend reams of 
bureaucratic resources and time justifying status quo levels of use in 
light of the obvious impact on the ground. As habitat continues to 
diminish, species continue to decline and the administrative burden in 
response to clear Congressional intent to prevent species extinction, 
make significant progress toward habitat improvement, and protect 
environmental values continues to build.
---------------------------------------------------------------------------
    \12\ USDI-BLM, USDA-Forest Service. 1995. Rangeland Reform '94 
Final Environmental Impact Statement. USDI-BLM. Washington, DC: 26. See 
also B. Czech, P. R. Krausman, P.K. Devers. 2000. Economic associations 
among causes of species endangerment in the United States. BioSci. 
50(7): 594 (table 1) (reporting that authors' analysis of several 
studies suggests that 182 species are endangered by livestock grazing) 
and USDA-NRCS. 1997. America's private land: a geography of hope. 
Program Aid 1548. USDA-Nat
    \13\ Wilcove, D. S., D. Rothstein, J Dubow, A Phillips, E. Losos. 
1998. Quantifying threats to imperiled species in the United States: 
assessing the relative importance of habitat destruction, alien 
species, pollution, over-exploitation and disease. BioScience 48(8): 
610.
    \14\ Candidate Species List-U.S. Fish and Wildlife Service http://
ecos.fws.gov/tess__public/pub/
SpeciesReport.do?listingType=C&mapstatus=1
---------------------------------------------------------------------------
IV. S.1129 Does Not and Cannot Solve the Problems of Public Lands 
        Ranching
    The livestock industry wants S.1129 to protect it from 
``instability,'' and industry testimony on the bill claimed 20-year 
permits are critical for securing bank loans and leveraging assets. 
Grazing permits are a privilege, not a right, and they can be withdrawn 
at any time. This was the intent of the Taylor Grazing Act (43 U.S.C. 
Sec.  315b), has been articulated in agency regulations (e.g. 36 C.F.R. 
222.3(b)), and upheld by the Supreme Court as recently as 2000.\15\ The 
stability of a livestock operation comes from the operators' 
conformance with the applicable laws and regulations; if a grazing 
operation is in compliance with management parameters, the permit will 
be renewed. Current grazing operations have priority to renew on the 
allotment. We know of very, very few cases where grazing privileges 
have been revoked, and those instances involved long-term trespass or 
other legal violations. The industry has not been destabilized by ten-
year permits and has not provided compelling evidence that a longer 
permit would do anything other than disenfranchise and diminish other 
public land users and the agencies' opportunities to review their 
operations impact on the ground and conformance with the law.
---------------------------------------------------------------------------
    \15\ See Public Lands Council v. Babbitt, 529 U.S. 728, 741 (2000)e
---------------------------------------------------------------------------
    The livestock industry also claims that S.1129 will prevent 
fragmentation of western landscapes by preserving continuous open 
space. This is flatly unfounded. The sale of private lands is 
independent of grazing lease renewal; private land-owners sell for a 
variety of reasons, none of which are tied to grazing permit expiration 
dates.
    Whereas pro-conservation litigation gets blamed for administrative 
difficulties, in reality, this litigation is brought in an attempt to 
improve the process. Conservation interests cannot win lawsuits unless 
the agency is found to be in violation of the law, which requires of 
conservationists that they demonstrate the lofty legal standard that 
agency has acted in an ``arbitrary and capricious'' manner in making 
their decisions. S.1129 seeks to undermine this pro-active 
participation by eliminating opportunities for non-industry interests 
to weigh in. It allows the fox to guard the hen house and prevents the 
farmer from ever counting the flock. It is for these reasons that the 
conservation community opposes S.1129 and, presumably, why the agencies 
themselves have serious concerns and oppose the bill.
V. Conclusion
    Because S.1129 does nothing more than promote administrative 
practices that would further degrade our public lands and deter public 
participation, the bill should be soundly rejected. It offers no remedy 
for the problems that do exist with the federal lands grazing programs, 
and instead guarantees that those problems will get worse. We strongly 
urge the Senate's Subcommittee on Public Lands and Forests of the 
Committee on Energy and Natural Resources to reject S.1129 and 
acknowledge that the administrative problems with the federal public 
lands grazing program cannot be solved by entrenching special interests 
and removing the oversight and protection of federal laws.
    Respectfully submitted this 28th Day of March 2012.
                                 ______
                                 
                                   San Juan County Council,
                                 Friday Harbor, WA, March 20, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 703 Hart 
        Senate Office Building, U.S. Senate, Washington, DC.
    Dear Chairman Bingaman:
    We are writing to offer our views on S. 1559, a bill to establish 
the San Juan Islands National Conservation Area in the San Juan 
Islands, Washington, which will be the subject of the Committee's 
hearing on March 22, 2012.
    The great majority of the locations comprising the proposed 
National Conservation Area are in San Juan County.
    The San Juan County Council supports without qualification S. 1559 
and sincerely thanks Senators Cantwell and Murray for their leadership 
on this issue and their ongoing dedication to protecting this 
nationally important area.
    The lands in question include popular recreation areas, three 
historic lighthouses, a number of islands, headlands, and ecologically 
important areas. These BLM properties have clear historic, ecological, 
scenic and recreational value and many members of the community have 
invested a great deal of time and energy conserving these values.
    As specified in S. 1559, the National Conservation Area planning 
process would allow citizens of the county to have considerable input 
into establishing management goals and practices for these areas. The 
NCA designation will provide a great degree of certainty in how these 
lands will be managed into the future.
    For these reasons the San Juan County Council adopted a resolution 
of support for a National Conservation Area designation in November, 
2010 [Resolution 48-2010]. Our support for a National Conservation Area 
designation remains undiminished and we urge the speedy passage of S. 
1559. We ask that this letter and the attached copy of Resolution 48-
2010 be made part of the hearing record.
            Sincerely,
                                               Lovel Pratt,
                                            Member, District No. 1.
                                          Richard Peterson,
                                            Member, District No. 2.
                                          Howard Rosenfeld,
                                             Member, District No. 3
                                           Richard Fralick,
                                            Member, District No. 4.
                                              Patty Miller,
                                             Chair, District No. 5.
                                            Jamie Stephens,
                                        Vice-Chair, District No. 6.
                                 ______
                                 
  Islanders for the San Juan Islands National Conservation 
                                                      Area,
                                                    March 21, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 703 Hart 
        Senate Office Building, U.S. Senate, Washington, DC.
    Dear Chairman Bingaman:
    On behalf of Islanders for the San Juan Islands National 
Conservation Area, I am writing to offer our views on S. 1559, a bill 
to establish the San Juan Islands National Conservation Area in the San 
Juan Islands, Washington, which will be the subject of the Committee's 
hearing on March 22, 2012. Islanders for the San Juan Islands National 
Conservation Area is a group of citizens in the San Juan Islands that 
has worked for three years in pursuit of permanent protection for the 
BLM lands in the San Juan Islands and a strong community voice in the 
management of those lands. We strongly support S. 1559 (The San Juan 
Islands National Conservation Area Act) and urge its speedy passage.
    The San Juan Islands National Conservation Area Act (S. 1559) would 
protect important lands

          The bill provides permanent protection to lands that are 
        treasured by our community. These lands provide recreation for 
        residents of and visitors to our islands, are home to 
        diminishing natural habitats, house historic lighthouses, 
        protect sites of local cultural and archaeological 
        significance, provide a natural classroom for our children and 
        help make the San Juan Islands an attractive destination for 
        visitors, residents and businesses. These lands are heavily 
        used, with over 65,000 visitors a year. Our local economy is 
        heavily dependent on tourism and that tourism is based on our 
        unique and healthy natural landscape. The bill would 
        permanently protect important parts of that landscape.

The San Juan Islands National Conservation Area Act (S. 1559) would 
        only affect BLM lands

          The bill only affects the BLM lands in the islands. As 
        locals, we are particularly interested in assuring that the 
        bill protects those lands without having impact on neighboring 
        private property. The bill also ensures that any future 
        acquisitions in the area would be only through exchange, 
        donation, or purchase from a willing seller. We believe these 
        aspects of the bill are in the best interest of the community.
The San Juan Islands National Conservation Area Act (S.1559) gives the 
        community a voice

          The community is strongly impacted by the way these lands are 
        managed and needs to have a voice in that management. The bill 
        directs the BLM to work closely with the community in 
        developing the management plan for the National Conservation 
        Area. This community voice in the management of these lands is 
        an important goal of ours.
The San Juan Islands National Conservation Area Act (S.1559) has broad 
        community support

          The lands affected by this bill are currently cared for by 
        the community. Volunteer groups monitor these lands, build and 
        maintain trails on these lands, restore and interpret the 
        historic lighthouses on these lands and conduct citizen science 
        research on these lands. The BLM lands in the San Juan Islands 
        make up less than one quarter of one percent of BLM lands in 
        Washington State but attract more volunteer hours per year than 
        the rest of the state's BLM lands combined. The groups that 
        engage in that volunteer work are among the driving forces in 
        our efforts to seek a National Conservation Area designation 
        for these lands. The broader community is also strongly behind 
        this protection. We have received support from over 300 local 
        governments, businesses, organizations and individuals. From 
        the governments of San Juan, Skagit and Whatcom Counties to the 
        Samish Indian Nation and the San Juan Visitors Bureau, the 
        community has come out strongly in support of a National 
        Conservation Area designation for these lands.

    The Islanders for the San Juan Islands National Conservation Area 
supports without qualification S. 1559 and sincerely thanks Senators 
Cantwell and Murray for their leadership on this issue and their 
ongoing dedication to protecting this nationally important area.
    We have attached a list of governments, businesses, organizations 
and individuals who have written in support of this effort as well as a 
description of some of the unique characteristics of these lands.
            Sincerely,
                                                 Asha Lela,
                                                             Chair.
                                 ______
                                 
Statement of The Wilderness Society, Sheep Mountain Alliance, San Juan 
Citizens Alliance, Ridgway-Ouray Community Council, Silverton Mountain 
   School, Colorado Mountain Club, Colorado Environmental Coalition, 
 Colorado Wild, Environment Colorado, Campaign for America's Wilderness
                               on s. 1635

    On behalf of The Wilderness Society and its half million members 
and supporters nationwide, and the organizations listed above, we would 
like to thank the Committee for considering the San Juan Mountains 
Wilderness Act. This bill would not only protect some of Colorado's 
beloved scenic wild country, it is also the product of years of 
painstaking research and consultation with a myriad of interested and 
affected stakeholders in southwest Colorado. We would especially like 
to thank Senator Udall for his long-standing dedication to land 
protection, and commitment to protecting these deserving areas. We also 
want to thank Senator Michael Bennet, who is an original cosponsor of 
S. 1635.
    Colorado has a long and rich tradition of wilderness protection, 
with nearly twenty bills enacted over the last 45 years. All of these 
have shared the characteristics of broad citizen and stakeholder 
support and cooperation among the State's delegation members. The San 
Juan Mountains Wilderness Act is carrying on this proud Colorado 
tradition.
    This legislation had its genesis with the interest of San Miguel 
County citizens in adding deserving wild land areas to the already 
designated Mt. Sneffels and Lizard Head Wildernesses, and adding 
statutory protection to several other spectacular and qualifying 
backcountry landscapes. Residents of neighboring counties also 
advocated protection for deserving contiguous lands outside San Miguel 
County, and by the Spring of 2009, the proposal included lands in three 
counties (San Miguel, Ouray, and San Juan), and enjoyed nearly 
universal support in the region. More detail about that follows.
    Colorado's San Juan Mountains offer a myriad of benefits and 
services to residents of Colorado and visitors from across the nation. 
Spectacular mountain vistas, clean water and air, ongoing ranching 
operations, healthy wildlife populations, and a wide variety of world-
class recreational opportunities, from hunting and angling to skiing, 
hiking, and boating. In decades past, hard rock mining was a major 
force in the region's development; evidence of this history is 
scattered across the landscape in the form of weathered mill sites, 
mine shafts, and tailings piles. As the economic drivers in the 
intermountain West steadily evolved during the post-war 20th century, 
and outdoor recreation grew in popularity, local communities looked 
increasingly toward tourism and recreation as a significant part of 
their economic foundations. Visitors come to the region in large 
numbers to enjoy not only backcountry challenges, but also to 
experience the area's rich history. Thousands of tourists ride the 
original narrow gauge train from Durango to Silverton each year, to 
wander the town's historic main street or learn about the region's 
mining history.
    As one measure of this modern economy, hunting and fishing alone 
brought in, in direct expenditures, $7.2 million in San Miguel County, 
$2.4 million in Ouray County, and $1.3 million in San Juan County in 
2002. Hunting and fishing groups routinely emphasize the importance of 
protected lands as the basis for healthy game populations.
    As the economy of the San Juan Mountains region has evolved into 
what it is today, and as more and more people visit to experience the 
natural and recreational values offered by the area's public lands, the 
protection of those lands has become increasingly valued by local 
residents, stakeholders, and elected officials. This phenomenon has 
occurred concurrent with our increasing knowledge of the importance of 
large areas of undisturbed land for a broad array of wildlife, both to 
maintain functioning natural systems, and for the human benefits that 
healthy wildlife populations provide. Protective designations also help 
to ensure the resiliency of these areas in the face of climate change.
    Protected public lands provide a critical benefit to local 
communities in the form of clean water and air. Each of the areas 
proposed for permanent protection in this legislation contain portions 
of the watersheds that comprise the water supplies of Telluride, Ouray, 
Ridgway, and Silverton. Wilderness will keep those watersheds intact 
and ensure they are able to provide clean water to those communities in 
perpetuity.
Natural and Human Values of the San Juan Mountains
    The San Juan Mountains, and pointedly the areas proposed for 
protection in this legislation, offer a rich array of natural and 
environmental values. The existing Mt. Sneffels and Lizard Head 
Wilderness areas are the headwaters of the San Miguel, Dolores, and 
Uncompahgre Rivers, and many of their tributaries, such as Deep Creek, 
Dallas Creek, Bilk Creek, and Wilson Creek. Areas in the legislation 
make up large portions of the municipal water supplies for towns in all 
three counties. These waterways also offer some of the West's finest 
fishing opportunities-anglers from across the country come to southwest 
Colorado to fish for many species, including the iconic Colorado 
Cutthroat Trout.
    What wildlife of all kinds needs more than anything is space - 
large areas of land in which to feed, grow, and bear their young. The 
mountain areas in the legislation will expand the core habitat already 
protected in the Mt. Sneffels and Lizard Head Wildernesses, and 
increase the elevation range of existing protected areas by adding 
habitat rich down-slope areas. The Sheep Mountain designation would add 
another significant core habitat area, and improve the wildlife 
connectivity to protected areas on the San Juan National Forest, like 
the Weminuche Wilderness. These mountain designations will benefit 
existing populations of Black bear, elk, bighorn sheep, and bird 
species such as the white-tailed ptarmigan, and provide critical 
habitat for other wildlife such as Canada lynx and Northern goshawk.
    Moving down from the higher mountain areas, the proposed McKenna 
Peak Wilderness and mineral withdrawal for Naturita Canyon would 
protect mid-elevation lands critical as winter range for deer and elk 
(North Mountain, which borders McKenna Peak, contains one of the 
largest deer and elk herds in Colorado), as well as habitat for such 
species as mountain lion, bald eagle, and peregrine falcon. The mineral 
withdrawal proposed for Naturita Canyon would protect more of these 
vital lands, benefitting not only the resident deer, elk, bobcat, 
raptors and rare birds like the Mexican spotted owl; but a rich 
riparian zone as well.
    Ecosystem representation, or selecting areas for protection that 
represent a full range of habitats and vegetation types, is a way of 
ensuring protection of the species that rely on these various 
ecosystems for survival. The Nature Conservancy, which practices this 
``coarse filter'' method, estimates that 85% to 90% of all species in a 
region can be protected via ecosystem representation. Protecting down-
slope mountain landscapes, as well as mid-elevation areas like McKenna 
Peak and Naturita Canyon would expand ecosystem representation in the 
region; this helps fulfill the purposes not only of the 1964 Wilderness 
Act, but of conservation biology overall.
    Agriculture has a rich history in the San Juan Mountains, and not 
only provides a long-standing livelihood for multi-generational 
families, but also forms an essential part of the cultural fabric of 
the entire region. There are nearly a dozen working ranches with 
allotments that overlap the areas in the legislation. These ranch 
operators were all consulted as the legislation was crafted. One, Ouray 
County rancher Liza Clarke, owner of the Ferguson Family Ranch, wrote:

          I was happy to learn that the proposed boundaries avoid any 
        substantial conflict with existing uses and private property. I 
        understand that grazing leases will continue under any new 
        wilderness designation.'' ``I respectfully request that you 
        introduce legislation to expand the Sneffels Wilderness Area in 
        Ouray County. This proposal has widespread support in our 
        County and includes signature views, including Mount Sneffels 
        itself which is currently only partially contained in its 
        namesake Wilderness Area.''

    Recreation and tourism is the backbone of the San Juan Mountains 
regional economy. For visitors who come to explore the region's 
history, go on a jeep tour, or ride the Durango-Silverton train, the 
backdrop views of majestic mountain peaks is essential to the 
experience. Winter recreation is dominated by skiing, including the 
developed alpine resort of Telluride, the recently developed Silverton 
Mountain area, and Colorado's only heli-skiing operation. Backcountry 
skiing is hugely popular across the range.
    In the warmer months, recreational users comb the mountains. Hikers 
enjoy thousands of miles of trails, whether to see the spectacular 
views of the Telluride valley from atop its enclosing cliffs, or 
through a multi-day backpack into the beautiful Ice Lakes Basin out of 
Silverton. Climbers challenge themselves against the iconic 14,150 foot 
Mt. Sneffels, the rock walls near Telluride, and the famous frozen 
waterfalls just outside of Ouray. The San Juan Mountains are a world 
class destination for mountain biking, and many trails skirt the edges 
of the areas in S. 1635. The famous Hard Rock 100 footrace-one of most 
grueling of its kind in the nation-courses through the heart of the 
region.
Outreach to Regional Stakeholders
    The process of outreach for, and vetting of, the San Juan Mountains 
Wilderness proposal has been detailed and comprehensive. Thanks to the 
leadership of local citizens groups in the three counties - Sheep 
Mountain Alliance in San Miguel County, the Ridgway-Ouray Community 
Council in Ouray County, the Silverton Mountain School in San Juan 
County, and the San Juan Citizens Alliance for the McKenna Peak 
proposal-the original proposal was crafted with extensive and intimate 
familiarity of the landscapes of interest. Each of these local groups 
worked closely with their respective county governments in carefully 
considering the ramifications and benefits of protective designations. 
San Miguel County first expressed support for wilderness legislation in 
June 2007, followed a short time later by the Commission of Ouray 
County. San Juan County followed in 2009, with an endorsement of 
expanding the proposed Sheep Mountain Special Management Area.
    Extensive outreach to stakeholders that could directly or 
indirectly be affected by the legislation was conducted for over two 
years before legislation was introduced, involving painstaking work to 
consult with, and respond to, anyone with a stake in these 
designations. Every livestock operator with a permit in the proposed 
areas was contacted, as were the owners of private land inside the 
areas (mostly patented mining claims), water right holders, recreation 
interests, State agencies, and local governments. Numerous adjustments 
were made to the areas in the bill to accommodate concerns of these 
parties. Just a few examples follow.
    The Sheep Mountain area was originally proposed for-with strong 
local support-designation as wilderness. Early in the outreach process, 
wilderness advocates were approached by the helicopter-supported skiing 
company Helitrax, who informed us that Sheep Mountain was the heart of 
their operation, in which they land helicopters to drop off skiers. 
This particular use would not be allowed in a wilderness and therefore 
a compromise was crafted to accommodate this use while protecting the 
wild character of Sheep Mountain via a Special Management Area. This 
also includes a provision that would designate the area as wilderness 
if the company ever were to cease operations in the area.
    Another example of efforts to make the legislation work for 
stakeholders is with the Towns of Telluride and Ophir. Both Towns had 
either historic or potential new water supply facilities in the 
proposed areas (Telluride in the proposed Liberty Bell addition to Mt. 
Sneffels Wilderness, and Ophir in the Sheep Mountain SMA); staff from 
both Towns were consulted with to adjust boundaries to make sure that 
designations wouldn't interfere with the development or operation of 
these water supplies.
    Motorized recreation is an important piece of the recreational 
landscape in the San Juan Mountains, and thousands of visitors come 
each year to experience the Ophir Pass jeep road and Alpine Loop. Great 
care was taken to ensure that motorized routes would not be closed by 
the legislation, and boundaries were drawn or adjusted meticulously to 
achieve that. For example, the boundaries of McKenna Peak and Naturita 
Canyon were reduced significantly from what was originally proposed to 
eliminate known motorized routes. Similarly, the boundaries of the 
Whitehouse and Last Dollar additions to the Mt. Sneffels Wilderness 
were adjusted to provide for snowmobile access to backcountry huts 
operated by San Juan Huts for stocking and maintenance.
    Although southwest Colorado makes important contributions to energy 
production, the areas in this legislation are not part of that. No 
existing oil and gas leases are affected by the proposed designations, 
and exploratory wells recently drilled near McKenna Peak have not 
discovered developable deposits.
    A number of boundary adjustment recommendations were made to 
improve manageability or to eliminate specific potential conflicts. 
These changes assured a steadily increasing degree of support 
throughout the outreach and vetting process.
Support for the San Juan Mountains Wilderness Act
    The result of the consultation with numerous stakeholders and 
adjustments made to the proposal is legislation that enjoys support 
both deep and broad. Written support for the legislation has been 
received from:

  <bullet> San Miguel County Board of County Commissioners
  <bullet> Ouray County Board of County Commissioners
  <bullet> San Juan County Board of County Commissioners
  <bullet> Town of Telluride
  <bullet> Town of Ophir
  <bullet> Town of Mountain Village
  <bullet> Town of Ridgway
  <bullet> City of Ouray
  <bullet> San Miguel County Open Space Commission
  <bullet> San Miguel Conservation Foundation
  <bullet> Telluride Tourism Board
  <bullet> Telluride Open Space Commission
  <bullet> Rancher and grazing permittee Liza Clark
  <bullet> Hidden Lakes Home Owners Association
  <bullet> San Bernardo Home Owners Association
  <bullet> Many adjacent landowners
  <bullet> Telluride Helitrax
  <bullet> Hard Rock 100 Endurance Run
  <bullet> San Miguel County Sheriff
  <bullet> Prominent members of the local mountain biking community
  <bullet> Numerous local, regional, and national conservation and 
        recreation organizations.

    We hope that the information and history included here will be of 
help with Committee members as they consider the merits of S. 1635. The 
Wilderness Society along with all the other supporters of this 
legislation stand ready to help in any way, and we encourage the 
Members of this Subcommittee and the full Energy and Natural Resources 
Committee to support this legislation, and report it expeditiously for 
consideration by the full Senate.
    We'd like to again thank Senator Udall for his excellent work in 
crafting this legislation, and also thank the Subcommittee for the 
opportunity to submit our views on S. 1635.
                                 ______
                                 
                            Montana Wilderness Association,
                                        Helena, MT, March 19, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Senate Office Building, U.S. Senate, Washington, DC.
    Dear Chairman Bingaman,
    On behalf of the Montana Wilderness Association, and our more than 
5000 members, thank you for the opportunity to submit this written 
testimony in support of S. 1774, the Rocky Mountain Front Heritage Act. 
I also want to express my deep gratitude to Senator Baucus for 
sponsoring the Heritage Act. For the record, the Montana Wilderness 
Association strongly and enthusiastically supports the Heritage Act.
About the Montana Wilderness Association
    The mission of the Montana Wilderness Association is to protect 
Montana's wilderness heritage, quiet beauty, and outdoor traditions, 
now and for future generations. Founded 53 years ago by Montana 
hunters, conservationists and small business owners, The Montana 
Wilderness Association was established to prevent further loss of 
Montana's wilderness heritage. Our founders were instrumental in the 
passage of the Wilderness Act of 1964, and the Montana Wilderness 
Association subsequently led the fight to win designation for virtually 
every wilderness area in the state, including the Scapegoat, Absaroka-
Beartooth, Rattlesnake, Lee Metcalf, Great Bear, and Welcome Creek, as 
well as Wild and Scenic designations for the Flathead and Missouri 
rivers.
    Our members view Montana's remaining wild country as a public trust 
that should be managed so Montanans will always have access to great 
hunting, fishing, camping under the stars, and quiet mountain trails.
The Rocky Mountain Front
    Known as the place in Montana where the Great Plains meet the Rocky 
Mountains and where grizzly bears still venture out onto their native 
prairie habitat, the Rocky Mountain Front is a wild and rugged land 
that provides clean water for nearby communities and habitat for prized 
big game animals such as elk and bighorn sheep. By providing some of 
the highest quality backcountry experiences and opportunities for 
solitude, the Rocky Mountain Front supports a way of life for many 
Montanans. Whether it be hunting, fishing, camping, hiking, or just 
watching wildlife, the Rocky Mountain Front holds the essence of that 
what defines Montana. To put it simply, Montana would not be Montana 
without the Rocky Mountain Front.
    The backcountry recreation opportunities provided by the Rocky 
Mountain Front also have a significant economic impact on local 
communities. According to data collected by Montana Fish Wildlife and 
Parks over the past five years, sportsmen have been spending $10 
million each year as they hunt along the Rocky Mountain Front. It is 
the local hotels, restaurants, taverns, grocery stores, and gas 
stations that feel the benefits of this $10 million pulse of economic 
activity. Protecting the Rocky Mountain Front so backcountry recreation 
opportunities remain tomorrow as they do today will ensure the economic 
impact of the Rocky Mountain Front is sustained and local communities 
benefit well into the future. Protecting the Rocky Mountain Front will 
maintain a lifestyle and quality of life that attracts people to 
Montana's communities to establish new businesses and raise families as 
well as contribute to the current and future economic prosperity and 
stability of those communities.
The Rocky Mountain Front Heritage Act
    Often referred to as a ``made in Montana'' solution, the Heritage 
Act is the result of a five-year effort aimed at protecting the wild 
backcountry of the Rocky Mountain Front while ensuring livestock 
grazing opportunities and maintaining access for hunting, fishing, 
horseback riding, hiking, and camping. This effort required eight 
public meetings, countless kitchen table discussions, and small group 
meetings with local permittees, elected officials, and landowners. This 
locally driven collaborative effort resulted in many substantive 
changes being made to the Heritage Act. These changes to the Heritage 
Act ensure there is a place for a variety of uses and activities on the 
Rocky Mountain Front while still protecting the wild backcountry that 
makes the Front such a special place for both people and wildlife.
    The Heritage Act protects a substantial portion for the Rocky 
Mountain Front by designating approximately 67,160 acres of Lewis and 
Clark National Forest as additions to the Bob Marshall and Scapegoat 
Wilderness areas. In addition, the Heritage Act designates 208,112 
acres of Lewis and Clark National Forest and Bureau of Land Management 
lands as a Conservation Management Area. In this Conservation 
Management Area, The Heritage Act limits the construction of new roads 
while ensuring the public use of current motorized routes, which 
provide public access for hunting, fishing, biking, and grazing. These 
routes are also used to achieve vegetation management objectives such 
as thinning, post and pole, and firewood gathering.
    The Heritage Act also prioritizes the eradication and prevention of 
noxious weeds on approximately 405,272 acres of U.S. Forest Service and 
Bureau of Land Management lands along the Rocky Mountain Front. 
Prioritizing noxious weed eradication and prevention on public lands 
along the Rocky Mountain Front will help to protect adjacent private 
ranchlands and ensure important wildlife habitats remain intact.
    Through the designation of wilderness additions to the Bob Marshall 
and Scapegoat Wilderness Areas, the designation of a Conservation 
Management Area on U.S. Forest Service and Bureau of Land Management 
lands, and the prioritizing of the eradication and prevention of 
noxious weeds, the Heritage Act will maintain the wild backcountry and 
wildlife habitats that make the Rocky Mountain Front such a wild and 
special place to Montanans.
Conclusion
    The Rocky Mountain Front Heritage Act is a shining example of how 
Montanans can put their differences aside and work together to preserve 
our state's wild backcountry while meeting the needs of local 
communities. The Montana Wilderness Association strongly and 
enthusiastically supports S. 1774, the Rocky Mountain Front Heritage 
Act, and the permanent protections it provides. We urge the Committee 
to approve the bill and send it to the floor for consideration by the 
Senate.
            Sincerely,
                                               Brian Syber,
                                                Executive Director.
                                 ______
                                 
                            Montana Bowhunters Association,
                                       Billings, MT, April 4, 2012.
Hon. Max Baucus,
113, 3rd St. North, Great Falls, MT.
    Dear Max--
    As one of Montana's leading sportsman's organizations, the MBA is 
very interested in the future of the Rocky Mountain Front as critical 
wildlife habitat. We understand the importance of protecting it from 
further development, and realize that effort requires assistance from 
many organizations. We are pleased to add our endorsement to the Rocky 
Mountain Front Heritage Act, and thank you for your support of this 
collaborative effort.
            Sincerely,
                                               Joelle Selk,
                                                         President.
                                 ______
                                 
            Statement of Dawn Baker, Choteau, MT, on S. 1774
     Chairman Wyden, Ranking Member Barrasso, and members of the 
subcommittee:
     We farm and ranch ten miles north of Choteau, MT and are in the 
heart of the controversy about the Heritage Act. I appreciate the time 
and energy that has gone into the development of the Heritage Act. It 
is thoughtful and includes all local interests. Yes there is some 
opposition but these local people who don't normally take time to enjoy 
the wilderness anyway. Many of them are the same folks who oppose 
anything that does not have to do with development and making money. We 
live simply and can afford to enjoy those beautiful and breath taking 
areas that we hope you will protect.
    I would appreciate your consideration in getting this important act 
passed. Our wilderness future on the Rocky Mountain Front depends on 
it!
     Thank you for the opportunity to testify.
                                 ______
                                 
            Statement of The Wilderness Society, on S. 1774,

    The Wilderness Society (TWS), representing over 500,000 supporters 
and members, supports S. 1774, the ``Rocky Mountain Front Heritage 
Act'' introduced by Montana Senator Max Baucus.
    Montana's Rocky Mountain Front (the ``Front``) is truly an 
outstanding natural and cultural resource of national significance. It 
is a place where jagged limestone mountains rise up from the Great 
Plains in an unbroken 110-mile chain along the eastern side of the 
Continental Divide. This collision of vast landforms has created a 
foothill transition zone that is among the finest wildlife habitat in 
the lower 48 states. It is also a world-class destination for outdoor 
recreation in a natural setting of unparalleled splendor. Flanking the 
public wildlands are large working ranches and family farms along with 
guest ranches; many of these properties have been passed down from 
generation to generation.
    The Front lies adjacent to the Bob Marshall Wilderness (``the 
Bob''), named in honor of Bob Marshall; forester, wilderness 
preservation pioneer, and cofounder of The Wilderness Society. The Bob 
was originally set aside as the South Fork, Pentagon, and Sun River 
Primitive Areas between the years of 1931-1934 then, congressionally 
designated as Wilderness in 1964. Adjoining the Bob to the north is the 
Great Bear Wilderness and to the south of the Bob is the Scapegoat 
Wilderness. Taken together, these three Wilderness areas total 
approximately 1.5 million acres of carefully preserved public lands, 
that along with Glacier National Park comprise a critical piece of the 
larger landscape called the Crown of the Continent.
    To the Blackfeet Nation, the Front is known as Miistakis, the 
Backbone of the World, and is a part of their ancestral homeland. 
Fragments of the Old North Trail are still visible along this wild and 
sparsely inhabited landscape, primarily in the form of ruts left by the 
travois the continent's first natives pulled. Much of the pristine 
130,000-acre area for the northern end of the Front, referred to as the 
Badger-Two Medicine area has been nominated for inclusion in one of the 
nation's largest Traditional Cultural Districts. A.B. Guthrie Jr., 
Montana's native son, Pulitzer Prize winning novelist, and resident of 
the Front, eloquently describes the Rocky Mountain Front in The Big 
Sky:

          Overhead there was more sky than a man could think, curving 
        deep and far and empty, except maybe for a hawk or an eagle 
        sailing.The eye could follow the river winding and see where 
        canyons notched the blue mountains. One peak looked like an ear 
        turned up on its side. Trees and river and the wide valley and 
        the brown hills on either side floated in the fall haze, lazy 
        and comfortable and sleepy now in autumn. It was as pretty a 
        place as a man could wish, a prime place . . . 
          No place could be prettier than this valley, with two buttes 
        rising to the south and the tan hills ridged wide on the sides, 
        and cottonwood and black birch and sagebrush growing, and elk 
        and deer about and buffalo coming down from the benches to 
        drink. It was a place a man could spend his whole life in and 
        never wish for better . . . 

    S.1774 Continues the Tradition of Collaborative Conservation--
Recognizing the unique and superlative qualities of the Rocky Mountain 
Front, Montana citizens from all walks of life joined together to 
develop the Rocky Mountain Front Heritage Act. The goal of this loose-
knit and diverse group, known as the Coalition to Protect the Rocky 
Mountain Front (the ``Coalition''), was to develop legislative language 
that provides meaningful protection for the federally-owned public 
lands of the Front while preserving traditional uses consistent with 
protecting this special place. For more than five years, the members of 
the Coalition (which includes TWS) have worked diligently to include 
diverse perspectives, provide ample opportunities for public scrutiny, 
respond to everyone that provided input and whenever possible 
accommodate the needs of diverse stakeholders (Appendix A*). The Rocky 
Mountain Front Heritage Act follows in the footsteps of other Front 
collaborative partnerships that have successfully conserved the 
wildlife, water, and ranching heritage of the area (Appendix B). Almost 
a century ago, sportsmen purchased lands around the Sun River's 
headwaters to create the state's first wildlife refuge, the 200-000-
acre Sun River Game Preserve. The nation's premier Wilderness area, the 
Bob Marshall, includes some areas of the Front and Congress recently 
put an end to oil and gas leasing on all the Front's federal lands. 
State wildlife officials have set aside key areas for wildlife, such as 
the Blackleaf and Sun River wildlife management areas, to protect 
important winter range for elk and other big game. In addition, many 
private landowners have been full partners in Front conservation.
---------------------------------------------------------------------------
    * All appendixes have been retained in subcommittee files.
---------------------------------------------------------------------------
    S.1774 Will Protect the Front's Rich Array of Wildlife and Game 
Species--TWS supports S. 1774 because it will protect the vital 
National Forest and BLM lands that connect the alpine Wilderness to the 
west and the vital wildlife winter range on the prairie to the east. 
The land encompassed in S.1774 represents an irreplaceable biological 
link, providing habitat for more than 290 wildlife species and at least 
700 plant species, a full third of Montana's total. Except for wild 
bison, the Front continues to harbor all the species present when Lewis 
and Clark first laid eyes on these limestone reefs as they paddled up 
the Missouri River 200 years ago.
    The Front is the last place where grizzly bears still roam onto the 
Great Plains. Other threatened species, such as Canadian lynx and gray 
wolf, persist in numbers rivaled in few other places. Also present are 
healthy populations of bobcats, wolverines, swift and red foxes, moose, 
golden and bald eagles, harlequin ducks, badgers, peregrine falcons, 
native cutthroat trout, at least seven species of owl, and at least 11 
species of hawk. The main wildlife attraction, however, is big game. 
Elk, bighorn sheep, mule and whitetail deer, and mountain goats all 
depend on the lower-elevation landscapes of the Rockies' eastern front, 
where mild Chinook winds clear enough snow for winter forage and easier 
travel.
    Economic Contribution of Hunting on the Front--Along the Rocky 
Mountain Front, expenditures by hunters and anglers have held steady 
through the most recent recession, making these popular outdoor 
pursuits a rare bright spot when compared to the struggles of the 
broader economy.
    According to Montana Fish, Wildlife, and Parks (MTFWP) data, hunter 
expenditures along the Front, over a five year period from 2006 to 
2010, have held steady despite the broader economic challenges facing 
other industries during the recent recession.
    In real terms, during 2006, at the peak of the last business cycle, 
sportsmen hunting along the Front spent $9.8 million; growing to $10.4 
million in 2008 in the middle of the recession; and falling only 
slightly in 2010 to $10.1 million.
    These impressive numbers show that the high quality of the hunting 
resources on the Rocky Mountain Front is known not only to local 
residents but also to hunters from across the region and the country. 
In 2010 alone, MTFWP measured more than 90,000 hunter days on its 
districts along the Front.
    According to MTFWP most hunters visit the Front for upland game 
birds, deer, and elk while a smaller number of sportsmen hunted 
antelope, big horn sheep, moose, and mountain goats. In 2010, sportsmen 
hunting upland game birds spent more than $4 million and those hunting 
deer and elk spent more than $5 million.
The Wilderness Society Strongly Supports all Three Components of S. 
        1774
    Currently there is no permanent plan in place to protect existing 
uses on the Front's over 400,000 acres of Forest Service and BLM lands. 
This means that future land management could look very different from 
today. Montanans from all walks of life want the Front to maintain its 
current character and S. 1774 accomplishes this goal through its three-
pronged approach described below.
Conservation Management Area (CMA)
    208,160 acres of Forest Service and Bureau of Land Management land 
would be managed under the CMA which is intended to keep things the way 
they are and protect against an uncertain future.
Wilderness
    The Heritage Act would add 50,401 acres to the Bob Marshall 
Wilderness and 16,711 acres to the Scapegoat Wilderness for a total of 
67,112 acres. The Forest Service currently manages all of the proposed 
acres for their wilderness character.
    The legislation makes clear that grazing shall continue within 
wilderness areas, and TWS supports the continued grazing of livestock 
consistent with the Wilderness Act in the proposed wilderness 
additions.
Noxious Weeds Management
    Exotic and invasive species are a common enemy for ranchers, 
sportsmen, private landowners and public land managers and S. 1774 
would require the Forest Service and the BLM to prioritize noxious weed 
management on the public lands. The U.S. Fish and Wildlife Service 
(USFWS) has identified noxious weeds as one of the top three threats to 
the outstanding biological diversity on the Front. The threat of 
noxious weeds is real on the public lands of the Front and is an issue 
that federal land managers can and must address to protect the 
ecological and economic integrity of the public and adjacent private 
lands (see Appendix C).
Other Management Considerations
            Fire Management and Vegetation Management
    The Heritage Act ensures that land managers maintain the ability to 
control wildfires. Section 4(d)(1) of the Wilderness Act states that 
``such measures may be taken as necessary in the control of fires, 
insects and diseases'' within wilderness. The Heritage Act reaffirms 
this authority.
    The Heritage Act also provides the Forest Service the authority to 
carry out vegetation management projects within the CMA, consistent 
with the purposes of the Act.
    Motorized Use and Public Access There are currently 155 miles of 
legal motorized roads and trails on the Front. S. 1774 authorizes 
motorized vehicle use to continue within the CMA on designated routes. 
The Act would not close any route that is currently open to motorized 
vehicles.
Mountain Bicyclists
    The Heritage Act retains over 300 miles of trails and roads for 
cyclists on the Front and gives flexibility to create new bike trails 
in the future.
Conclusion
    S. 1774 is truly ``bottom-up'' and represents the product of 
neighbors and even adversaries sitting down long enough to get to know 
one another, learning to respect one another, and forging a common 
vision for the management of our public lands. Through a laborious 
process requiring ranchers, landowners, outfitters and others to 
volunteer hundreds of hours of their time, the Coalition was able to 
come to agreement on how the Front should be managed in the future. S. 
1774 reflects this vision.
    TWS supports S. 1774 and is committed to working with Senator 
Baucus, the committee and the administration to address concerns, and 
ensure that the Heritage Act is the best possible legislation for 
Montana and the nation. We look forward to seeing this legislation 
signed into law and urge the committee to advance it as expeditiously 
as possible.
                                 ______
                                 
    Statement of Ann M. Drake, President, Winnemucca NV, on S. 1788

    I am writing in support of S. 1788-Pine Forest Range Recreation 
Enhancement Act, a bill to designate the Pine Forest Range Wilderness 
area in Humboldt County, NV, included in the miscellaneous public lands 
bills presented during the Public Lands and Forests Subcommittee 
hearing Thursday, March 22, 2012.
    As part of the original working group, I am pleased and satisfied 
that this final product, if enacted into legislation, will protect the 
unique and spectacular nature of this area while providing clear and 
reasonable guidelines for use.
    Clarity was the motivation for many of the stakeholders who 
participated in the process, which was presented as an effort to move 
forward on two long-standing Wilderness Study Areas. A variety of 
backgrounds were represented, each with very different interests and 
agendas. The one common thread was the value we all placed on the lands 
in consideration. Exactly what was of value to each of us was as 
diverse as the group itself, and included much more than monetary 
considerations.
    Meeting for the first time was uncomfortable for many of us, unsure 
of how our interests could be protected amidst the varying (and 
seemingly opposite) agendas. Respect, experience, common sense, and 
some level of intelligence proved potent, and resulted in the 
development of the final recommendations. We started in meeting room 
chairs, gathered around tables with maps, toured the actual land under 
consideration, and returned to the meeting room. Ideas and perspectives 
may have changed through the process, but I believe the end product 
accomplished exactly what we intended from the beginning, which was to 
protect our vested interests in an area of priceless value.
                                 ______
                                 
                                         Friends of Nevada,
                                          Reno, NV, March 19, 2012.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, 703 Hart 
        Senate Office Washington, DC.
    Dear Chairman Bingaman:
    I want to thank you so much for holding a hearing on S. 1788, a 
bill to designate the Pine Forest Range Wilderness in Humboldt County, 
Nevada.
    As one of the Pine Working Group members, representing wilderness, 
I wanted to let you personally know how productive our meetings and 
field tours were as we worked together to find common sense solutions 
for boundaries for the Pine Forest Range proposed wilderness. Jim 
Jeffress from Trout Unlimited did an exceptional job heading up the 
process.
    Everyone brought their ideas, values and concerns to the table and 
we learned from each other and shared stories on why this area is so 
important to us and worth protecting.
    Friends of Nevada Wilderness and our volunteers are looking forward 
to getting together with the Bureau of Land Management and our fellow 
Pine Forest Working Group members to do on-the-ground projects that 
will improve wildlife habitat, recreation access, and help keep this 
gem of an area wild for future generations.
    Please know our 1,400 members are extremely supportive of this 
process and its outcome.
    Let us know if there is anything that we can do to help you move 
this process along. Again, our deepest thanks go out to you.
            Sincerely,
                                         Shaaron Netherton,
                                                Executive Director.
                                 ______
                                 
                    Humboldt County Board of Commissioners,
                                    Winnemucca, NV, March 12, 2012.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources, U.S. Senate, 703 Hart Senate 
        Office, Washington, DC.
    Dear Chairman Bingaman:
    In August 2009, the Humboldt County Commission sanctioned a new 
approach in reviewing the remaining Wilderness Study Area Inventory 
within Humboldt County. The recommended process focused on the two 
WSA's in the Pine Forest Range. A collaborative group ``Pine Forest WSA 
Working Group'' with over twenty members from diverse interest groups 
across northern Nevada was formed. The group formulated and moved 
forward twelve issues which were resolved and found full consensus by 
the Humboldt County Commission through a series of public meetings.
    We need to continue to move this legislation forward. In so much as 
this effort had complete consensus among the Pine Forest Working Group 
and their affiliates, full support of the Humboldt County 
Commissioners, a concurrent resolution of support from the Nevada 
Legislature 2011, and numerous other supporters, we look forward to 
your support in moving this legislation through Congress.
    We are especially proud that this grass-roots effort and the 
recommendations brought forward to not only benefit Humboldt county, 
but the state of Nevada to insure that special designation of this 
unique part of Nevada is attained for further generations.
    If you have questions, please contact the Humboldt County 
Administrator, Mr. Bill Deist. Mr. Deist will serve as the primary 
point of contact for the commission.
            Regards,
                                                 Mike Bell,
                                                          Chairman.
                                 ______
                                 
                                           Trout Unlimited,
                                     Arlington, VA, March 22, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, U.S. Senate, 
        304 Dirksen Senate Office Building, Washington, DC.
Hon. Lisa A. Murkowski
Ranking Member, Senate Energy and Natural Resources Committee, U.S. 
        Senate, 304 Dirksen Senate Office Building, Washington, DC.
RE: S. 1788, the Pine Forest Range Recreation Enhancement Act of 2011

    Dear Chairman Bingaman and Ranking Member Murkowski,
    I write on behalf of Trout Unlimited (TU) and its 140,000 members 
to express our strong support for S. 1788, the Pine Forest Range 
Recreation Enhancement Act of 2011. The legislation is the result of 
the collaborative efforts of the Pine Forest Working Group, a group of 
local citizens from northern Nevada, and will create a new 26,000-acre 
official wilderness area in the northwestern part of the state from two 
existing wilderness area study areas (WSA) through a unique series of 
land exchanges and creative compromises.
    The proposed wilderness, which augments the Blue Lakes WSA but 
releases 1,000 acres of the Alder Creek WSA for multiple use 
management, would conserve an area of Nevada that provides some of the 
best hunting and fishing opportunities in the state. Mule deer, 
pronghorn antelope and California bighorn sheep thrive in a landscape 
that ranges from 5,400 to over 9,000 feet of elevation, and also 
provides habitat for sage grouse, chukar partridge and valley quail. 
Three fishable lakes, the Blue Lakes complex and both Onion Valley and 
Knott Creek reservoirs, are a point of destination for thousands of 
anglers that visit each summer and fall.
    The bill is the result of a truly collaborative effort that won the 
unanimous support of the Humboldt County Commission, as well as working 
group members representing sportsmen, off-highway vehicle users, 
ranchers, the Humboldt County Administrator, Nevada Department of 
Wildlife, guides and outfitters, wilderness advocates, miners and the 
Humboldt County - University of Nevada Extension Agent. The process by 
which the recommendations were developed has received the endorsement 
of the 2011 Nevada State Legislature and the Nevada Association of 
Counties.
    TU strongly supports S. 1788. We thank you for holding a hearing on 
this important legislation, and for including this letter in the 
hearing record.
            Sincerely,
                                               Steve Moyer.
                                 ______
                                 
          Statement of Peter D. Bailey, Tacoma, WA, on S. 1906

    I was asked to testify at this hearing, but personal circumstances 
preclude my attendance, however I wish to share my thoughts with the 
sub-committee. I ask that you support and help facilitate the prompt 
passage of this legislation. The reasons are many. 1. It is a revenue 
neutral bill that has been reviewed by the Congressional Budget Office 
(CBO). 2. The bill has genuine bi-partisan support, with the following 
co-sponsors: Jon Tester [D- MT] (Sponsor), John Barrasso [R-WY], Max 
Baucus [D-MT], Michael Enzi [R-WY], Dianne Feinstein [D-CA], Charles 
Grassley [R-IA], and James Risch [R-ID]. 3. Forest Service leadership 
also supports the passage of the Cabin Fee Act with some modifications 
that we agree with. We believe the Forest Service will express such 
support at the hearing. 4. This bill will solve a long standing problem 
within the Recreation Residence Program that has been a huge burden to 
cabin owners and the Forest Service alike. Everyone looks forward to 
the resolution the bill provides. Please support the passage of the 
bill out of committee and early vote in the Senate.
                                 ______
                                 
    Statement of Roberta Ulrich, President, Priest Lake Permittees 
                 Association, Beaverton, OR, on S. 1906

    On behalf of the 121-member Priest Lake Permittees Association I 
thank the subcommittee for conducting this hearing on S1906. I hope 
this testimony will explain to you why the Cabin Fee Act is so vital to 
us. To put it in stark terms, a number of our members would not be able 
to pay the fees imposed by CUFFA, the current controlling act. They 
would be forced to sell, if a market remains in the face of such high 
fees; if they could not sell they would be forced to demolish their 
cabins and surrender their permits. Many of these families have had 
their cabins for four and five generations. Descendants of the man who 
built the original permitted cabin on Priest Lake in 1911 still gather 
there. I tuck my great grandson into a bunk on the sleeping porch where 
I tucked in his grandfather and my other son half a century ago.
    Perhaps a bit of history and description is in order. Although 
there were a few permitted recreation cabins n national forests early 
in the 20th Century, the formal recreation residence program was 
established by Congress in 1915, largely to draw middle income families 
into the national forests for recreation. At that time, Priest Lake in 
Idaho 90 miles northeast of Spokane, WA, and stretching almost to 
Canada was considered pretty remote. As late as the late 1940s the 
final 20 plus miles was dirt or gravel and the preceding pavement 
wasn't all that good. But the reward for that trip was a narrow 20-
mile-long lake that partially filled a glacier dug canyon with water so 
clear you could count fish 20 feet below the surface. Mountains more 
than 7,000 feet high guard both shores. On their flanks and in the 
nearby valleys are mixed conifer forests ranging from 2,000-year-old 
cedars to upstart lodgepole pine. I've been told this area with its 
rare inland maritime climate is the only place that still has all the 
wildlife that was present when Lewis and Clark went through Idaho 
farther south.
    The beauty was enough to draw people over the bone rattling dusty 
roads to claim a small lot for a cabin. Because the program was 
designed to pull less-than-rich people into the forests, the fees were 
low and less-than-rich people responded -teachers, office workers, 
craftsmen. We maintain that diversity today. With perhaps one or two 
exceptions, we are still the middle income people the cabin program was 
designed for.
    Our permits carry restrictions that make a national forest cabin 
far different from private property. The land remains public land 
except for the footprint of the cabin and any out buildings. Anyone may 
legally pitch a tent and settle down for the night next to my deck. We 
are limited in the size, color, building materials, and type of 
construction; most landscaping and the planting of non-native plants is 
forbidden. In my personal view, these restrictions have been good 
because they preserved the character of the forest and lake shoreline. 
But still they restrict what people can do with the cabins. In addition 
we pay county taxes (on the buildings), provide our own water, sewer, 
electrical and telephone service. The Forest Service provides none of 
these.
    I will leave it to the experts of the National Forest Homeowners 
Association to discuss how the CFA would leave the government income 
intact while providing relief to us. I will say only that we have no 
desire to deprive the government of legitimate revenue or to seek a 
subsidy for the cabin program. We want to pay a price that is fair to 
the government and fair to us, a price that will enable us to afford 
the annual fees.
    I leave you with this: my fee this year with the moratorium on 
implementing CUFFA was $6,355. Had CUFFA gone into effect the bill 
would have been $12,950.
                                 ______
                                 
 Statement of David Moryc, Senior Director, River Protection Program, 
                      American Rivers, on S. 2001

    On behalf of American Rivers' thousands of members and supporters 
thank you for holding a hearing on S. 2001, a bill to protect Oregon's 
Wild Rogue River and tributaries. We applaud Senator Ron Wyden for 
leading the effort to protect the Wild Rogue River. American Rivers is 
the nation's leading conservation organization fighting for healthy 
rivers and communities. Protecting Wild and Scenic Rivers was at the 
heart of our mission when we were founded in 1973 and we continue to 
support the protection of our nation's most outstanding rivers through 
the benefits of Wild and Scenic River designation.
    American Rivers strongly supports S. 2001, a bill to expand the 
Wild Rogue Wilderness and designate 93 miles of tributaries of the 
Rogue River as National Wild and Scenic Rivers. The Rogue River is one 
of the most iconic rivers in the United States, providing freshwater 
habitat to important ocean-going salmon runs and possessing flora and 
fauna diversity unmatched anywhere in the Pacific Northwest. The Rogue 
is the largest producer of Pacific salmon and steelhead in Oregon 
outside of the Columbia River basin, with over 85,000 anadromous fish 
returning from the ocean each year.
    The Rogue River and its fish-bearing streams are of critical 
economic importance to local communities and to the state of Oregon. A 
recent economic study determined that rafting, fishing and other 
recreation along the Rogue annually generate $30 million in economic 
output statewide, including 445 jobs. This includes local economic 
impacts of approximately $16 million Josephine County, OR, alone. 
Furthermore, another study concludes that West Coast residents enjoy 
more than $1.5 billion in economic benefits each year from the entirety 
of the Rogue River salmon and steelhead runs. These benefits include 
quality of life, and the importance placed on salmon by Oregonians and 
other West Coast residents. Consequently, it is clear that the Rogue 
River's fish populations are valued beyond just local communities, and 
even beyond the state of Oregon.
    Southwest Oregon voters favor additional protections for the Rogue 
River according to a recent poll conducted by Moore Information. Over 
75 percent of respondents support protection of the Rogue for its 
importance to the economy, scenic beauty and the health of fish and 
wildlife populations. The 300 participants from Josephine, Douglas, 
Jackson and Curry counties favor the pending legislative proposal by a 
clear majority. Rogue's cold-water tributaries are critical to the 
health and survival of these massive fish runs, yet most are currently 
unprotected. By expanding the Wild Rogue Wilderness and designating 93 
miles of Rogue tributaries as National Wild and Scenic Rivers, we can 
ensure that this economic engine is protected.
    Finally, we urge the Senate Energy and Natural Resources Committee 
to favorably report two additional bills concerning Wild and Scenic 
Rivers in Oregon as soon as possible-S. 403, the Molalla River Wild and 
Scenic Rivers Act, and S. 764, the Chetco River Protection Act. Both S. 
403 and S. 764 have overwhelming support from local communities who 
cherish the Molalla River and Chetco Rivers for the many benefits they 
provide.
    Thank you again for holding a hearing on the Rogue River. We urge 
the Senate Energy and Natural Resources Committee to support S. 2001.
            Sincerely,
                                 ______
                                 
  Statement of Jack H. Swift, Vice-Chairman, Southern Oregon Resource 
                 Alliance, Grants Pass, OR, on S. 2001

    Southern Oregon Resource Alliance is a local association of 
businesses, farmers, loggers, miners and concerned citizens dedicated 
to the responsible utilization of our natural resources. For nearly 
three decades SORA and our members have attempted to take an active 
role in the development and implementation of federal plans for the use 
of our resources. Generally, the results of management by bureaucracy 
from afar have not been good for our community or our resources. We ask 
to be heard regarding the present proposal to expand the Wild Rogue 
Wilderness Area and establish Wild and Scenic River protections within 
the watershed of the lower Rogue River.
    SORA opposes these expansions unequivocally, whether as a stand 
alone bill or whether as an inclusion in a larger scheme of management.
    This opposition is based on the fact that the lands in question are 
not wilderness and that the protections for these lands, and the 
attendant restrictions on use, serve no useful purpose. Moreover, the 
cost to the local community and the nation, both in terms of local 
government solvency and the mineral withdrawals proposed, is more than 
we and the nation can reasonably afford.
    The lands in question have been the subject of repeated evaluation 
and consideration by the Medford District BLM as wilderness. There was 
an initial evaluation and rejection in 1980. In that evaluation, the 
land was rejected because of its obvious economic value as revested 
Oregon and California Railroad lands dedicated to timber production as 
a means of support for local government and contribution to the local 
economy. SORA would point out that scheme worked exceedingly well and 
much of the proposed ``wilderness'' really is regeneration forest 
brought about under that scheme of management.
    The Medford District BLM has done repeated wilderness and wild/
scenic river evaluations on the area. One in 1995. Another in 2007. At 
best, 5667 acres in the Whiskey Creek area have been deemed to have 
wilderness characteristics. That is less than 10% of the withdrawal 
being proposed. Four of the tributaries to the Rogue proposed for wild 
and scenic designation and other protections were deemed to have the 
requisite wild and scenic characteristics.
    Most insightful are two watershed analyses undertaken by the 
Medford District BLM. These are ``Wild Rogue North Watershed Analysis'' 
dated December, 1999 and ``Wild Rogue-South Watershed Analysis'' dated 
March, 2000.
    In terms of the area being roadless, the studies make clear that 
there are extensive roads in the area created by timber operations, 
mining operations, fire fighting and as access to private property. 
Several access agreements remain in place in the area regarding 
historic interests. One should be aware that in these analyses the BLM 
recognizes several categories of roads: maintained roads, un-maintained 
roads and ``ways.'' Ways are defined as old un-maintained roads that 
have been reclaimed to varying degrees by vegetation. Of no consequence 
to the BLM and not recorded in their road inventories, these old fire 
roads or logging skid roads are of immense value to hunters and so-
called ``off-roaders'' and there are lots of them. In sum, the area 
does not present the traditional roadless characteristic one associates 
with wilderness.
    The proposed bill attempts to deal with this road problem by 
excluding the areas of heaviest concentration of roads. These 
exclusions give the resulting map of the area the look of Swiss cheese. 
In combination with the history of intensive timber management and 
plantation regeneration, the entire effort is analogous to declaring 
the drainage ditches around an Iowa cornfield to be wilderness. This 
area is not wilderness, not factually, not legally, not realistically. 
A simple drive through the area by those interested would make the 
facts abundantly clear.
    It is alleged that the additional protections are necessary to 
preserve the ``iconic'' Rogue River, its value to tourism and its 
``world class'' fishery.
    The Rogue River and the adjacent viewscape are already protected by 
its Wild and Scenic River designation. The river in this area has 
carved its way through the mountains in a deep and spectacular canyon. 
The terrain abutting the river is steep. The watershed analyses point 
to the fact that this terrain has gradients ranging from 40 degrees to 
perpendicular. Because of the depth of the canyon, it is impossible to 
see the lands proposed from the river. The only access by tourists to 
the river is by permitted rafting and by hiking the one trail that 
follows the river's edge the entire length of the wild and scenic 
portion. What lies above and beyond the tops of the canyon is 
irrelevant to the viewscape of these tourists.
    An arguable threat to the fishery could arise from commercial 
activities along the tributaries owing primarily to the presumed threat 
of sedimentation. However, as the watershed analyses point out, the 
primary sources of such questionable sedimentation are roads. Their 
conclusion has been that this threat is negligible in this area because 
fewer than 5% of the roads in the area are within 200 yards of a 
stream.
    The studies also point out that owing to the steep gradients in the 
area, the streams present very little gravel which is crucial to 
spawning of the anadromous species. Moreover, repeated studies have 
shown that the water temperatures are not conducive to salmon and 
steelhead who prefer cold temperatures. These waters are too warm. The 
Rogue itself is colder than its tributaries in this area because the 
Rogue is artificially cooled by regulated discharges from Lost Creek 
and Applegate dams. The area presents the unusual circumstance that the 
river is cooler than its tributaries. The result is that the river is 
highly important to the fish as a route to their spawning grounds in 
the cooler waters of the higher elevations. But these tributaries 
proposed for protection to protect the fish are not utilized by the 
fish.
    According to the BLM watershed analyses, the waters of the 
tributaries are irrelevant to the spawning of anadromous fish such as 
the salmon and steelhead. The waters are not used by these fish. That 
has been the historic pattern and there is nothing that is likely to 
change that situation.
    On the cost side of the equation, the price is dear, both for our 
county and the nation as a whole. All of the studies of the area, up to 
and including the recent FEIS for the Western Oregon Plan Revision 
speak to the hazard of catastrophic fire in the area owing to ladder 
fuel build up under a regime of fire suppression and lack of fuel 
management. These studies consistently rate these forests as 86% 
extreme or high fire hazard, with the overwhelming majority being 
extreme. Not so long ago we had the experience of the Bisquit fire in 
the Kalmiopsis Wilderness area. We are left with hundreds of thousands 
of acres of scorched lands with no esthetic or economic value and no 
regeneration management. While regulations would allow, at the 
discretion of the BLM, mechanical intervention for purposes of fire 
suppression, there are no regulations nor is it the scheme of 
management to mechanically remove ladder fuel accumulations in a 
wilderness area. This fire hazard can only be increased by wilderness 
designation. One wonders what the effect would be on tourism and the 
``iconic'' Rogue River canyon if it were visited by a stand replacement 
fire event.
    The lands proposed for wilderness designation consist entirely of 
revested Oregon and California Railroad lands. These are lands that 
were originally granted to the Oregon and California Railroad in 
compensation for building a railroad linking Sacramento and Portland in 
the late 1800s. As intended, they were enrolled on the tax rolls of the 
respective counties as a revenue foundation for the local governments 
brought about by the creation of the rail infrastructure. The removal 
of those lands from the local tax base created a financial crisis for 
the counties which led in turn to their dependence upon federal support 
-a situation that is unique in the country. In 1937 Congress solved the 
problem effectively by dedicating those lands to permanent sustained 
yield timber production and sharing the revenues generated with the 
counties. Until the current Northwest Forest Management Plan arrived in 
the course of the Clinton/Gore administration, that system worked quite 
well. Since then, the counties have once again been dependent upon 
federal subsidy. We submit that the solution to the funding problem for 
these counties is a simple Congressional declaration to the effect that 
the general northwest forest management plan does apply to the specific 
and unique O&C lands. But that is the opposite of what this bill 
attempts.
    This bill proposes the permanent withdrawal of the largest block of 
contiguous O&C lands in the system. This bill would remove these easily 
managed lands from production forever, whatever the fate of the 
northern spotted owl. As such, they could never contribute to the 
economy or the finances of the county, whatever management plan might 
arrive in the future. We submit that the counties cannot afford this 
and that it is a needless expense to the federal government.
    Most significant to the entire proposal is the provision for the 
mineral withdrawals set for the watershed and its tributaries. The area 
in question covers a large portion of the Josephine ultramafic sheet, 
well known for producing chrome, nickel and other valuable strategic 
materials. During WWII Josephine County was a source for chrome and 
supported a chrome smelter in Grants Pass. Should there arise a need 
for such resources in the future, the area should not be closed to 
exploitation.
    The area is highly mineralized and encompasses two historic mining 
districts: the Mt. Reuben Mining District and the Galice Mining 
District. Both districts have produced vast quantities of gold over the 
years and there are several active mines in the area. In addition, the 
area has been identified as a source for tellurium, critical to the 
production of solar panels While the area has not been surveyed for 
commercial concentrations of rare earth elements, the history and 
disposition of the land, especially its placer mining success, rank it 
according to the USGS as an excellent candidate for prospective REE 
development. We respectfully suggest that the watershed should not be 
the subject of a mineral withdrawal without a full evaluation of the 
cost to the nation and the community.
    As this is a bad investment for the nation, it is an incredible 
extravagance for the community. 70% of Josephine County is owned by the 
federal government. Of that, 10%, more than 70,000 acres, is already 
invested in wilderness or wild and scenic withdrawals. There is a large 
part of the Kalmiopsis Wilderness Area, part of the Red Butte 
Wilderness Area, the Oregon Caves National Monument, the Wild and 
Scenic River and the Wild and Scenic River corridor. Josephine County 
cannot afford greater investment in wilderness. Please reject this 
bill.
                                 ______
                                 
            Statement of the Wild Rogue Alliance, on S. 2001

    The Wild Rogue Alliance is a coalition of 114 businesses, 
organizations and associations that organized over the last five years 
to advocate protecting the economically, socially and ecologically 
important roadless area in the lower Rogue River Canyon, known locally 
as the Zane Grey roadless area, and the tributary streams in the same 
area.
    Protecting this area for future generations is important to many 
local values:

  <bullet> Fishing, hunting, rafting, camping, hiking, and other family 
        recreation activities;
  <bullet> Economic output of $30 million annually from the proposal 
        area, which acts as a foundation for the areas growing tourism 
        economy;
  <bullet> Critical habitat for the endangered northern spotted owl, 
        and coho salmon; and
  <bullet> Vast swaths of rare ancient forests.

    With this letter we send our support for S. 2001. This should not 
be interpreted as support for any other legislation.
    We urge you to advance the bill.
            Sincerely,

American River Touring Association
American Rivers
American Whitewater
Andy & Bax Sporting Goods
Andy Buckingham Guide Service
Andy's Wild Water Adventures Arrowhead River Adventures
Ashland Mountain Supply
Ashland Outdoor Store
Bear Creek Watershed Council
Big Rock Guide Service
Birdseye Creek Anglers
Black Bird Shopping Center
Blue Stone Bakery Cafe
Bullet Watercraft
Caddis Fly Angling Shop
Cascade Designs, Inc.
Cascadia Wildlands Project
Catherine Freer Wilderness Therapy Programs
Circle J's Cafe
Clear Creek Family Practice
Cricket Hill Winery
Destination Wilderness Adventure River
Center Resort
Dragons Lair
ECHO River Trips
Eco Tots
Ferron's Fun Trips
Fly Water Travel
Garden Gypsies
Guerrero Dental Lab
Heartsong
Helfrich's Tightlines Fishing and Rafting
Herb Pharm
Herb Shop
Home Waters Fly Fishing
Indigo Creek Outfitters
International Mountain Biking Association
Jefferson State Financial Group
Katalyst, Inc.
Keen Footwear
Klamath-Siskiyou Wildlands Center
Kokapelli River Guides
Listen Here CD's
Madrone Hill Mobile Home Park
Matt Ramsey Fishing Guides
McKenzie Flyfishers
McKenzie Outfitters
McKenzie River/Upper Willamette Trout Unlimited
Middle Rogue Steelheaders
Momentum River Expeditions
Morrison's Rogue River Lodge
Motel del Rogue
Mountain Gear
Native Fish Society
Never a Bum Steer
Noah's River Adventures
Noah's Wilderness Adventures
Northwest Nature Shop
Northwest Outdoor Store
Northwest Rafters Association
Northwest Rafting Company
Northwest Sportfishing Industry Association
OARS (Outdoor Adventure River Specialists)
Orange Torpedo Trips
Oregon Council of the Federation of Fly Fishers
Oregon Council of Trout Unlimited
Oregon Outpost
Oregon River Experiences
Oregon River Sports
Oregon Wild
Outdoor Industry Conservation Alliance
Outlaw Guide Service
Outward Bound
Pacific Coast Federation of Fishermen's Associations
Pacific Rivers Council
Paul's Bicycle Way of Life
River Trail Outfitters
Rogue Art
Rogue Coffee Roasters
Rogue Flyfishers
Rogue Klamath River Adventures
Rogue River Journeys
Rogue River Outfitters
Rogue River Raft Trips
Rogue Riverkeeper
Rogue Valley Runners
Rogue Wilderness Inc.
Rosso's
ROW Adventures
Saturday Artisan & Crafters Market
Sawyer Paddles and Oars
Siuslaw Guide Service
Soda Mountain Wilderness Council
Spin Cycles Inc.
Stream Restoration Alliance of the Middle Rogue
Summer Jo's Farm, Garden and Restaurant
Sundance Kayak School
Sunday Afternoons
Sunshine Natural Food & Vitamins
Swiftwater Guide Service
The Alpine Experience
The Bead Merchant
The Kitchen Company
The McKenzie Angler
The Riverhouse
Tierra Del Sol
Trium Winery, Talent, OR
Troy's Guide Service
Turtle River Rafting Co.
U-Save Gas and Tackle
Waterwatch
Weisenger's
Whitewater Warehouse
Wooldridge Creek Winery
Yale Creek Ranch
                                 ______
                                 
  Statement of Maynard Flohaug, President, Middle Rouge Steelheaders, 
                      Grants Pass, OR, on S. 2001

    This letter is in support of adding 93 miles of Rogue River 
tributaries to the national Wild & Scenic Rivers System.
    I am writing on behalf of the Middle Rogue Steel headers LLC., 
headquartered in Grants Pass, Oregon. Our primary purposes are to 
conserve, protect and restore coldwater fisheries and their watersheds. 
We operate as a non-profit, non-political, and nonsectarian 
organization. We function for charitable, educational, and scientific 
purposes, while supporting sports fishing for members and the general 
public. Our web site is http://www.rogue-steelheaders.org/.
    As you know, recreation and tourism on the Lower Wild and Scenic 
Rogue River are a very important part of southern Oregon's economic and 
social fabric. This outstanding landscape should be managed and 
protected to preserve these values for current and future generations. 
We urge you to take specific action to protect the wildlands and 
tributaries of the Lower Wild and Scenic Rogue River because of their 
importance to the Steel head and Salmon of the Pacific Northwest. 
Therefore we ask you to consider Wilderness and Wild and Scenic 
designations for some of the most remote, unspoiled, and pristine areas 
of this landscape, as a way to preserve this important area for future 
generations.
                                 ______
                                 
    Statement of Margaret Goodwin, Josephine County, OR, on S. 2001

    Honorable Chair and members of the Senate subcommittee on Public 
Lands and Forests, I would like to offer the following testimony on S 
2001, the Rogue Wilderness Area Expansion Act of 2011.
    I live in Josephine County, Oregon. Over 80% of the lands that this 
bill proposes to withdraw for Wilderness and/or Wild & Scenic 
designations and ``additional protections for Rogue Tributaries'' are 
in Josephine County. The community and the local government here in 
Josephine County are predominantly opposed to this bill. It will hurt 
our local economy, and will lock people out of access to this land for 
the common recreational purposes for which it is used today.
    On March 7, 2012, the Josephine County Board of County 
Commissioners officially passed a resolution opposing any further 
Wilderness expansion or Wild & Scenic River designations in our county, 
and specifically opposing this Rogue Wilderness Area Expansion Act (S 
2001). Prior to the Board voting on the resolution, Mr. David Strahan, 
who testified before this subcommittee, and Mr. Shane Jimerfield, of 
the Klamath-Siskiyou Wildlands Center, made a joint presentation to the 
Board of Commissioners in support of the Rogue Wilderness expansion. 
The Board also took testimony from citizens for over an hour and a half 
at the same meeting. The testimony ran 3:1 opposed to the wilderness 
expansion.
    Even without the local opposition, this bill should be rejected on 
legal grounds because over 90% of the 58,100 acres this bill would 
designate as Wilderness do not meet the federal criteria for Wilderness 
designation. The BLM has done several studies on this area, the latest 
in 2008, and has repeatedly found that only 5,667 acres qualify for 
Wilderness designation under Federal criteria.\1\
---------------------------------------------------------------------------
    \1\ BLM, 2008, Final Environmental Impact Statement for the Western 
Oregon Plan Revision (Vol 1, Table 3-73)
---------------------------------------------------------------------------
    The BLM also found that only 5,083 acres (just under 16 miles of 
creeks) in the designated area meet the Federal criteria for Wild & 
Scenic Rivers, where this bill would designate 93.2 miles of creeks as 
Wild & Scenic Rivers.\2\
---------------------------------------------------------------------------
    \2\ BLM, 2008, Final Environmental Impact Statement for the Western 
Oregon Plan Revision (Vol 1, Tables 2-34, 2-35, 3-76)
---------------------------------------------------------------------------
    It would be very wrong for our federal government to willfully 
designate lands as Wilderness and Wild & Scenic for purely political 
purposes, knowing that they do not meet the legitimate criteria for 
those designations. This would render the criteria for these 
designations meaningless, and make a mockery of the very laws that 
define Wilderness and Wild & Scenic Rivers.
    I would also like to respond to the testimony presented at the 
subcommittee hearing by Mr. David Strahan, who was the only witness who 
specifically addressed this bill. Mr. Strahan represents a special 
interest and his opinion on wilderness expansion is not representative 
of the community sentiment in Josephine County.
    In his testimony to this subcommittee, Mr. Strahan mentioned 110-
plus Oregon businesses that support the Wilderness expansion. Only one 
third of the businesses on that list are actually located in Josephine 
County, and a number of them are not even located in the state of 
Oregon. About 10% of them are not businesses, but environmentalist 
organizations, like the Klamath-Siskiyou Wildlands Center, Rogue 
Riverkeeper, WaterWatch, Oregon Wild, American Rivers, Cascadia 
Wildlands Project, Conservation Alliance, Pacific Rivers Council, 
Stream Restoration Alliance of the Middle Rogue, etc.
    Mr. Strahan also referred to a recent poll stating that 77% of 
those polled support the Wilderness expansion. This poll was conducted 
by Bob Moore, a pollster who was famously investigated by the New 
Hampshire attorney general in 2008 for conducting ``push polls.'' (Push 
polling means using the pretext of a poll to spread propaganda in 
support of a position advocated by the organization that commissions 
the poll.) That was not the first time this pollster has come under 
fire for push polling.
    This particular poll was commissioned by the environmental 
organization, American Rivers. Only 300 people were polled, and they 
were asked if they support additional protection of the Rogue River for 
its importance to the economy, scenic beauty and the health of fish and 
wildlife populations. They were not advised of any potential drawbacks 
of the Wilderness designation, such as the impact on the economy of 
permanently withdrawing these lands from all future timber and mineral 
production. Nor were they advised that the logging and mining roads 
that provide recreational access to these lands for local citizens 
would be permanently closed off by this wilderness designation. The 
poll was designed to present only one side of a complex issue to elicit 
a desired response.
    When local citizens were exposed to both sides of the issue, as 
they were at the Board of County Commissioners meeting on March 7, they 
overwhelmingly opposed this wilderness expansion. Mr. Strahan is 
presenting to this subcommittee the same one-sided presentation of the 
same complex issue. Please be aware that his views do not represent the 
views of the majority of the citizens of Josephine County. The 
resolution passed by our Board of County Commissioners officially 
opposing the Rogue Wilderness Area Expansion Act should be given more 
weight than Mr. Strahan's personal opinion.
    Mr. Strahan also testified that the American Forest Resource 
Council (AFRC) did not oppose this legislation as of May, 2010. At the 
time of his testimony, Mr. Strahan could not have been aware that, on 
March 22, 2012, the same day he was testifying, the AFRC officially 
reversed its position on this bill and announced its opposition to S 
2001 as a standalone wilderness expansion bill.
    When asked by Senator Wyden to elaborate on the economic benefits 
of S 2001, Mr. Strahan referred to the EcoNorthwest study, which was 
commissioned by the Save the Wild Rogue Campaign. Mr. Strahan stated 
that this study determined the existing Wild & Scenic section of the 
Rogue River produced ``over $18 million in economic benefits in 
Southern Oregon, as well as 300-plus full- and part-time jobs.`` 
Apparently, Mr. Strahan was confusing statewide impacts with local 
economic impacts in Southern Oregon. The study actually determined that 
the total economic impact in Josephine County associated with the Wild 
& Scenic section of the Rogue River was less than $7.7 million, and the 
total number of ``direct, indirect, and induced'' jobs in Josephine 
County was only 140.\3\
---------------------------------------------------------------------------
    \3\ EcoNorthwest, 2009, Regional Economic Impacts of Recreation on 
the Wild and Scenic Rogue River (p. 27, Table 3)
---------------------------------------------------------------------------
    In 2006, there was a timber sale for 10.64 million board feet of 
timber in the proposed Wilderness expansion area (the Kelsey-Whisky 
timber sale). Every million board feet of timber harvested supports 24 
jobs.\4\ That timber sale alone would have supported 255 local jobs. 
But the same environmentalist groups who are now promoting this 
wilderness expansion succeeded in halting that timber sale, killing all 
of those jobs. The timber sale was quite far from the river, and would 
have had no impact at all on river recreation. This area could have 
easily sustained both the 140 river recreation jobs and the 255 timber 
jobs. Blocking that one timber sale had a far greater impact on the 
local economy than the entire tourism and recreation industry on the 
Wild & Scenic section of the Rogue River that year. And designating 
this land as Wilderness will make that negative economic impact 
permanent.
---------------------------------------------------------------------------
    \4\ Oregon Department of Forestry, 2010, Northwest Oregon State 
Forests Management Plan (p. 2-75).
---------------------------------------------------------------------------
    Mr. Strahan went on at some length about his boyhood and adult 
adventures on the Rogue. I would like to point out that all of those 
wonderful experiences occurred without the Wilderness protections that 
are being sought in this bill. Furthermore, all of the economic 
benefits of recreational use of the Rogue River have accrued without 
these additional Wilderness protections. The fact is that all of the 
lands that can be seen or accessed from the Wild & Scenic section of 
the Rogue are already protected under the existing Wild & Scenic River 
designation.
    Designating an additional 58,100 acres, which cannot be seen or 
accessed from the river, as Wilderness will have no impact whatever on 
river recreation. But it will have an enormous and permanent negative 
impact on our local economy by eliminating any future timber production 
on these lands, and any future mineral exploration and extraction on 
150 miles of creeks in one of the most highly mineralized areas in the 
state of Oregon. Additionally, this Wilderness designation will cut off 
recreational access to these lands for most of the local residents who 
use the logging and mining roads to access them today.
    We are a poor county, with already high unemployment, and we cannot 
afford more Wilderness.
    Thank you for this opportunity to present the other side of the 
story.
                                 ______
                                 
                                             Carbon County,
                                       Price, Utah, March 14, 2012.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, 703 Hart 
        Senate Office Building, Washington, DC.
    Dear Chairman, Bingaman:
    Thank you for the opportunity to submit our testimony in support of 
the Bill to authorize the Department of Interior to convey certain 
interests in Federal Land that was acquired for the Scofield Project in 
Carbon County, Utah.
    The Scofield Dam was built to provide water to sustain the citizens 
of Carbon County and to protect the railroad which was the primary 
route to deliver coal to steel mills during World War II. Over the 
years, generations of Carbon County families have lived, worked and 
recreated in and around the Scofield Reservoir.
    As the Carbon County Board of Commissioners, we recognize that 
there are a number of concerns including the advancement of technology 
which has evolved over the years to help USGS determine accurate 
elevation levels of the reservoir. As a result, conflicting information 
arose based on outdated technology.
    We believe the County and local stakeholders have worked hard to 
identify a course of action that is favorable to local stakeholders, 
the Federal Government and Carbon County. We feel that our efforts have 
been collaborative, open and committed to finding a fair and balanced 
resolution to this problem. And, even though this resolution is not 
perfect, we feel it is a fair and reasonable compromise for everyone.
    With the passage of this language, stakeholders will continue to 
have access to property that has been in their families for 
generations. It will also enable the Bureau of Reclamation to meet 
compliance standards for Scofield Dam.
    If this Bill fails to pass, sixty-five families will be left with 
nothing more than a memory of years where families were raised and 
weekends spent in homes near the lake and of building a sense of 
community pride that helped fortify them during times of adversity as 
well as prosperity.
    Many of these families have worked hard to improve and develop the 
area and have paid taxes the entire time so that they and their 
families can continue to enjoy the benefits of homeownership in the 
Scofield community. The county, state and federal governments also 
committed financial resources to develop infrastructure in the area 
including sewer, roads and utilities.
    Most homes are simple and the people who own them are from modest 
backgrounds. The only reason many of them are able to have a house in 
the area is because it was passed down from one generation to the next. 
In today's world, these people would not be able to afford to replace 
these houses if they were forced to build elsewhere. Most of these 
people are now retired and have planned to spend their retirement years 
at their property. They will not be able to do that if the Bill does 
not pass.
    The Carbon County Commission will continue to work in a 
collaborative spirit with local stakeholders and federal agencies to 
resolve this issue.
    Thank you again for the opportunity to present these comments. We 
respectfully request and sincerely hope that Congress passes S. 2056. 
Please feel free to contact us if you or any committee member has 
questions or would like to discuss this further.
            Sincerely,
                                       Michael S. Milovich,
                                                          Chairman.
                                 ______
                                 
Statement of Bruce Dunn, Richard Dunn, Clyde (``Bud'') Pannier, Joseph 
          Lamb, E. Jay Sheen, Salt Lake City, Utah, on S. 2056

    Some of the history from the documents the Bureau of Reclamation 
produced in the quiet title action referred to in the agency's 
statement on this bill.
    1. In the letter from Parley R. Heeley inquiring of the BOR, dated 
January 16, 1944, the 1927 Jorgensen deed to Price River Water 
Conservancy District is described as follows: ``This Warranty Deed is 
subject to the right to graze or otherwise use any portion of said 
lands where not actually covered by water of grantee's reservoir, 
heretofore granted to Neil M. Madsen and Andrew C. Madsen.`` Mr. Heeley 
goes on to inquire as follows: ``You are requested to advise as to 
whether the United States has sufficient title in these lands . . . to 
convey to the State of Utah rights of way for relocation of the highway 
. . . ''
    2. The BOR map of the Scofield Reservoir dated 11-17-59 has legends 
that show a large portion of the disputed land as ``Fee title in U.S. 
subject to grazing and any other use except when inundated.'' The map, 
with its legends, has separate signatures for submitted, recommended 
and approved, each of which were initialed by relevant BOR employees.
    3. The BOR map dated 03-29-67 shows the same property as either 
``Flowage Easement (only) in U.S.'', or ``Fee Title in U.S. subject to 
grazing and other use except when inundated.'' This map too, with its 
legends, has separate signatures for submitted, recommended and 
approved.
    4. In a 1968 appraisal prepared by the BOR, it is noted that: 
``Land in Catergory II is designated on project maps as owned by the 
United States, in fee title, subject to grazing and any other use when 
not inundated . . . Three daughters of Anna W. Madsen are being 
assessed by Carbon County and are paying taxes on the subject tract.''
    5. By letter dated May 31, 1988, A. J. Butler indicated that a 
meeting was held on May 17, 1977 in Conference Room 7102 at the Federal 
Building, between Ron Staten, an attorney for the BOR (Solicitor's 
Office), deceased before the date of the letter, and Joseph J. Palmer, 
attorney for Lazy CP, predecessor to the Dunn's, and other landowners. 
The representation was made by Mr. Staten to Mr. Palmer, that ``he was 
recommending to Washington that the United States did not own the land 
in question but only possessed a surface flood easement. Apparently, 
Mr. Staten was terminally ill at the time but stated that if he did not 
finish his report to Washington, that a Mr. Roland Robinson, another 
attorney in the office, was fully advised on the matter and would 
follow through.'' Mr. Palmer made a note to his file, dated October 10, 
1977, stating essentially the same thing: ``Ron Staten told me, on my 
inquiry, that his file has a draft report and recommendation to 
Washington to the effect that government has only a surface flood 
easement.`` The handwritten note from someone at BOR dds further 
credence to the notion that everyone left the meeting waiting to hear 
of the implementation of Justice's recommendation.
    6. Plat map in the BOR file, dated May 9, 1981, shows the 
predecessors of the persons noted above as ``owners'' of the lots 
indicated.
    7. Letter stamped March 19, 1987, with appraisal attached states 
the following: ``Because of the expediency of the work at this time 
[referring to the reconstruction in 1943 and thereafter], rights-of-way 
were not carefully prepared and documented. Fee title lands in the 
United States were acquired; flowage easements only were acquired; fee 
title lands in the United States, subject to grazing and any other use 
except when inundated (``funny title''), were acquired . . . The Bureau 
of Reclamation has been trying for several years to clear up trespass 
problems and deal with the ``funny title'' problem. Funding to do such 
is nonexistent.'' The appraisal, done by Foster R. Lamb for the BOR in 
late 1986, regards the subject land, ownership of which is described in 
the appraisal as: According to what the Appraiser can best determine 
fee title to the subject tract is held in the United States, subject to 
grazing and any other use except when inundated by Schofield [sp] 
Reservoir. The right to use the subject parcel for other purposes is 
owned by the Madsen Family. The Madsen family members have in turn 
leased the property along with other land to Mr. Mike Singleton for a 
recreational trailer and boat camp.''
    Mr. Lamb indicated he contacted Clyde ``Bud'' Pannier in connection 
with the appraisal. The only thing Mr. Pannier could have taken from 
that contact was that the U.S. continued to recognized his family's 
title in the property and were considering making an offer to purchase 
it, based on the outcome of the appraisal.
    8. The commitment for title insurance dated May 3, 1988, prepared 
by USA Insurance Corporation, for BOR, showed the confused state of 
title when it noted the exceptions to the commitement, Schecule B-II: 
``19. Subject to the claims of interest of Boyd W. Hafer, Johanna M. 
Hafer, Bladys P. Butler, Louise M. Watts, Evelyn M. Jacobsen, Leoann M. 
Gunderson and Della L. Madsen as Grantees under various Deeds of 
record. NOTE: These interests appear to derive from the interest of 
Neil M. Madsen which was extinguished by that certain Order and Decree 
described above.'' The insurance company was only willing to insure 
with the exception noted.
    9. The letter to Mike Jackson, Superintendent of Scofield State 
Park, from P. Kirt Carpenter, Project Manager, referenced the ``Funny 
Title'' lands: ``These lands were acquired in fee title by the United 
States as part of the Scofield Project. The deeds reserved the rights 
of the former owners to retain grazing and other uses except when 
inundated.''
    10. The transaction by which the U.S. claims to have purchased 
interests in the property from the Madsens and the Watts was not 
concluded for many years. Payment was still being discussed in November 
of 1950, more than seven years after the contract of sale was dated. 
The communication from Mr. Neeley, in November of 1950, indicated that 
payment had yet to be made. We still have no evidence payment was made 
or received by the sellers.
    11. Possession of the property by third parties has been open and 
obvious for decades. Other governmental entities have recognized the 
property rights of the persons occupying the property, not the U.S. For 
example, water and sewer were built to the houses under the auspices of 
a Special Improvement District. The Dunns or their predecessors 
obtained a permit to construct and operate a well on his property, and 
the permit was renewed and modified at different times. Carbon County 
continues to this day to assess property taxes on the land.
    The government, for its own account, recognized its limited title 
to the property over and over again in its internal documents, in 
communications to and from third parties, and over a span of decades.
    From 1927 until 1945, the Madsens continued to use the Scofield 
Reservoir property (as it was then being called) as they had since 
acquiring that property. They grazed cattle and sheep on the property. 
They farmed parts of the property. They treated the property as their 
own.
    That had been part of the original agreement that had originated 
with Mr. Jorgensen. The Madsens would be able to use the Scofield 
Reservoir Property when not inundated by water, so long as that use did 
not to interfere with use of the reservoir or the flow of water into 
the reservoir. After the new dam was finished in about 1946, life went 
back to normal in Scofield. People moved in and out. Families grew up, 
children moved away. The Scofield Reservoir became a gathering place 
for families. Reunions, hunting trips, recreation, fishing. And still 
the Madsens and their family used the property for grazing, farming and 
leased parts of the Scofield Reservoir Property to others for boat 
camps, sheep farming and other uses.
    In the summers, the lake was a bustle of activity. Tents, trailers 
and campers lined the lake. Houses began to spring up and permanent 
structures erected for stores, restaurants, cafes and both seasonal and 
permanent accommodations that were a vast improvement over a tent or 
camper floor. Life at Scofield continued in this fashion from 1948 to 
1972, without any concern being raised by any government authority 
regarding any trespass by Defendants or their predecessors.
    In June of 1976, the Government sent a notice to property owners 
occupying the Scofield Reservoir Property that they were trespassing on 
government land.
    This news created a stir among the property owners as most had been 
raised on the notion that their family owned the Scofield Reservoir 
Property since nearly the turn of the century.
    A meeting was held in Salt Lake City, at the federal building, on 
May 17, 1977. Presiding over that meeting was Ron Staten, a 
representative from the United States Department of the Interior.
    Each participant at the May 17, 1977 meeting believed that, after 
the meeting, the matter of ownership of the Scofield Reservoir Property 
had been resolved in favor of the acknowledgment of the use right. 
After that meeting, the Government took no further action in relation 
to its claim of ownership for another 22 years. From 1927 until just 
recently the Madsens and their successors - as well as the Government 
and its agencies-acted consistent with the reservation of the right to 
use the Scofield Reservoir Property for any and all purposes not 
inconsistent with the flowage or storage of water thereon.
    The parties desire to be treated equal to those landowners on the 
other side of the resevoir.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
